 I nvestigative
 Policy &
 O versight

   Evaluation of Installation-Level Training Standards for
   Civilian Police Officers (GS-0083) and Security Guards
           (GS-0085) in the Department of Defense
Report Number IPO2002E004                       December 20, 2002




              Office of the Inspector General
                  Department of Defense
                       Additional Information and Copies
This report was prepared by the Oversight Directorate, Office of the Deputy Assistant Inspector General
for Criminal Investigative Policy and Oversight, Office of the Inspector General, Department of
Defense. If you have questions on this evaluation or want additional copies of the report, contact
Mr. John Perryman, Program Director, at (703) 604-8765 (DSN 664-8765) or Mr. Jack Montgomery,
Project Manager, at (703) 604-8703 (DSN 664-8703)

Acronyms Used in This Report

AIT                   Advanced Individual Training
AR                    Army Regulation
ASD(C3I)              Assistant Secretary of Defense (Command, Control, Communications and
                         Intelligence)
BOI                   Board on Investigations
DA                    Department of the Army
DLA                   Defense Logistics Agency
DMDC                  Defense Manpower Data Center
DoD                   Department of Defense
DPS                   Defense Protective Service
FLETC                 Federal Law Enforcement Training Center
GS                    General Schedule
IADLEST               International Association of Directors of Law Enforcement Standards and
                         Training
IG DoD                Inspector General, Department of Defense
MACOM                 Major Army Command
MP                    Military Police
NEC                   Navy Enlisted Classification
NIMA                  National Imagery and Mapping Agency
NSA                   National Security Agency
OJT                   On-the-Job Training
OPM                   Office of Personnel Management
PFPA                  Pentagon Force Protection Agency
POST                  Peace Officer Standards and Training
TDA                   Table of Distribution and Allowances
USAMPS                United States Army Military Police School
USD(P&R)              Under Secretary of Defense (Personnel and Readiness)
WHS                   Washington Headquarters Services
                              INSPECTOR GENERAL
                              DEPARTMENTOF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARUNGTON.VIRGINIA 22202-2884               DEC20 m.



MEMORANDUM FOR UNDER SECRETARYOF DEFENSE(pERSONNEL AND
                  READINESS)
               ASSISTANT SECRETARYOF THE AIR FORCE
                   (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTORGE~~AL
               AUDn~GENE~DEPARTMENT      ,
                                                OF THE ARMY
                                                 ~




               DIRECfOR,
               "           DEFENSE   CONTRACT MANAGEMENT
                   AGENCY          .
               DIRECTOR,
                  .
                 .AGENCY . DEFENSE
                              " ..
                                     INFORMATION SYSTEMS
                                             \
                                                  .


                        DIRECTOR, DEFENSEINTELLIGENCE AGENCY
                        DIRECTOR, DEFENSELOGISTICS AGENCY
                        DIRECTOR,NATIONAL IMAGERY AND MAPPING
                          AGENCY
                        DIRECTOR, WASHINGTON HEADQUARTERS SERVICES
                        DIRECTOR,NATIONAL SECURITY AGENCY
                        CHIEF, ARMY RESERVE
                        CHIEF, AIR FORCERESERVE
                        CHIEF, NATIONAL GUARD BUREAU

SUBffiCT:     Evaluationof Installation-levelTraining Standardsfor Civilian Police
              Officers (GS-OO83) and SecurityGuards(GS-OO85)    in the Departmentof
              Defense(ReportNo. IPO2002EOO4)


        This report is provided for your review and comment. Commentsthat we
receivedon the draft report are addressedin this fmal report and are included as
Appendix N. The Under Secretaryof Defense(personnelandReadiness)(USD(p&R))
andthe Departmentof the Anny, althoughagreeingwith the needfor standardized
training, could not reachinternal consensuson our recommendationsand did not
completetheir commentsin time for inclusion in the final report. They should finalize
their positions in commentingon this final report. Pleaseensurethat we receive
commentson the final report no later than February26,2003, andthat they conform to
the requirementsin DoD Directive 7650.3.

        During infonnal discussions,USD(P&R) representativesagreedthat they should
be involved in establishingstandardtraining for generallaw enforcementpersonnel,but
after the "functionals" detenninethe requirements.We continueto believethat
USD(P&R) shouldassumeresponsibilityfor overseeingand guiding the requirements
detemlination,aswell asthe establishmentand implementation.As indicatedin the
report,USD(P&R) could usea leador executiveagencyfor this pUIpose.Due to its
previousefforts in this area,we believethe Amly would be a good candidatefor the lead
                                                                                    2
or executiveagencyrole. Accordingly, we havecontinuedour recommendationsfrom
the draft report.

       We appreciatethe courtesiesextendedto the evaluationstaff. For additional
infonnation on this report,pleasecontactMr. JackMontgomery,ProjectManager,at
(703) 604-8703(commercial),664-8703(DSN), or ~imontgom~@dodig.osd.mil(e-
mail). You may also contactMr. JohnPerryman,Director of Evaluations,at (703) 604-
8765(commercial),664-8765'                                   ',(e-mail).



                                "-
                                  Richard C. 'Bel
                     Acting Deputy Assistant Inspector Gen
                         Investigative Policy and Oversi
Evaluation of Installation-Level Training Standards for
Civilian Police Officers (GS-0083) and Security Guards
        (GS-0085) in the Department of Defense

                                TABLE OF CONTENTS

Executive Summary .................................................................................. i
Part I - Introduction ................................................................................. 1
  Background ..................................................................................... 1
     Classification and Authority.................................................................. 1
     Policy and Management ...................................................................... 2
     Industry Standards ............................................................................. 2
  Prior Reviews ..................................................................................... 4
     Related Study ................................................................................... 5
  Objectives, Scope, and Methodology.......................................................... 6
Part II – Results of Evaluation and Recommendations ........................................ 8
  Finding: Training for DoD Police Officers and Security Guards Does Not Ensure
  Core Competencies Needed for Law Enforcement Duty .................................. 8
     Discussion ..................................................................................... 8
     Core Training................................................................................... 9
     DoD Training..................................................................................10
     Training for Threats and Emergencies ....................................................13
     Training for Military Law Enforcement ..................................................14
     Physical Fitness Requirements..............................................................16
  Conclusions ....................................................................................16
  Management Comments and Our Evaluation ...............................................18
  Recommendations................................................................................18


Appendix A      –   Police Officers vs. Security Guards
Appendix B      –   Example DoD Component Policy
Appendix C      –   Industry Training Standards
Appendix D      –   Random Sample
Appendix E      –   Employee Survey Questionnaire
Appendix F      –   Command and Staff Questionnaire
Appendix G      –   Employee Survey Results
Appendix H      –   Command and Staff Survey Results
Appendix I      –   DoD Profile
Appendix J      –   Results of Actual Police Training Categorization Efforts
Appendix K      –   Army Job Task Analysis Results
Appendix L      –   Air Force Training for Military Law Enforcement Personnel
Appendix M      –   Report Distribution
Appendix N      -   Management Comments
                Office of the Inspector General, Department of Defense
Project No. 2001C002                                                                           December 20, 2002

                Evaluation of Installation-level Training Standards for
          Civilian Police Officers (GS-0083) and Security Guards (GS-0085)
                             in the Department of Defense

                                         Executive Summary
Introduction. As of October 31, 2001, the Department of Defense (DoD) employed over
5,500 civilian police officers and security guards at 157 separate agencies, installations,
or activities, and the numbers were increasing. Unlike most significant functional areas,
the Department has not assigned overall responsibility for the general law enforcement
function to an office within the Office of the Secretary of Defense (OSD). Individual
DoD components establish and maintain their own training, and practices vary widely
across the Department.

Objectives. Our primary objective was to determine whether DoD should standardize
training for its civilian law enforcement personnel, including whether current training
ensures the knowledge and expertise needed to:
      •     perform essential law enforcement and security functions; and
      •     respond to major threats and emergencies.
Results. We found that training for civilian police officers and security guards in DoD
will continue to vary widely and not ensure that individuals possess the core competences
needed for their jobs, including the ability to respond to major threats and emergencies.
We identified a similar condition with respect to their physical fitness requirements.
Summary of Recommendations. We recommended that the Under Secretary of
Defense (Personnel and Readiness) (USD(P&R)) be given overall responsibility and then
work with DoD components to determine whether DoD should: (1) follow the Model
Minimum Standards for training adopted for the law enforcement profession; or
(2) require civilian GS-0083 Police Officers and GS-0085 Security Guards to complete a
military training program for law enforcement personnel. Additional recommendations
address training equivalency/skill competency, training sources, supplementing core
training for unique mission needs, preparing civilian law enforcement personnel for
major threats and emergencies, and physical fitness requirements.
Management Comments. On August 28, 2002, we distributed this report in draft form.
We received comments from Navy, Air Force, Defense Logistics Agency, National
Imagery and Mapping Agency, National Security Agency, Pentagon Force Protection
Agency (for the Washington Headquarters Services), and Army Reserve (see
Appendix N).1 The comments agreed that DoD needs standard, core training for civilian
law enforcement personnel. USD(P&R) and Army, although agreeing with the need for
standardization, did not reach internal consensus on our recommendations and did not

1
    Defense Contract Management Agency, Defense Intelligence Agency, and Defense Information Systems Agency, notified us
    that they did not have comments on the draft report.
                                                            i
complete their comments in time for inclusion in the final report. They will have the
opportunity to finalize their positions in responding to the final report.

During informal discussions, USD(P&R) representatives agreed that they should be
involved with establishing the standard training, but after the “functionals” determine the
requirements. We continue to believe that USD(P&R) should assume responsibility for
overseeing and guiding the requirements determination, as well as the establishment and
implementation. As indicated in the report, USD(P&R) could use a lead or executive
agency for this purpose. Due to its previous efforts in this area, we believe the Army
would be a good candidate for the lead or executive agency role. Accordingly, we have
continued our recommendations from the draft report.




                                             ii
Evaluation of Installation-Level Training Standards for
Civilian Police Officers (GS-0083) and Security Guards
        (GS-0085) in the Department of Defense
                (Project No. 2001C002)

                                      PART I - INTRODUCTION


BACKGROUND

        DoD employs over 5,500 civilian police officers and security guards at 157 separate
agencies, installations, or activities (hereafter referred to generally as installations).2 Although
most installations employ police officers or security guards only, many employ both police
officers and security guards. Furthermore, some installations that employ both police officers
and security guards use security guards interchangeably with police officers. The table below
shows the numbers of installations, police officers, and security guards on October 31, 2001.

                                                   Table 1
                                       DoD Installations Employing
                              Civilian Police Officers and/or Security Guards

               Type                  No. of               Police               Security                 Total
            Installation          Installations          Officers              Guards
                                  No.       %           No.      %            No.     %             No.         %
           DoD (a)                   13        8.3        416        12.4       314       14.5        730       13.2
           Army                      56       35.7        959        28.6     1,004       46.2      1,963       35.5
           Navy (b)                  63       40.1      1,790        53.4       518       23.8      2,308       41.8
           Air Force                 25       15.9        185         5.5       336       15.5        521        9.4
             Total                  157      100.0      3,350       100.0     2,172      100.0      5,522      100.0

           (a)   Defense Agencies and DoD Field Activities
           (b)   Includes two Marine Corps activities


        As can be seen in Table 1, the Army and Navy employ the most civilian police
officers and security guards. Together they account for about 76 percent of the installations
and 77 percent of the police officers and security guards.

         CLASSIFICATION AND AUTHORITY
      Civilian police officers and security guards are hired in the GS-0083 Police Officer or
GS-0085 Security Guard job series, wear uniforms with "DoD" badges and insignia, and are

2
    DoD components have been increasing their civilian police officers and security guards in recent years due first to military
    downsizing and then to higher security needs. By June 2002, the numbers had grown to more than 6,500 civilian police officers
    and security guards, not including Air Force increases since May 2001.



                                                                1
identified as "DoD Police Officers" and "DoD Security Guards."3 The positions typically
include both law enforcement and security work, and the primary duties are the basis for
properly classifying the position as GS-0083 Police Officer or GS-0085 Security Guard. (See
Appendix A) The individual installation commanders who create the positions and select
candidates to fill them have substantial latitude in determining the primary duties that will be
performed and, therefore, the position classification. They are also responsible for funding the
operations, including training costs.

         DoD police officers and security guards derive law enforcement authority by
delegations from their military commanders or civilian directors who are responsible for
installation security and given authority commensurate with that responsibility.4 As a result,
police officers and guards have law enforcement authority only while performing their DoD
law enforcement or security duties. If their positions require carrying a firearm, they must be
issued service weapons upon reporting for duty each day and then turn them in for storage and
safekeeping upon completing their duty tours.

         POLICY AND MANAGEMENT
        The overall criminal justice system encompasses several functional areas: general law
enforcement (police and security); criminal investigation; prosecution; and incarceration.
Specific aspects of these areas are within the purview of DoD components. For example, the
Inspector General, Department of Defense (IG DoD) has policy and oversight responsibility
for criminal investigations. The General Counsel of the Department of Defense has overall
responsibility for legal matters. The Under Secretary of Defense (Personnel and Readiness)
(USD(P&R)) sets personnel policy, including policy for correctional and confinement matters.
The Department, however, has not specifically assigned overall responsibility for the general
law enforcement functional area, including civilian police officer and security guard
operations. Individual DoD components establish and maintain their own policy, including
requirements and standards for training. As a result, both requirements and actual practices
vary widely across the DoD. Some DoD component training requirements are summarized in
Appendix B as examples.

         INDUSTRY STANDARDS
         The need for competent, well-trained, and ethical police officers has been a major
industry emphasis for many years, dating to at least 1893 when the International Association
of Chiefs of Police was formed. In 1967, the President’s Commission on Law Enforcement
and the Administration of Justice published “The Challenge of Crime in a Free Society,” and
the follow-up task report, “The Police.” One recommendation was that each State establish a
Peace Officer Standards and Training (POST) Commission.5 In 1973, the National Advisory

3
    The Department of the Army has begun converting its badges and insignia for civilian police officers from DoD to Army
    designations. Similarly, the Air Force has begun converting its civilian police officer and guard insignia to Air Force Security
    Force designations.
4
    The Defense Protective Service (DPS) is an exception. DPS was given statutory law enforcement authority when responsibility
    for protecting the Pentagon Reservation was transferred from the Federal Protective Service in 1987.
5
    By 1981, all states had done so. According to POST literature, ". . . POST organizations were created out of the crucible of
    conflict, change, and the demand for professionalism and ethics in public officers. POST programs exist to assure all citizens


                                                                 2
Commission on Criminal Justice Standards and Goals published additional recommendations.
Recommendations for upgrading the quality of police personnel ranged from proposals for
improved recruitment and selection to encouraging extensive recruit and in-service training
requirements that would be mandatory for all police personnel.

        In 1969, the State POST organizations formed an association, now known as the
International Association of Directors of Law Enforcement Standards and Training
(IADLEST).6 IADLEST resolved to establish a set of Model Minimum Standards for law
enforcement officers that all States could aspire to achieve. IADLEST, however, did not
attempt to dictate training curricula. According to IADLEST:
               “The term ‘standards’ has different meanings to different people. . . . ‘the
               literature on training and standards reveals that state statutory training
               requirements serve as minimum prerequisites for purposes of certification and
               licensing’ officers. In general, certification requirements are based upon a level
               of norm-referenced performance. . . . licensing is a process by which an agency
               of government grants permission to an individual to engage in a given
               occupation upon finding that the applicant has attained a minimum degree of
               competency required to insure that the public health, safety and welfare will be
               reasonably protected.” (Footnote and credits omitted)

        IADLEST focused on having each State establish an organization to govern the
process under which individuals are licensed or certified as law enforcement officers. The
resulting Model Minimum Standards reflected this focus.
               “Each State shall have an organization at the state level with adequate authority
               to set standards for the hiring, training, ethical conduct and retention of police
               officers, through certification, licensing, or an equivalent methodology.”
               (Emphasis added)

        The IADLEST Model Minimum Standards included standards in the following major
categories:
                    1.0         Concepts, Mission, and Organization (for the State organization)
                    2.0         Selection
                    3.0         Basic Training
                    4.0         In-Service Training
                    5.0         Task Analysis
                    6.0         Standards of Professional Conduct




    that peace officers meet minimum standards of competency and ethical behavior. . . ."
6
    The IADLEST mission is to research, develop and share information, ideas and innovations that assist States in establishing
    effective and defensible standards for employing and training law enforcement officers and, in States where dual responsibility
    exists, correctional personnel.



                                                                 3
       The model also included detailed standards for each category. Those for the
“Basic Training” category included:
           “3.0.2 Core Competencies
           Minimum curriculum requirements for basic training programs should identify a
           set of core competencies required for satisfactory performance of entry-level
           tasks. These competencies should include both knowledge and skills identified
           through job task analysis, and additional abilities in areas such as professional
           orientation, human relations and the ethical use of discretion that the
           commission deems consistent with the role of police and corrections officers in a
           free society.” (Emphasis added)

       The “In-Service Training” category included:
           “4.1.1 Statutory Authority; Purpose
           Each state legislature should provide its commission with the statutory authority
           to mandate continuing education requirements for police and corrections
           officers as a condition of certification or licensure. The purpose of such training
           should be to ensure continued proficiency in necessary skills, become familiar
           with new developments and techniques, and achieve a revitalized sense of
           compassion, professionalism and career interest. (Emphasis added)

       The “Task Analysis” category included:
           “5.0     Task Analysis
           Each state commission should conduct a task analysis of the entry level law
           enforcement position at least once every five years.” (Emphasis added)

       The Model Minimum Standards were first adopted on May 28, 1992, and have
been subject to continuing update. Appendix C includes additional background and the
complete Model Minimum Standards adopted for the law enforcement profession.


PRIOR REVIEWS

       The "Report of the Advisory Board on the Investigative Capability of the
Department of Defense," June 1995, included a recommendation that DoD establish
standards for selecting and training GS-0083 Police Officers. According to the report:
           "Although we limited our review to GS-083 series personnel in investigative or
           'detective' positions, we heard repeatedly of a lack of training and standard
           selection requirements in DoD for all GS-083 series positions . . . These are
           significant concerns; the Secretary's Board on Investigations should address
           them . . ." (Emphasis added)

        The Board on Investigations (BOI) staff subsequently began pursuing these issues
with the Office of the Assistant Secretary of Defense (Force Management Policy). The
staff recognized, however, that unilateral DoD action might impact other Federal
Agencies inappropriately, because OPM is responsible for establishing and maintaining
qualification requirements for GS-0083 Police Offices.


                                                   4
       RELATED STUDY
        In 1996, the U.S. Army Military Police School (USAMPS) completed a study to
determine if training deficiencies existed for Army civilian police officers and security
guards, and to determine the requirements for establishing a training certification
program for these employees. The study resulted in the report, “Department of the Army
Police and Guard Survey: Needs Assessment Report,” June 14, 1996, and identified the
minimum tasks required to perform Army police and guard duties. According to the
report:
           “There is no standardization of training, and no training certification or
           recertification programs exist. There are no physical fitness standards, and the
           regulation is vague on physical fitness requirements. . . . Since over 46 percent
           of the police and guards had ‘on-the-job’ or ‘no formal training’ and no
           standard training is available, there is a need to establish baseline or entry level
           training requirements augmented by additional or advanced training by
           MACOMs [Major Army Commands] based on their respective missions. . . .
           Training received varied from military to OJT to state police academies.
           Training/ refresher training in some cases is a pencil drill. Most respondents
           obtained their formal training before 1988. . . .”

       Based on these and other conclusions, USAMPS recommended:
           “. . . developing a training course for DA [Department of the Army] Civilian
           Police and Guards. A standardized training program is needed to meet the
           common and unique job requirements of both DA Civilian Police and Guards
           . . . .”

           “. . . updating AR [Army Regulation] 190-56 with more specific physical fitness
           requirements for DA Civilian Police and Guards.”

           “. . . a certification program with appropriate documentation which requires DA
           Civilian Police and Guards

                    (1)   to complete a standardized training program.
                    (2)   to meet established physical fitness standards.
                    (3)   to qualify with weapons at least annually.
                    (4)   to receive refresher training (weekly, monthly, or quarterly).
                    (5)   to maintain records for review by higher headquarters.”

           “. . . that MACOMs/installations conduct a comprehensive review of their
           Tables of Distribution and Allowances (TDAs) and . . . [realign] their Security
           Force personnel to meet current needs/job requirements . . . [as] the initial step
           in developing meaningful training programs. Considering the increase in
           THREAT activities directed against U.S. installations, it is imperative that the
           proper mix and training of all DA civilian security personnel (GS 080, 083, 085,
           1810 and 1811) be achieved as expeditiously as possible.”

        The Army largely adopted the USAMPS recommendations and now is involved
in the implementation. USAMPS has developed a training program and standards for
Army civilian police officers and security guards, and the Army is revising Army
Regulation (AR) 190-56, “The Army Civilian Police and Security Guard Program,”


                                                     5
June 21, 1995, to incorporate training requirements and standards for civilian police
officers.7 Although generally “mandating” the training, individual installation
commanders will still control and fund training and, as a result, the ultimate impact on
individual civilian police offices and security guards in the Army is uncertain.


OBJECTIVES, SCOPE, AND METHODOLOGY

        Our primary objective for this evaluation was to determine whether DoD should
standardize training for its civilian law enforcement personnel, including whether current
training ensures the knowledge and expertise needed to:
               •    perform essential law enforcement and security functions; and
               •    respond to major threats and emergencies.

        In beginning the project, we asked the Defense Manpower Data Center (DMDC)
for staffing lists on GS-0083 Police Officers and GS-0085 Security Guards employed
throughout the DoD. We then contacted the individual organizations identified to
validate the DMDC information and begin collecting information on training
requirements and practices. Using telephonic and facsimile contacts, we ultimately
identified, with reasonable certainty, the DoD organizations that employ civilian police
officers and security guards, as well as specific information on each individual who
occupied the positions on October 31, 2001. We then developed a random sample upon
which to base our detailed evaluation. The sampling identified 26 installations for
detailed review.8 We also developed a random sample for individual police officers and
security guards at each location. This sampling identified a total of 318 police officers
and security guards at the 26 sample installations. Appendix D lists the sample
installations, the number of police officers and security guards employed at the individual
installations, and the number of police officers and security guards included in our
random sample.

        We then prepared survey questionnaires, one for management and another for
employees, to collect detailed information from the sample installations and police
officers/security guards. Copies of our survey questionnaires are included as
Appendices E and F. Afterwards, we visited each installation to interview management
officials, collect the survey information, and follow-up as needed to ensure clarity and
completeness in the data collected, including interviewing the individual police officers
and security guards. The data collected from management included policy, standards and
requirements for training; training sources; information on legal, human resource and
oversight responsibilities; and current law enforcement issues. Because law enforcement

7
    Proposed AR revisions are currently being coordinated within the Army. As currently proposed, the revised AR will require
    each future police officer entrant, prior to being assigned law enforcement duties, to complete training at (1) the FLETC “Mixed
    Basic Police Training Program,” (2) a State or locally accredited police officer training program; or (3) a Military Service
    certified police officer training program. Presently, Army training given at Aberdeen Proving Ground, Maryland, would
    constitute a certified Military Service training program under the revised AR.
8
    The sampling identified 30 installations for detailed review. Upon beginning our fieldwork, however, we found that four of the
    installations either did not employ or had discontinued employing civilian police officers or security guards.



                                                                6
or security personnel may be the first to respond (first responders) to an emergency or
threat situation, we were particularly interested in their training for emergencies and their
assigned roles, responsibilities and performance during training exercises. Therefore, we
also requested information on emergency plans, training exercises conducted, and after-
action reports on the exercises.

        We requested training information segregated according to whether it was basic
training, periodic refresher training, or career development training.9 The data collected
from employees included information on firearms, physical fitness requirements,
experience (both on the job and previous), police academies attended, and actual
training.10 We also asked for individual employee views on whether their current training
was adequate and any specific additional training they considered necessary.

      The information that we collected from the employee survey is summarized in
Appendix G. The information that we collected from the management survey is
summarized in Appendix H.




9
     We used the generic term “Basic Training” to identify the type of training generally provided in a police academy to prepare an
     individual for law enforcement duties. Civilian police academy and military training school basic training programs are 8-
     20 weeks in duration and include a full range of law enforcement topics. Depending on the organization, this training may be
     known as Basic Training, Phase I Training, Apprenticeship Training, or Priority 1 training. Similarly, we used the term
     “Refresher Training” to identify the training generally provided (either in-house, through contract instructors, or privately
     through local police academies or educational institutions) to help police officers remain current and proficient in their
     professions. This training generally encompasses new and evolving law enforcement issues, such as those arising from changes
     in statutory requirements or precedent-setting court decisions, as well as recurring training in areas such as the use of force,
     ethics and professional behavior. Many law enforcement organizations refer to this training as “In-Service Training.”
10
     We did not limit our query to training programs with police academy designations. We included FLETC and other Federal
     programs, military police schools, local civilian police academies, educational institution training programs, and other similar
     training.




                                                                   7
                     Evaluation of
      Installation-Level Training Standards for
 GS-0083 Police Officers and GS-0085 Security Guards
             in the Department of Defense

PART II – RESULTS OF EVALUATION AND RECOMMENDATIONS


              Finding: Training for DoD Police
              Officers and Security Guards Does Not
              Ensure Core Competencies Needed for
              Law Enforcement Duty
              The law enforcement profession embraced Model Minimum Standards
              under which individual States: (1) identify core competencies for their
              police officers based on job task analysis (recurring every 5 years);
              (2) develop a training program based on the task analysis in order to
              train to the core competencies identified; (3) use licensing or certification
              (or an equivalent methodology) to ensure that individual police officers
              possess the core competencies required for their jobs; and (4) require
              continuing education as a condition of certification or licensure to ensure
              continued skills proficiency and familiarity with new developments and
              techniques. The Military Departments follow similar standards in
              identifying requirements and developing mandatory training for military
              law enforcement personnel. The Army has conducted a job task analysis
              for civilian police officers and security guards and developed a training
              program based on the analysis. Even when implemented, however, the
              Army program might not ensure competency as intended in the law
              enforcement profession standards, or as required for military law
              enforcement personnel. Individual installation commanders, including
              Army installation commanders, will continue to be responsible for
              funding and implementing training programs for their police officers and
              security guards. As a result, civilian police officer and security guard
              training will continue to vary widely across DoD and will not ensure that
              individuals possess the core competences needed for their jobs.


       DISCUSSION
        Based on our sample, 32 percent of DoD installations employ both civilian police
officers and security guards, while 44 percent employ police officers only and 24 percent
employ security guards only. Approximately 63 percent of the installations that employ
both police officers and security guards reported having like missions for the two. In
addition, 44 percent of the installations reported that military personnel previously

                                            8
performed the duties, and they now use civilians for mission reasons or combined
mission and economic reasons. An overall DoD profile based on our survey is at
Appendix I.

          Core Training
         Some core training subjects for law enforcement, whether Federal, State, or local,
seem apparent. It is inconceivable that an organization would assign an individual police
duties, including the use of firearms and the use of force, up to and including deadly force,
without ensuring the individual:
            • Knew and fully understood Jurisdiction, Authority and Potential
Liability; that is, the specific police powers being bestowed, where and when those police
powers could be applied, and the potential liability to both the individual and the
employing organization if the individual exceeded his authority.11
            • Would readily Recognize Crime and Criminal Conduct, based on
knowing and fully understanding: (1) the specific laws to be enforced, including
criminal, civil and traffic statutes; (2) the constitutional and civil rights of the individuals
being protected and of suspects, offenders, victims and witnesses; and (3) the various
court system jurisdictions for hearing and deciding cases, and their procedures for
processing cases.12
            • Possessed and would maintain the Skills, Integrity, Professionalism and
Safety necessary to perform well as a law enforcement officer. Requisite skills include,
but are not limited to: (1) maintaining and using assigned weapons; (2) driving patrol
and other emergency vehicles; and (3) applying law enforcement methods and techniques
(e.g., use-of-force, self-defense tactics/techniques, first aid and medical emergency
procedures, evidence collection and preservation, search and seizure, warrants, and
interrogations). This area also includes following standards of conduct; acting with
integrity and professionalism; understanding and applying safety standards; and
maintaining the health and fitness necessary to apply law enforcement methods and
techniques properly and safely.
           • Would be effective in Conducting Law Enforcement Operations, that is,
maintaining law and order, safeguarding physical security, and escorting and protecting
officials.

       Despite the apparent logic and although almost 30 years have passed since the
National Advisory Commission on Criminal Justice Standards and Goals recommended
mandatory recruit and in-service training for all police personnel, no one has delineated such

11
     Federal jurisdiction and authority vary from Federal property to Federal property, and even within a single Federal property,
     which makes this area substantially more complex than State or local law enforcement officers encounter. As a result, to ensure
     needed knowledge and understanding, Federal jurisdiction and authority may warrant more or different training than needed for
     State and local law enforcement.
12
     Depending on jurisdiction type and whether State laws were “assimilated” to the Federal property under the Assimilative Crimes
     Act, Federal law enforcement officers may enforce Federal and State law, as well as agency property rules and regulation.
     Complexity, therefore, is greater than for States and localities, which also may warrant substantially more or different training to
     ensure knowledge and understanding.



                                                                   9
mandatory training.13 The law enforcement profession, however, has adopted standards for
States to aspire to achieve (See Appendix C). Under these standards, the States identify their
individual training needs based on conducting a recurring (every 5 years) job task analysis.14
Most States now adhere to the Model Minimum Standards. Based on the IADLEST Executive
Summary of the Sourcebook 2000:
                •    43 States (86 percent) use a job task analysis in formulating basic training;
                •    41 States (82 percent) have uniform, standardized curricula for basic
training;
                •    43 States (86 percent) have mandated performance objectives for training;
          • 27 States (54 percent) use a licensing, certification, or competency
examination as the final examination for basic training;
          • 26 States (52 percent) have licensing, certification, or competency
examinations after applicants complete basic training;
                •    35 States (70 percent) require in-service/refresher training; and
            • 40 States (80 percent) have programs allowing administrative sanctions
against errant law enforcement officers to protect public trust in the criminal justice
system.

        The States are clearly committed to law enforcement training and are aspiring to
achieve the intended improvements. The above statistics reflect significant
improvements since 1987, when IADLEST began its reporting. Moreover, most States
require individuals to complete a police academy, or a law-enforcement training program
at an accredited educational institution, as a condition of employment. The average
minimum hours for State law enforcement entry-level training is 489 hours (12.2 weeks
at 40 hours per week).15 The average minimum hours for State firearms training included
in the basic training curriculum is 46.8 hours.

          DOD TRAINING
        DoD component-level (e.g., Army, Navy, Air Force, DLA, etc.) policy governs
training requirements for the civilian law enforcement personnel (See Appendix B). In
the Military Departments, a major command may supplement the overall policy.

13
     Our efforts to identify “core” training subjects based on overlaying and comparing actual law enforcement training were not
     fully successful. We attempted to compare law enforcement training curricula for FLETC, the Services (both military and
     civilian programs), the Washington Metropolitan Airport Authority Police, and six individual States (Alabama, Arkansas,
     Missouri, New York, Texas, and Virginia). Ultimately, due to the different naming conventions and training methodologies
     employed, we were not completely comfortable that our work identified “core” training coverage included in the various training
     curricula. Appendix J reflects our “best effort” to categorize actual training. Appendix K sets forth the Army task categories
     and lesson plan resulting from the job task analysis involved in the USAMPS needs assessment in 1996.
14
     We note that the Military Departments use very similar approaches in identifying needs and developing training programs for
     military law enforcement officers. They have not, however, followed a similar course for civilian law enforcement. Military
     training requirements are discussed later in this report.
15
     The State minimum requirements vary from 320 hours to 800 hours. In comparison, the FLETC program is 412.3 hours, or
     10.3 weeks at 40 hours per week. As shown later in Table 2, installation requirements varied dramatically, but most involved
     80 hours or less.



                                                                10
Otherwise, training requirements are left to the installation commander.

         At least two DoD components, the Defense Logistics Agency (DLA) and DPS,
require their police officers to attend the 10-week “Mixed Basic Police Training Program” for
civilian police officers and security guards given at the Federal Law Enforcement Training
Center (FLETC), Glynn County, Georgia.16 Most DoD components, however, do not require
civilian police officers and security guards to complete formal law enforcement training as a
condition of employment. Similarly, at least one major command, the Air Force Reserve
Command, requires civilian police officers and security guards at Air Force Reserve units to
complete the Air Force training required for military law enforcement personnel, with some
modifications to the military requirements. Generally, however, training is determined at the
installation level. While the Army has conducted a job task analysis and developed standard
lesson plans for training civilian police officers and security guards, funding and
implementation are left to individual installation commanders. The Navy requires civilian
police officers and security guards to complete training equivalent to the “Phase I” training
given to Navy personnel at the Lackland Air Force Base, Texas. The Navy, however, does
not require or have procedures for measuring equivalency. The Air Force does not have entry-
level training programs or requirements for civilian law enforcement personnel.17 The Air
Force relies on hiring individuals who meet OPM qualification requirements and generally
have previous law enforcement experience. See Appendix B.

       Overall, DoD training requirements vary from installation-to-installation, even
within a single DoD component. The following table shows entry-level training
requirements at the installations in our sample.

                                                      Table 2
                                         Entry-Level Training Requirements
                                              for Sample Installations

                                                                                              Training Hours
                                         Installation                                      GS-0083      GS-0085
                                                                                            Police      Security
            Eglin Air Force Base, FL (a)                                                       0                 NA
            Minneapolis/St Paul IAP Air Reserve Station, MN (b)                               288                288
            Nellis Air Force Base, NV                                                          0                  0
            Anniston Army Depot, AL                                                           NA                  80
            Tripler Army Medical Center, HI                                                    40                 40
            Army Research Laboratory, MD                                                       30                 30


16
     Some others suggest, but do not require, sending police officers or security guards to FLETC, and some installations do so based
     on space and funding availability--the FLETC program is given to both police officers and security guards on a commingled
     basis. In January 2000, the DLA began converting its civilian security guard positions to police officer positions and, based on
     funding availability, sending its police officers for FLETC training. Security guards unwilling to become police officers will
     remain in their guard positions, but all positions will be converted over time through attrition and replacement. The timing for
     sending police officers to FLETC depends on available funding. Although not in our sample, we are aware from other work that
     DPS also requires its police officers to complete FLETC training. (We note in this regard that FLETC training is not based on
     recurring job task analyses, which is the law enforcement profession standard.) Neither DLA nor DPS requires their security
     guards to complete this type formal training.
17
     The Air Force does require its law enforcement personnel, whether military, civilian, or contractor, to train on use of force and to
     qualify with their weapons annually. Further, the Air Force advised us that it generally hires former Air Force Security Police
     officers (military) for its civilian police officer and security guard positions.



                                                                  11
         Detroit Arsenal, MI / Lima Army Tank Plant, OH                                    40                40
         Fort Leonard Wood, MO (c)                                                         0                NA
         Watervliet Arsenal, NY (d)                                                       NA                 0
         Sunny Point Military Ocean Terminal, NC                                          NA                 40
         Dugway Proving Ground, UT (e)                                                    160               160
         Fort A.P. Hill, VA (f)                                                            0                NA
         Red River Army Depot, TX                                                         NA                 40
         Fort McCoy, WI (g)                                                               320               NA
         Defense Distribution Center - San Joaquin, CA                                     32               NA
         National Imagery & Mapping Agency, MD (h)                                        NA                 62
         Headquarters, Defense Logistics Agency, VA (i)                                    32                32
         Naval District of Washington, DC                                                  80                80
         Naval Air Station Whiting Field, FL                                               80               NA
         Naval Air Warfare Center TSD Orlando, FL                                          80               NA
         Naval Security Group Activity Winter Harbor, ME                                  NA                 80
         Naval Station Newport, RI                                                         80               NA
         Naval Weapons Station Charleston, SC                                              80               NA
         Naval Air Station Corpus Christi, TX                                              80               NA
         Little Creek Naval Amphibious Base, VA (j)                                       506               NA

         NA = Not Applicable. (Some installations have police only. Others have guards only.)
         (a) Follows general Air Force policy—no entry-level training program for civilians.
         (b) Follows MAJCOM (Air Force Reserve Command) policy. New entrants (except former military law
             enforcement) must attend Security Forces Academy at Lackland Air Force Base, Texas (51 training
             days for military, but wartime task training excluded for civilians). All must complete a distance
             learning package (computer training requiring about 1 week), and unit training (Phase I, 1-2 weeks;
             and Phase II, up to 60 days) at the assignment base to gain skill certification on each job task. Must
             then pass required testing before assignment to full duty. Applies to both police and guard.
         (c) Installation policy provides for OJT (280 hours), but not other formal training.
         (d) No formal program. Practice is (a) initial training-orientation (20 hrs), perimeter gate security
             (20 hrs), Patrolling (20 hrs), classified container inspection (20 hrs), weapons qualification and safety
             (40 hrs), report submission and office support (20 hrs), and communication and radio procedures
             (20 hrs), (b) monthly refresher class (2 hrs), and (c) daily guardmount training.
         (e) 80 hrs classroom and 80 hrs OJT with field training officer. Annual 40 hrs classroom refresher.
         (f) Hires individuals with at least 1-year of police experience. OJT with supervisor signoff on skills.
         (g) Installation policy provides for sending police officers to local civilian police academy.
         (h) Has decided to convert security guard positions to police officer positions.
         (i) Decision to send police officers to FLETC and convert guard positions to police officer positions,
             subject to funding and other considerations. FLETC not currently a condition of employment, but
             police and guards attend when funds are available.
         (j) Began regional training academy for Navy civilian police officers in 2001—506 hours over 13 weeks.
             Not reflected in installation policy. Policy requires 80 hours only.


        As is apparent in Table 2, most installations in our sample had training programs.
However, as is also apparent, the training requirements varied dramatically, from 0 hours
to 506 hours, with most installations having 80 hours or less. Furthermore, we were
unable to assess completely the actual training under these programs. Only
six installations (24 percent) in our sample maintained automated training records, and
several installations were in the process of revising and updating their training systems
and/or training records. Although we collected data from individual employee training
files, many individual records did not include adequate information on training dates,
specific subjects, or completion status. As a result, we were unable to validate automated
record entries or identify actual training in specific years or time periods.

         Nevertheless, even if we assume that the individual installations fully enforce
their training requirements, it is apparent that greater standardization is needed. It is also
apparent that many DoD civilian police officers and security guards are placed in law

                                                              12
enforcement positions, given law enforcement training totaling 2 weeks or less, and then
expected to perform their installation’s law enforcement mission completely and
professionally. Information from our employee survey further demonstrates this
condition.
           • Only 33.3 percent (42.4 percent of police officers and 19.7 percent of
security guards) graduated from a formal law enforcement training program prior to
assuming their current jobs and, on average, their graduations occurred 19 years ago);
            • in calendar year 2001, the average police officer and security guard had
training totaling 54 hours, including basic training, firearms qualification time, and
“guardmount” training;18
            • excluding basic training time, which generally would apply only to new
hires, the average training time for both recurring refresher training and career
development training was 30 hours (the same for both police officers and security
guards);
           • 45.1 percent of the employees (55.9 percent of police officers and
28.3 percent of security guards) believed they had been adequately trained to do their
jobs; and
           • 3.3 percent (4.8 percent of police officers and 0.8 percent of security
guards) believed their positions gave them authority to carry a weapon when not on duty,
which is not the case.

          See Appendix K.

          TRAINING FOR THREATS AND EMERGENCIES
         Law enforcement and security personnel are often first to respond to threat and
emergency situations. DoD civilian police officers and security guards, however, are not
adequately trained as first responders. Most have not received first responder training in
preparation for law enforcement duties. Further, many are not included in installation
emergency plans and are not active participants in emergency training exercises. As a result,
many DoD civilian police officers and security guards are not prepared to function well during
threats and emergencies.

        As discussed previously, most DoD police officers and security guards have not
graduated from formal law enforcement training programs, and receive only minimal law
enforcement training after joining DoD. Based on our sample, their total non-basic
training averaged only 30 hours during calendar year 2001. This training is simply
inadequate to prepare police officers and security guards for threat and emergency
situations.19
18
     “Guardmount training” is a military term generally used to denote time that supervisors use in instructing subordinates,
     individually or as a group, after they report for work and before they begin duty assignments. The instruction may be oral or by
     handout for subsequent reading.
19
     Our sampling identified one incident after the terrorist attacks on September 11, 2001, that shows an effect of this inadequate
     training, but not the full problem or the overall potential consequences. This incident involved an attempt to arm a DoD security
     guard with a M-16 automatic rifle during high-alert guard duty to protect an installation. Although the individual had received


                                                                 13
        The training that installations conduct as part of their emergency preparedness
programs could be invaluable for training civilian police officers and security guards. In
this regard, the installations that we surveyed:
         •          all had emergency preparedness plans to implement in an actual threat or
emergency;
              •     80 percent conducted emergency preparedness exercises at least annually;
            • 76 percent generally prepared after-action reports upon completing the
exercises, even though some did not necessarily prepare a report after every exercise;
           • 56 percent identified skill shortfalls for civilian police officers and security
guards during the exercises; and
            • 44 percent conducted corrective training to overcome skill shortfalls
identified during exercises.

        Many of the installations, however, did not include civilian police officers and
security guards in their emergency preparedness plans or training. In fact, 28 percent of
the installations in our sample did not include them in their emergency preparedness
plans. Twenty percent did not include them in their emergency preparedness training
exercises.

        TRAINING FOR MILITARY LAW ENFORCEMENT
        It is useful to compare civilian and military law enforcement training. Military
police or security personnel frequently work side-by-side with their civilian counterparts
or have been replaced with civilians as installations implemented civilianization plans.
The training programs for military police and security personnel, however, are
significantly different from those for the civilians. The Services are serious about
training and ensuring qualification for military personnel.

        To become a Military Policeman in the Army, an individual must complete the
16-week Military Police One-Station Unit Training program, which includes both basic
training (boot camp) and advanced individual training. The final 8-weeks (Phase IV—
Law and Order, and Phase V—MP Combat Support Operations) are devoted to law
enforcement training. A soldier must complete this program to attain a 95B Military
Occupational Specialty classification and become eligible to perform law enforcement
duties. Similarly, to enter the Navy Security Forces as either a Navy Enlisted
Classification (NEC)-0000 (Master at Arms) or NEC-9545 (Navy Law Enforcement
Specialist) assigned full-time to physical security /law enforcement duties, a sailor must
complete the 36-day Phase I training program for Navy personnel given at Lackland Air
Force Base, Texas, and then mandatory annual Phase II training that is in addition to

   familiarity training on the weapon about 3 months earlier, according to the individual, the training was 10-15 minutes in duration
   and involved firing 8-10 rounds, but did not include instruction on use or safety. The individual did not feel adequately trained
   to use the M-16 and declined the assignment. As a result, the individual was given a different duty assignment to a remote
   perimeter location, armed with a sidearm only, where the threat was considered minimal. The incident did not result in specific
   training to overcome the skill shortfall. It did result in the installation considering, but ultimately rejecting, disciplinary action
   against the individual.



                                                                 14
weapons training.20

         The Air Force program is more comprehensive to ensure both training and skill
proficiency. The Air Force will not assign an airman to full duty status until the
individual has completed training and is certified as possessing the skills necessary to
perform each task in the duty assignment. A new entrant into the Air Force Security
Forces is sent to Security Forces training at the Lackland Air Force Base, Texas, for
initial skills training.21 This training is approximately 10 weeks in duration (51 training
days). Upon successfully completing this initial training, the individual is assigned to a
duty base, but must complete a distance-learning package (computer-based training,
generally requiring about 1 week) and then Phase I and Phase II unit training at the
assigned base.22 Unit training staff administers the Phase I training, which requires
1-2 weeks and includes classroom training, hands-on critical skills training to enhance
skills learned during the Lackland training, and base orientation and requirements. The
individual has attained a 3-Skill (Apprentice) rating by this time and is assigned to duty
status, but cannot be assigned to full duty status until after completing Phase II training
and testing. For Phase II training, the individual is paired with the supervisor (preferable)
or other trainer (authorized trainer certified on the specific skill) who observes and
formally certifies performance on each task when the individual demonstrates the skills
necessary to complete the task.23 The individual is afforded 60 days to demonstrate skills
and gain certification on each job task in the assignment position. The unit Standards and
Evaluation staff then administers written, verbal, and practical examinations, which the
individual must pass to become “qualified” for the position and eligible for full duty
status. At this point, the Air Force has devoted approximately 6 months to training and
qualifying the individual for full law enforcement duty.

        Furthermore, attaining initial qualification for the position does not end the Air
Force requirements for training, certification and qualification. After attaining full duty
status in the assigned position, the individual is subject to no-notice evaluations to
confirm skill level and performance on individual tasks. The individual is also required
to re-qualify and gain re-certification annually following the initial qualification. The
annual re-qualification process always includes testing on weapons and use-of-force. In
addition, the individual must still complete “sustainment training” to reinforce skills or

20
     Beginning in fiscal year 2002, the Navy combined Lackland training for NEC-0000 and NEC-9545, and increased the schedule
     from 30 training days to 36 training days.
21
     Although designed for military law enforcement personnel, this training could accommodate civilians, as evidenced by the fact
     that the Air Force Reserve Command has adopted this training for civilians. In this regard, the Air Force identifies and
     distinguishes training for “core tasks” and “wartime tasks.” During the Lackland training, the initial 24 training days are devoted
     to law enforcement/security training. The next 26 training days are devoted to ground combat skills training, with the final
     training day devoted to graduation. Air Force civilian law enforcement personnel could be sent to Lackland for the first
     24 training days and could be graduated separately from military personnel. Like the military personnel, the civilians also could
     be required to complete the distance learning package necessary to attain the 3-Skill (Apprentice) rating necessary to begin
     Phase I and Phase II unit training at their assigned bases. In this way, the Air Force could ensure consistent, standard law
     enforcement/security training for it law enforcement personnel, whether military or civilian. Army and Navy military law
     enforcement training should be equally susceptible to accommodating civilians.
22
     The Air Force is considering a proposal to increase the Lackland training to 81 training days and eliminate the distance learning
     package currently required to attain the 3-Skill (Apprentice) level necessary for duty assignment.
23
     The certifier must use an established checklist (developed at the unit, but based on Air Force standardization efforts) in
     determining whether the individual performed the task appropriately.



                                                                  15
knowledge acquired previously and “ancillary training, which is training that contributes
to mission accomplishment, e.g., sexual harassment training).24 Finally, the individual
must complete “upgrade training” and gain certification on the next skill level [5-Skill
(Journeyman), or 7-Skill (Craftsman)] to be tested for promotion in military rank.
Appendix L describes the Air Force training concepts and systems more completely.

          PHYSICAL FITNESS REQUIREMENTS
        Although not an objective in our evaluation, we found that physical fitness
requirements for civilian police officers and security guards in the Department of Defense
are as diverse as their training. The Army is the only DoD component with policy
addressing this area. The Army requires annual medical screening and physical agility
testing for civilian law enforcement personnel. The physical agility testing standards are
lower than for a military law enforcement officer, and some civilians with more tenure
are exempt from the requirements under union agreements. Individual installation
commanders, however, may vary from the requirements. Some Army installations that
we visited did not require the medical screenings or agility tests. On the other hand, we
learned that civilian law enforcement personnel at the Army Aberdeen Proving Ground
are subject to the same physical fitness requirements as the military law enforcement
personnel. Aberdeen law enforcement managers desire the higher standard and include it
as a requirement in job applications and employee position descriptions. Most DoD
civilian police officers and security guards, however, are not subject to any recurring
health screening or physical fitness testing. Based on our employee survey at the sample
installations, about 86 percent (92.8 percent of police officers and 78.7 percent of security
guards) are not subject to physical fitness requirements.

        As noted previously in addressing how training should ensure the Skills,
Integrity, Professionalism and Safety necessary to perform well as a law enforcement
officer, we believe that maintaining the health and fitness necessary to apply law
enforcement methods and techniques properly and safely is important. In fact, we
believe that being fit is part of being a law enforcement officer.


CONCLUSIONS

         Neither our current work nor prior work in the law enforcement profession has
identified specific, standard training that should be mandatory for all DoD law enforcement
personnel. Our work has shown, however, that civilian police officers and security guards are
frequently used interchangeably and should be subject to the same training requirements and
standards. It has also shown that current civilian law enforcement training varies dramatically
across the DoD and is inadequate at many installations, based on comparison to either military
law enforcement training standards or overall professional law enforcement standards. As
long as individual installation commanders are responsible for planning, developing, funding
and implementing training, many DoD civilian police officers and security guards will not

24
     Reassignment to a new duty base requires certification on each skill involved in the new duty assignment.



                                                                16
receive the training they need to achieve and maintain competency in their jobs.25 In addition,
our work has shown a need for civilian law enforcement training that is required, adhered to,
and documented. Currently, DoD cannot assure that whatever civilian law enforcement
training conducted is relevant, that funds invested in training are spent effectively or
efficiently, or that civilian law enforcement personnel are adequately trained to avoid personal
and agency liability. Finally, our work has shown a need for greater standardization in
physical fitness requirements for civilian police officers and security guards.

         DoD has alternative remedies available to overcome the current condition. First, DoD
could follow the Model Minimum Standards adopted for the law enforcement profession.
Under this approach, DoD would identify the “core competencies” required for civilian police
officers and security guards employed throughout DoD, and then adopt training and
certification programs that ensure individual police officers and security guards achieve and
subsequently maintain the competencies required for their jobs. The Army’s 1996 job task
analysis, together with the Military Departments’ continuing analyses used in determining
training for military law enforcement personnel, would provide most, if not all the data
required for this purpose. DoD could then develop and mandate “core training requirements”
that individual DoD components and installations would supplement, but not supplant, to
address unique mission requirements. This approach would include determining the best
source(s) for civilian law enforcement training. In this regard, some installations favor local
civilian police academy training because they see this training as more accessible and less
costly, at least as compared to FLETC training. As pointed out in this report, however, local
civilian police academy training may not fully prepare a Federal law enforcement officer for
duty. DoD, therefore, should evaluate the potential advantages and disadvantages, including
cost, involved in requiring attendance at a DoD civilian law enforcement training academy.
The Army experience in establishing a civilian law enforcement training program at the
Aberdeen Proving Ground, Maryland, and the Navy experience in establishing a regional
civilian police academy at Little Creek, Virginia, should provide the basic information needed
for this evaluation.

         Alternatively, DoD could identify needed changes in current military programs and
require civilian police officers and security guards to complete a military law enforcement
training program. Although some concerns exists about combining military and civilian
training, the fact that the Air Force Reserve Command has adopted this approach
demonstrates its feasibility. Further, we do not have any basis to conclude that core law
enforcement duties at non-military DoD installations differ from those at military installations,
so as to preclude civilian law enforcement personnel at DoD non-military installations from
attending military training schools.

        Whatever the approach adopted, DoD will need procedures for measuring and
tracking training equivalency and/or skill competency.

       Finally, we believe that Departmental oversight is needed for DoD civilian law
enforcement training, and that the USD(P&R) should be assigned this responsibility.

25
     Travel and training funds are generally the first reductions during austere budget and funding times, and this phenomenon is
     unlikely to ever change.



                                                                 17
USD(P&R) is generally responsible for DoD personnel matters, including training, and is the
most logical to assume responsibility for DoD civilian law enforcement training and
certification, either directly or through a lead or executive agent.


            MANAGEMENT COMMENTS AND OUR EVALUATION

         On August 28, 2002, we distributed this report in draft form for management
comments. Between October 17, 2002 and December 16, 2002, we received comments
from Navy, Air Force, Defense Logistics Agency, National Security Agency, Pentagon
Force Protection Agency (PFPA) (for the Washington Headquarters Services), Army
Reserve, Air Force Reserve, and National Guard Bureau. USD(P&R) and Army,
although agreeing with the need for standardization, did not reach internal consensus on
our specific recommendations and did not complete their comments in time for inclusion
in the final report. They will have the opportunity to finalize their positions in
responding to the final report. Defense Contract Management Agency, Defense
Intelligence Agency, and Defense Information Systems Agency notified us that they did
not have comments on the draft report.

        Overall, the comments agreed that DoD should standardize core training for its
civilian law enforcement personnel. Navy, for example, advised that preliminary
findings from a Navy career development analysis has highlighted the need to train all
law enforcement and security personnel, including military active duty and reserve
members, not only to the same standard, but in the same “schoolhouse.” The comments
also agreed that USD(P&R) is the logical choice to assume overall responsibility for
civilian law enforcement training, certification and physical fitness in DoD.26
Individually, the comments also took positions on sources that should be used for DoD
civilian law enforcement training, addressing FLETC training specifically (DLA, NSA
and PFPA). Others questioned using previous Military Department job task analyses to
begin the needed standardization, or indicated those job task analyses should serve only
as a beginning point (DLA, NSA and PFPA). Finally, two DoD components suggested
addition coverage in the standardization efforts; specifically, an analysis of pay-equity
issues (Navy) and a review of employment selection criteria, including criteria for
cognitive abilities and psychological assessments (PFPA). Individual comments are
addressed below in connection with the recommendations.


                                           RECOMMENDATIONS

       Recommendation A.1. The Secretary of Defense assign the Under Secretary of
Defense (Personnel and Readiness) overall responsibility for civilian GS-0083 Police
Officer and GS-0085 Security Guard training, certification, and physical fitness
26
     In informal discussion, USD(P&R) agreed that it should be involved with establishing the standard training, after the
     “functionals” determine the training requirements. We believe that USD(P&R) should assume responsibility for overseeing and
     guiding the requirements determination, as well as the establishment and implementation, and have continued our
     recommendation to this effect.



                                                              18
requirements in the Department of Defense.

                         Management Comments and Our Evaluation

         Navy: Concurred, advising that Navy enthusiastically supports USD(P&R)
leading a study to develop DoD-wide standards for training, certification and physical
fitness, and is prepared to coordinate with and compliment the efforts. Navy also advised
that (1) the analysis should include a labor-cost analysis of law enforcement and security
pay-equity issues, (2) installations should retain the flexibility to conduct their own
installation-unique law enforcement and security training, and (3) DoD components
should continue to train their own personnel, but within the requirements of the
consolidated standards.

        Our Response: Our evaluation scope did not include labor-cost or pay-equity
issues. However, should the DoD components decide to include this area in their training
and physical fitness standardization efforts (see Recommendation A.2), we would
certainly support the decision. In addition, we agree that installations should continue to
have the flexibility to conduct their own installation-unique law enforcement and security
training. Further, we do not foresee problems arising specifically from individual DoD
components continuing to train their own personnel based on consolidated DoD-wide
standards. However, we believe the latter issue should be taken into consideration in
determining the best, most economical training source(s). It should not be a
predetermination that limits the overall considerations involved in the training source(s)
determination.

        Air Force: Concurred, advising that Air Force realizes the need for standardized
civilian police officer and security guard training.

        DLA: Concurred and advised that USD(P&R) is probably the best choice for this
overall responsibility.

       NIMA: Concurred

       NSA: Concurred

        PFPA: Concurred with establishing oversight for security guard and police
officer training, certification, and physical fitness requirements at the Under Secretary
level. PFPA suggested that the considerations also include employment selection criteria
for cognitive abilities and psychological assessments, advising that OPM regulations
support these selection criteria, in part. Regarding physical fitness testing, according to
PFPA, (1) an agency must clearly establish a nexus between the test administered and the
duties performed, and (2) there is a question as to whether DoD legally could establish a
minimum fitness standard and still have a desired outcome for all DoD components.

        Our Response: Our evaluation did not include assessing differences in DoD
component criteria for selecting GS-0083 Police Officers and GS-0085 Security Guards,
but we suspect that they vary as widely as the requirements for training and physical
fitness. Should the DoD components decide to include this area in their training and

                                             19
physical fitness standardization efforts (see Recommendation A.2), we would certainly
support the decision. Regarding the physical fitness testing issue, we recognize that
testing must be relevant to duties. Once core competencies are identified for a civilian
law enforcement officer in DoD, it should not be difficult to establish and administer
standard, core physical fitness testing based on the duties involved in the core
competencies. Of course, at least some DoD components will need to supplement this
testing based on requirements involved in the non-core duties for their law enforcement
personnel.

       Army Reserve: Concurred

       Recommendation A.2. The Under Secretary of Defense (Personnel and
Readiness), either directly or through a lead or executive agent, work with the DoD
components to determine whether DoD should (1) follow the Model Minimum Standards
adopted for the law enforcement profession (see Appendix C), or (2) adopt program
changes as needed and require civilian GS-0083 Police Officers and GS-0085 Security
Guards in the Department of Defense to complete a military training program for law
enforcement personnel that the Military Departments administer.

                         Management Comments and Our Evaluation

        Navy: Concurred, but indicated that the analysis should not be limited to the
IADLEST Minimum Standards Model. According to Navy, DoD should seek best
practices from all-source models for training, certification, and physical fitness standards.

        Our Response: As discussed in this report, our evaluation identified only two
viable options: (1) follow the Model Minimum Standards for training that the law
enforcement profession has embraced; or (2) use the training programs that the Military
Departments use for military personnel. In either case, training is designed to meet core
competencies identified through job task analysis. These core competencies should also
be the basis for designing a minimum physical fitness standard for DoD civilian law
enforcement personnel. If Navy’s point is that models and best practices from all sources
should be considered in determining the best, most economical way to meet the DoD
training and physical fitness requirements, we agree. If the point is that there should be a
third option for the training (not the civilian law enforcement model or current military
training programs), we cannot agree. Following such a course would only delay
standardized training unnecessarily and likely produce controversy with the civilian law
enforcement community.

        Air Force: Concurred, advising that Air Force is ready to participate in an
interservice/interagency working group to determine core skills and training requirements
for DoD civilian police officers and security guards. Air Force also advised that
USD(P&R) and the DoD components will need to address funding issues involved in
providing the training.

        Our Response: We agree that determinations should address funding for the
training needs.


                                             20
       DLA: Concurred and advised that it would participate in any study, working
group, or committee to determine a Department-wide training program.

       NSA: Concurred and advised that NSA would prefer adopting the Model
Minimum Standards to promote professionalism comparable or greater than preexisting
Federal, State and local police training standards.

       NIMA: Concurred

         PFPA: Did not specifically concur, but appears to agree with the
recommendation overall. According to PFPA, a “minimum standard requirement model”
could be effective in determining DoD police agency training needs, but this would
require (1) identifying the core training requirements and statutory authority applicable to
all facilities, and (2) building a “basic platform” upon which an agency could add training
to meet unique needs based on a needs assessment.

        Our Response: This recommendation deals with identifying standard, core
training for a civilian law enforcement officer in DoD. Recommendation A.3, Subpart a,
deals with the need for DoD components to supplement this core training to meet their
individual unique mission and installation needs. PFPA is correct that a “minimum
standard requirement model” might aid the core training needs determination and serve as
the “basic platform.” This was our intent.

              Army Reserve: Concurred

              Recommendation A.2, Subpart a. If the determination is to follow the
Model Minimum Standards adopted for the law enforcement profession, then: using the
Army job task analysis completed in 1996, and the Military Departments’ job task
analyses for military law enforcement training, develop and ensure that DoD components
implement core training and certification programs, including quality assurance
procedures, that assure individual civilian police officers and security guards possess and
continue to maintain the core competencies required for their jobs, including their duties
involved in being first responders to threats and emergencies;

                         Management Comments and Our Evaluation

              Navy: Concurred

               DLA: Partially Concurred. According to DLA, the Services’ earlier
efforts could be used as a baseline, but other sources such as FLETC should also be
considered.

                Our Response: We agree that FLETC and other training should be
considered as potential sources for DoD training. This aspect of our recommendation is
addressed in subpart b below. However, as noted in the report (see Footnote 16), FLETC
training is not based on job task analysis, which is the underlying basis for the law
enforcement profession’s Model Minimum Standards and the Military Departments’
training programs for military law enforcement personnel. Prior to using job task

                                            21
analysis to determine the “core competencies” that an individual must possess to be an
effective law enforcement officer in DoD, it is not possible to assess the extent to which
FLETC training would instill those competencies. We believe the job task analysis that
Army completed in 1996, together with those completed on a recurring basis for DoD
military law enforcement, are a reasonable basis upon which to begin the process. The
alternative would be to delay any standardization for an indefinite period while
completing a costly job task analysis that encompasses all DoD civilian law enforcement
operations. Given that (1) DoD civilian and military law enforcement personnel work
side-by-side and share responsibilities in many cases, (2) many military law enforcement
personnel have been replaced with civilians, and (3) at least some DoD civilian law
enforcement personnel already attend military training, we believe the previously-
completed job task analyses are adequate to identify core competencies for DoD law
enforcement, at least to begin the needed standardization. Of course, if DoD adopts the
Model Minimum Standards option, that option directly provides for a recurring job tasks
analysis every 5 years and adjusting the training curriculum as needed based on the
results. Adopting the military training option would have a similar result, since these
programs too are based on recurring job task analyses and adjusting training programs
based on the results.

              NIMA: Concurred

              NSA: Partially Concurred. NSA concurred with the need for a job task
analysis to maintain core competencies, but nonconcurred with using previous Military
Department job task analyses based on the belief that doing so would restrict alternatives
and options. According to NSA, individual DoD departments should have the option to
use their own job task analysis system/tools to identify their unique needs.

               Our Response: We support individual DoD component, or even
individual installation, job task analyses to identify unique needs, but not the DoD-wide
“core competency” determination. If individual components and/or installations used
their own “job task analysis system/tools” for the latter purpose, the core competency
determination would be unique to the individual component or installation and, therefore,
not susceptible to standardized training. This result would be contrary to the one
intended in our recommendation.

               PFPA: Concurred generally, but suggested conducting another job task
analysis to account for events over the past year. According to PFPA, it can be assumed
that enhanced security measures now in place throughout DoD have involved base
commanders modifying their human resource deployments and requiring special
equipment, which will require special additional training.

               Our Response: We agree that changes after September 11, 2001, might
impact current training needs. However, we do not believe that the changes will have a
substantial impact on core competency determinations. Installation security has always
been a paramount concern reflected in Military Department training, and their duty
assignments certainly reflect this concern. As a result, their job task analyses used to
identify core competency needs would also reflect this concern. Furthermore, at least


                                            22
some job task analyses involved in our recommendation were completed after
September 11, 2001. The Air Force, for example, completed its Occupational Survey
Report for enlisted Security Forces personnel in October 2001.

              Army Reserve: Concurred

               Recommendation A.2, Subpart b. If the determination is to follow the
Model Minimum Standards adopted for the law enforcement profession, then: assess
available training sources and options, including civilian law enforcement academies/
training programs already established in the Department of Defense, and determine the
most advantageous training source(s) for GS-0083 Police Officers and GS-0085 Security
Guards;

                         Management Comments and Our Evaluation

              Navy: Concurred

              DLA: Partially Concurred. According to DLA, other sources should also
be considered.

                Our Response: We agree. Our recommendation does not limit options for
determining the best, most economical source(s) for DoD civilian law enforcement
training. After identifying the core competencies involved, DoD will need to assess all
potential sources for meeting the training needs. As noted in this report, FLETC training
is not based on job task analysis, and certainly is not based on job task analysis that
identifies core competencies needed for DoD law enforcement. As also noted in this
report, local civilian police academy training might not fully prepare an individual for
Federal law enforcement duties. Jurisdiction issues are substantially more complex for
Federal law enforcement, and most civilian police academies are unlikely to address
Federal jurisdiction issues in detail. Further, neither FLETC nor local civilian academies
deal with requirements under the Uniform Code of Military Justice, requirements with
which DoD law enforcement officials should/must be well versed. Although we
recommended including current Army and Navy civilian police academy training
programs in the considerations, neither the training academy that Army established at
Aberdeen Proving Grounds, Maryland, nor the one that Navy established at Little Creek,
Virginia, was based on a specific job task analysis to identify the core competencies
needed for DoD law enforcement. The Aberdeen training, for example, is based largely
on State of Maryland training and requirements. Although this training might fully
prepare a DoD law enforcement officer, it is not possible to reach such a determination
prior to determining the core competencies involved in DoD law enforcement. The same
considerations apply to the FLETC training.

              NIMA: Concurred

               NSA: Partially Concurred. NSA concurred with determining the most
advantageous academy/training program for DoD, but nonconcurred with limiting the
analysis to previous Army and Navy work in this area. According to NSA, (1) there is
little assurance that the previous analyses assessed the full range of optimal options, and

                                             23
(2) established programs used elsewhere in the Federal Government, such as FLETC,
should be utilized.

              Our Response: We agree. See our response to DLA comments above.

               PFPA: Recommended FLETC for GS-0083 police training. According to
PFPA, (1) the FLETC basic course covers a broad range of law enforcement knowledge
and skills, and (2) a military-oriented course might not prepare officers working outside
traditional military reservations.

               Our Response: We do not accept the proposition that military law
enforcement training programs might not prepare DoD civilian law enforcement officers
working outside traditional military installations. In our view, all DoD facilities have
military nexuses that make their law enforcement and security training needs at least as
susceptible to military training as they are to civilian law enforcement and security
training. See, also, our responses to DLA and NSA comments above.

              Army Reserve: Concurred

               Recommendation A.2, Subpart c. If the determination is to follow the
Model Minimum Standards adopted for the law enforcement profession, then: adopt and
implement standard Department of Defense procedures for measuring and tracking
training equivalency and/or skill competency that ensure entry-level civilian police
officers and security guards in the Department of Defense receive credit for previous law
enforcement training and experience, while ensuring the individuals are fully trained and
prepared to function as Federal law enforcement officers;

                        Management Comments and Our Evaluation

              Navy: Concurred

              DLA: Concurred. DLA advised that the program should include a quality
assurance portion to ensure follow-on and remedial training, as well as certification.

              Our Response: We agree. In A.2.a, we recommended implementing core
training and certification programs that assure individual civilian police officers and
security guards possess and continue to maintain the core competencies required for their
jobs. We believe that attaining these results automatically involve quality assurance
procedures. However, we have modified Recommendation A.2.a to ensure that needed
quality assurance is addressed specifically.

              NIMA: Concurred

               NSA: Partially Concurred. NSA concurred with the need to measure and
track training equivalencies and skill competencies, but suggested FLETC standards in
lieu of Military Department Standards.

              Our Response: We are unaware that FLETC has standards for measuring


                                           24
training equivalency or skill competency, at least not based on core competencies
involved in DoD law enforcement. As discussed previously, FLETC is a potential source
for DoD law enforcement training, but DoD must first determine the core competencies
for its law enforcement officers based on job task analysis. Only then can DoD
determine the best, most economical training source(s) to meet the identified need.

             PFPA: Concurred

             Army Reserve: Concurred

                Recommendation A.2, Subpart d. Ensure documentation of training and
certification is maintained; and

                       Management Comments and Our Evaluation

             Navy: Concurred

             Air Force: Concurred

             DLA: Did not comment.

             NIMA: Concurred

             NSA: Concurred

             PFPA: Concurred

             Army Reserve: Concurred

              Recommendation A.2, Subpart e. Adopt standard physical fitness
requirements and standards for civilian police officers and security guards.

                       Management Comments and Our Evaluation

             Navy: Concurred

             Air Force: Concurred

             DLA: Did not comment

             NIMA: Concurred

             NSA: Concurred

             PFPA: Concurred

             Army Reserve: Concurred

       Recommendation A.3. The heads of DoD components follow the Under


                                         25
Secretary of Defense (Personnel and Readiness) determination on training approach and
source(s) for civilian law enforcement personnel, and

                        Management Comments and Our Evaluation

       Navy: Concurred

       Air Force: Concurred

       DLA: Concurred

        NIMA: Concurred and described interim actions that NIMA is taking to improve
its law enforcement and security until DoD standards are adopted. NIMA advised that a
robust law enforcement training program developed for NIMA West, which incorporates
training from civilian and military sources and which addresses law enforcement and
anti-terrorism, will be used as a model to develop a NIMA-wide standard civilian police
officer and security guard training program for all NIMA sites.

       NSA: Concurred

       PFPA: Concurred

       Army Reserve: Concurred

               Recommendation A.3, Subpart a. supplement core training as necessary
to take unique mission and installation needs into account in training programs for
civilian police officers and security guards; and

                        Management Comments and Our Evaluation

              Navy: Concurred

               Air Force: Concurred and advised that once the core requirements are
identified, Air Force will determine its unique mission requirements and ensure training
is provided and documented.

              DLA: Concurred

              NIMA: Concurred and advised that it will continue local training and use
FLETC as funding and spaces permit, pending the interim standard training program
planned for implementation by mid-2003.

              NSA: Concurred

              PFPA: Concurred

              Army Reserve: Concurred

              Recommendation A.3, Subpart b. Ensure that civilian police officers and

                                            26
security guards are fully prepared to handle first responder roles and responsibilities
during threats and emergencies. Any civilian police or security force that could be
expected to be involved in a threat or emergency should be included in emergency plans,
emergency preparedness exercises, and after-action reporting. In addition, corrective
training should be implemented as quickly as possible after preparedness exercises to
overcome skill shortfalls for civilian police officers and security guards identified during
training exercises.

                         Management Comments and Our Evaluation

              Navy: Concurred

               Air Force: Concurred and advised that it will immediately provide
guidance including civilian forces in emergency plans, emergency preparedness exercises
and after-action reporting, and requiring corrective training to overcome skill shortfalls
identified during training exercises.

              DLA: Concurred

               NIMA: Concurred and advised that (1) it staffed a fully functioning Anti-
Terrorism/Force Protection (AT/FP) program as a result of the terrorist attacks on
September 11, 2001, (2) NIMA civilian law enforcement personnel are included in the
program considerations, planning, exercises and after-action reporting, (3) NIMA law
enforcement personnel receive “Evidence and Found Property” or similar training, which
includes “first responder” training, and (4) this feature will be built into the NIMA-wide
standard training program planned for implementation by mid-2003.

              NSA: Concurred

               PFPA: Concurred, but stated that it is important, at some point, to look at
broader options for the same desired results. PFPA advised that methods and models
already exist that would facilitate the recommendations. According to PFPA, FLETC has
introduced a program that could review minimum standards, introduce best practices, and
assist in developing systems to record training. PFPA concluded that many Federal
Agencies are embracing this "standards program," but DoD appears reluctant.

               Our Response: The FLETC program to which PFPA refers is a proposed
accreditation program. Under the proposal, all Federal Agency training academies/
programs would be subject to FLETC accreditation requirements. DoD is continuing to
review the FLETC proposal carefully. As a practical matter, however, the proposed
FLETC program is untested. On the other hand, current military training programs have
existed far longer than FLETC, have been designed specifically to meet DoD law
enforcement and security needs, and many are already “accredited” law enforcement
training programs. The Air Force program, in fact, is State accredited and part of the Air
Force Community College system. Any potential benefit from requiring these programs
to become subject to FLETC accreditation is uncertain.

              Army Reserve: Concurred

                                             27
Appendix A. Police Officer vs. Security Guard
            Positions

      The Office of Personnel Management (OPM) is responsible for classifying Federal
Government jobs. According to OPM1

               ". . . the distinction between guard and police work is sometimes difficult to
               make. Both guards and police officers wear uniforms, display badges of
               authority, and carry sidearms. Both are organized along military lines. Both
               may serve in stationary posts or patrol either on foot or in a vehicle . . ."

          OPM continues, however, that the GS-0083 Police Officer job series:

               ". . . includes positions the primary duties of which are the performance or
               supervision of law enforcement work in the preservation of the peace; the
               prevention, detection, and investigation of crimes; the arrest or apprehension of
               violators; and the provision of assistance to citizens in emergency situations,
               including the protection of civil rights. The purpose of police work is to assure
               compliance with Federal, State, county, and municipal laws and ordinances,
               and agency rules and regulations pertaining to law enforcement work. . ."
               (Emphasis added)

          In contrast, the GS-0085 Security Guard job series:

               ". . . includes positions the primary duties of which are the performance or
               supervision of protective services work in guarding Federally owned or leased
               buildings and property; protecting Government equipment and material; and
               controlling access to Federal installations by employees, visitors, residents, and
               patients. The purpose of security guard work is to protect and prevent loss of
               materials or processes which are important for national defense, for public
               health or safety, or as national treasures. . ." (Emphasis added)




1
    "Grade Evaluation Guide for Police and Security Guard Positions, GS-0083/GS-0085," April 1988,
    TS-87



                                                             A-1
Appendix B. Example DoD Component Policy

Army Training Requirements
         Army Regulation (AR) 190-56, “The Army Civilian Police and Security Guard
Program,” July 21, 1995, prescribes Army policy and procedure for selecting, employing,
managing, and training civilian police officers and security guards.1 The AR details individual
program responsibilities2 and sets forth specific guidance for: (1) qualification and selection;
(2) reliability; (3) training; (4) law enforcement authority; and (5) clothing and equipment. It
includes specific training policy, as well as guidance for minimum training and blanket
authority to pay overtime for training time. For example, the regulation includes the following
minimum training standards:
                “a.      Training standards will conform, as local requirements dictate, to the
                performance-oriented tasks, conditions, standards, supporting skills and
                knowledge, and performance measures contained in TC 19-138. Installation
                commanders should use this publication, in conjunction with local threat
                analyses and job requirements, to design their local training program.

                b.         Commanders will also provide training, as appropriate, in the following
                areas:

                           (1) Standards of conduct and ethics.
                           (2) Jurisdiction and authority.
                           (3) Use of force.
                           (4) Equal opportunity training.
                           (5) Sexual harassment awareness training.
                           (6) Safety.
                           (7) Local organization and chain of command (civilian and military).
                           (8) Security command and control system during normal and
                           contingency operations.
                           (9) Federal magistrate system (continental United States (CONUS)).
                           (10) Status of forces agreements (outside continental United States
                           (OCONUS)).
                           (11) Alarm system operation.
                           (12) Recognition of sabotage-related devices and equipment that might
                           be used against the installation or in-transit shipment.
                           (13) Location of sensitive or vital areas within an installation, activity,

1
    The AR applies to all Active Army and U.S. Army Reserve employees assigned to civilian police and security guard positions
    that involve enforcing law, and protecting and safeguarding personnel and property. The AR is also applicable to contractor and
    contract security personnel involved in protecting and safeguarding personnel and equipment at Government-owned, contractor-
    operated (GOCO) facilities under Army purview. Although not directly applicable, the AR is “appropriate” for Army National
    Guard activities. According to the AR, commanders outside the continental United States must consider factors such as host
    nation support and status of forces agreements when implementing the policies and procedures.
2
    The Director of Civilian Personnel (DCP), under the direction of the Deputy Chief of Staff for Personnel (DCSPERS) is
    responsible for ensuring policies that support a skilled and professional civilian police and security guard work force, including
    (among other things) training and career development. The Commanding General, U.S. Army Training and Doctrine Command
    (TRADOC) is responsible for training development, training, and training support activities for the Army Civilian Police and
    Security Guard Program. Commanders of major Army commands and heads of Staff Agencies commanding field operating
    agencies are responsible for effecting necessary planning, programming, budgeting and accounting actions to meet command-
    wide training needs for civilian police and security guard personnel.



                                                                 B-1
                            or facility, and protection of them.
                            (14) Protected area security and vulnerability.
                            (15) Locks and key control system operation.
                            (16) Vulnerabilities and consequences of theft of sensitive critical
                            material.
                            (17) Protection of security system information.
                            (18) Communications system operation.
                            (19) Response force organization, mission, deployment, tactical
                            movement, and rules of engagement.
                            (20) Use of and defense against chemical and riot control agents.
                            (21) Unarmed self-defense and restraint techniques.
                            (22) Use of night vision devices.
                            (23) Alcohol and drug identification and intervention (for supervisors).

                c.        Weapons training will be conducted according to guidance provided in
                AR 190-14 and TC 19-138. Civilian police and security guards will be required
                to qualify every 12 months with their assigned weapon and familiarize yearly
                with other weapons they are required to use while on duty or in response
                situations (for example, crew served weapons, rifles and shotguns). Initial
                qualification will be accomplished prior to performing security functions. At
                GOCOs, initial qualification may be accomplished after employment, but must
                be accomplished prior to assignment to duties requiring the carrying of a
                weapon. Qualification training must include instruction on safety functions,
                capabilities, limitations, and maintenance of the firearm to be carried.

        A Major Army Command (MACOM) may supplement and allow deviations from
the AR requirements. More specifically, MACOM Provost Marshals advise local
installation Provost Marshals on technical security and law enforcement issues and
training for personnel, including OPM series GS-0083 Police Officers and GS-0085
Security Guards. They may supplement the AR for installations within the command and
do so either directly or through the Major Subordinate Commands (MSC). For example,
on June 21, 1995, the Army Materiel Command (AMC) Provost Marshal issued
Supplement 1 to AR 190-56. Among other things, the supplement provides that an
officer, Grade O-5 or higher, in the chain of command may deviate from the training
prescribed in Field Circular (FC) 19-138 (now Training Circular 19-138), when the
deviation is documented in writing.

         Overall, although the Army guidance is extensive and thorough, it ultimately
leaves actual training coverage to installation commanders. The AR specifically provides
that “. . . commanders should use this publication, in conjunction with local threat
analyses and job requirements, to design their local training program.”

Navy Training Requirements
        OPNAV Instruction 5530.14C, “Navy Physical Security,” December 10, 1998,
prescribes training requirements for military, civilian and contractor personnel in the
Navy Security Forces.3 Like the Army guidance, the Navy guidance is extensive and
thorough. Unlike the Army guidance, the Navy guidance establishes minimum training
3
    The instruction applies to all Navy shore activities, installations, headquarters commands, deployable units stations ashore,
    reserve components, and all Navy military and civilian personnel employed or located thereon.



                                                                 B-2
standards and requires their completion.4 According to OPNAV Instruction 5530.14C:
                “. . . Basic training for new hire Civil Service Navy Security Forces will, at a
                minimum, consist of Phase 1 and other specific training equivalent to that
                afforded Masters-at-Arms and [Navy Enlisted Classification] NEC 9545
                personnel at the Joint Law Enforcement Training Center, Lackland AFB.
                Completion of the basic law enforcement course at the Federal Law
                Enforcement Training Center, Glenco, GA, is encouraged for new hires in the
                GS-083 series. . . All personnel assigned full time physical security/law
                enforcement functions must successfully complete Phase I (basic) training as
                stipulated in appendix VIII. . .”

       The instruction also stipulates and requires annual “In-Service” training and
“Firearms Proficiency” training. Further, although not requiring “Specialized and
Advanced” training, the instruction provides that:
                “Specialized and advanced training necessary for efficient and effective
                operation of a modern security force should be provided. This training includes,
                but is not limited to, advanced investigative training, intrusion detection systems
                application training, antiterrorism training, loss prevention training, and
                advanced physical security/law enforcement training.” (Emphasis added)

        Overall, although the Navy details and requires minimum training for GS-0083 Police
Officers and GS-0085 Security Guards that is equivalent to the Phase I training given to
military law enforcement officers, it does not have procedures to measure equivalency and,
based on our evaluation results, does not always enforce the requirements.

Air Force Training Requirements
        The Air Force does not have policy to require or guide training for civilian police
officers and security guards. The Air Force advised us it has long operated under the principal
that OPM requires hiring qualified GS-0083 police officers and GS-0085 security guards, and
Air Force has not established a basic training course for these employees. We were also
advised that:
            • in some isolated situations, such as Air Force Reserve Command, Air
Force has standard position descriptions and major command (MAJCOM) specific
training standards for GS-0083s and GS-0085s;
           • overall, however, Air Force has few standard position descriptions for GS-
0083s and GS-0085s, and each installation routinely establishes training requirements for
them that are specific to the installation’s mission;
          • in rare instances, such as when the Panama Canal closed and Reduction in
Force employees were placed in the career field without experience, Air Force placed
these employees in its Apprentice Training Course with active duty military members;

4
    This does not mean that Navy has standardized training for its civilian police officers and security guards. In August 2001, the
    Navy Technical Training Center, Lackland Air Force Base, San Antonio, Texas, prepared position papers and completed a
    Training Project Plan addressing needed standardization.



                                                                 B-3
           • the Air Force generally hires former Air Force Security Police with
military experience for its current civilian law enforcement positions; and
          • weapons qualification and use of force training requirements are standard
Air Force-wide, however, without regard to military or civilian status.




                                          B-4
   Appendix C. Industry Training Standards

                     International Association Of Directors
                   Of Law Enforcement Standards & Training


           IADLEST Model Minimum Standards


                                   Preamble
The idea that those who perform the duties of law enforcement and criminal
justice officers should do so with professionalism and a sense of ethics is not
really new to western philosophical thinking. In fact, the origins of modern
policing are commonly agreed to be found in the teachings of Sir Robert Peel
over a century and a half ago. The formation of the International Association of
Chiefs of Police in 1893 provided the first nationwide voice for reform and
professionalization in policing. In this century, scholars generally agree that the
most important early advocacy for professionalism can be found in the writing
ant actions of Chief August Vollmer, who promoted the notion that the
Berkeley Police Department should be composed of competent, trained, and
ethical officers.

At the close of the era of prohibition, President Herbert Hoover empowered the
Wickersham Commission to look into problems in American policing. This
Commission concluded that law enforcement was far too often found to be
corrupt, brutal, and composed of unethical and untrained personnel. These
shocking conclusions were never manifested in significant public actions,
however.
The next major report appears to have been published by the American Bar
Association in 1953. In response to a recognition that policing in this country
required improved professionalism, the ABA published a "Model Police
Training Act." The Act outlined eight broad functions that should ideally be
performed by police regulatory agencies.
In 1967 the President's Commission on Law Enforcement and the
Administration of Justice published "The Challenge of Crime in a Free
Society," and the follow-up task report, "The Police." Contained in both reports
were recommendations pertaining to the American system of criminal justice.
Major emphasis was focused on the police, and recommendations were
offered to affect such areas as community policing, community relations,
personnel practices and procedures, organization and operational policies and
structures, and the recommendation that each state establish a Peace Officers



                                      C-1
Standards and Training (POST) Commission. At that time, 17 states had
already established POST bodies. All states had them by 1981.
The National Advisory Commission on Criminal Justice Standards and Goals
published its recommendations for improvements in 1973. Specific
recommendations for upgrading the quality of police personnel ranged from
proposals for improving recruitment and selection to encouraging the
imposition of extensive recruit basic and in-service training requirements that
would be made mandatory for all police personnel.
California and New York were the first to establish POST commissions in
1959. New Jersey and Oregon created POST commissions shortly thereafter
in 1961. The last states to create POST commissions were Tennessee, West
Virginia, and Hawaii. The staffs of POST organizations first formed an
association in 1969 upon the urging of IACP. In 1987, the name of this
association was changed from NASDLET TO IADLEST thereby reflecting a
more inclusive Mission and Focus.
No analysis of the development of professionalism in the criminal justice
occupations would be complete without a reference to the positive impact of
the Law Enforcement Assistance Administration's
LEEP program. The Law Enforcement Education Program was the first
significant infusion of federal funds designed to improve the education and
management skills of police and criminal justice managers. A by-product of
that great amount of funds was the establishment and creation of departments
of criminal justice in practically every postsecondary institution in the nation.
Thus was born the discipline of criminal justice and criminal justice studies that
have done so much to advance the knowledge and practice of the
criminal justice professions.

To be sure, the public horror and reaction to police brutality and unlawful
tactics in response to the general public disobedience of the 1960's led to
demands that the quality of police improve. Likewise, a string of important
Supreme Court cases recognized that the power of police must be regulated
and misuses punished. The extension of the exclusionary rule to the states
through Mapp v. Ohio (1961) was only the first of the contemporary major
decisions to recognize the need to proscribe police unlawfulness. Mapp was
followed shortly thereafter by Escobedo v. Illinois (1964), Miranda v. Arizona
(1966), Terry v. Ohio (1968), and Chimel v. California (1989) just mention
some of the more well-known cases. This has been paralleled by the rapid rise
of civil liability recourse (42 USC 1983, 1987) against police misconduct. A
police officer of the 50's would be confounded by what a professional officer of
the 90's considers commonplace.
The POST organizations were created out of the crucible of conflict, change,
and the demand for professionalism and ethics in public officers. POST
programs exist to assure all citizens that peace officers meet minimum
standards of competency and ethical behavior. POST organizations also have

                                      C-2
 an obligation to the officers and agencies that they regulate, to adopt programs
 that are sensible, effective, and consistent with contemporary notions of what
 standards should be for all officers.
 It is in this spirit of growth and responsiveness that the International
 Association of Directors of Law Enforcement Standards & Training have
 resolved to establish a set of MODEL MINIMUM STANDARDS to which all
 states may aspire.
   "Great spirits have always encountered violent opposition from mediocre
                           minds." - Albert Einstein


         Model Minimum State Standards For Post Administration
1.0 Concepts, Mission, and Organization
 Each State shall have an organization at the state level with adequate
 authority to set standards for the hiring, training, ethical conduct and retention
 of police officers, through certification, licensing, or an equivalent
 methodology.
                                   Commentary
 Ever since 1967, when the President's Commission on Law Enforcement and
 the Administration of Justice issued its landmark report entitled "Task Force
 Report: The Police", it has been formally acknowledged that the law
 enforcement task is as great or greater than that of any other profession, and
 that the performance of this task requires more than physical prowess and
 common sense. Law enforcement officers engage in the difficult, important
 and complex business of helping to regulate human behavior, and their
 intellectual armament and ethical standards must be no less than their
 physical prowess. The Commission said in 1967, "the quality of police service
 will not significantly improve until higher educational requirements are
 established for its personnel" and that statement is equally true today.
 As the Commission pointed out, while all departments are in need of upgraded
 recruiting efforts, higher minimum standards, better selection procedures and
 more training, the needs are more pronounced for the smaller police
 departments, many of whom without mandates at the state level would provide
 little or no training, use ineffectual selection and screening techniques, and
 have no organized recruiting programs, resulting in substantial variation in the
 quality of police service, not only in different areas of the nation, but within the
 same state.
 Therefore, each state should have a commission, council or board on peace
 officer standards and training to establish, maintain, and update these
 standards.


                                        C-3
1.0.1 Authority to Set Selection Standards
 Such a commission should have the authority and responsibility to establish
 minimum statewide selection standards for all persons having authority to
 make arrests for violations of the criminal, motor vehicle, fish and game,
 boating and other laws of the state and for violations of local ordinances, and
 for all persons having custody of individuals who are incarcerated awaiting
 arraignment or trial, sentenced to terms in correctional institutions or released
 on probation or parole by the courts, and persons who hold other related
 public offices.
1.0.2 Authority to Set Education and Training Standards
 Such a commission should have the authority and responsibility to establish
 minimum educational and training standards for pre-service, in-service and
 specialized training programs for law enforcement and corrections personnel,
 and persons who hold other related public offices; determine and approve the
 length and curricula for such programs; set minimum standards for instructors
 in such programs; and approve facilities as acceptable for law enforcement
 and corrections training.
1.0.3 Licensing or Certification
 Such a commission should have the authority and responsibility to act as the
 certification or licensing authority for sworn personnel who perform the duties
 of law enforcement and corrections officers, and other related public officers,
 and determine the conditions they must meet for certification or licensing.
1.0.4 Decertification or License Revocation
 Such a commission should have the authority and responsibility to decertify or
 suspend or revoke the licenses of sworn personnel who perform the duties of
 law enforcement and corrections officers, and other related public officers, for
 failure to observe training requirements, incompetence or egregious
 misconduct, and to determine the mechanics and conditions for such
 decertification.
1.0.5 Conducting Research
 Such a commission should have the authority and responsibility to conduct
 and stimulate research by public and private agencies designed to improve the
 law enforcement and corrections services.
1.0.6 Compliance Enforcement
 Such a commission should have the authority, responsibility and resources to
 make inspections to assure that its standards are being adhered to, and to
 sanction persons and agencies who willfully or negligently fail to comply with
 these standards.


                                       C-4
1.0.7 Financial Assistance
 Such a commission should have the authority, responsibility and resources to
 provide financial aid to government units as an incentive to send their officers
 to training programs.
1.0.8 Representation on the Commission
 The majority of the representatives on such a commission should be
 representatives of local and county law enforcement and correctional
 agencies, with additional representation from state law enforcement and
 correctional agencies, the courts, and other appropriate agencies or
 professions.
                                 Commentary
 In some states, standards commissions are separate from training
 commissions, to avoid any claims of a conflict of interest if the standards
 setting agency also provides the training. However, in instances where such
 responsibility is split between two commissions, the participants sometimes
 indicate that communications and coordination are more difficult and there can
 be duplication of effort. In some states, the responsibility for corrections
 training is vested in a separate commission, or some agencies such as State
 Police or Sheriffs are either exempt from training standards or set their own.
 However, there are many similarities between police and corrections work at
 all levels which make it quite logical that the responsibilities for setting
 standards and delivering training can be vested in a single commission, with
 adequate resources and division of duties.
1.0.9 Independent Agency
 Such a commission should be a separate state agency rather than a division
 or branch of another agency.
                                 Commentary
 Since a standards and training commission should serve the interests of state,
 local and county criminal justice agencies equally, it is preferable that it
 maintain its autonomy and avoid any appearance that its actions are
 dominated by another criminal justice agency. Since the agency should ideally
 be funded from a dedicated revenue source, maintaining it as a separate entity
 will remove the temptation to divert funds to the parent agency.
1.1 Commission, How Constituted and Operated
1.1.1 Terms of Commissioners
 The members of the commission should be appointed for staggered terms
 which are not all coterminous with the term of the appointing authority. The
 statute should provide that certain members serve by virtue of their office.

                                      C-5
                                   Commentary
 The commission, while under the control of the politically elected officials of
 the state, should be set up in such a way as to provide some continuity and
 expertise in office, so that it will not be used solely as a source of political
 patronage, and so that it will not be unduly susceptible to political coercion.
1.1.2 Executive Direction
 The day-to-day operations of the commission should be under the control of
 an executive director or other executive head, who is appointed by a majority
 vote of the commission, and who can only be removed for cause and after a
 public hearing.
                                   Commentary
 The executive director should be a competent professional, chosen because of
 ability rather than politics, and whose selection should be removed from the
 partisan political process. He or she should have adequate tenure to develop
 and implement the goals and objectives of the commission and enforce
 compliance with commission mandates without fear of political reprisal.
1.1.3 Qualifications of Director
 A state statute should set forth minimum qualifications for the executive
 director, which should include a baccalaureate or graduate degree,
 considerable experience in the field of law enforcement or corrections, and
 familiarity with the development and management of training programs.
1.1.4 Funding Source
 The commission's operations, including subsidizing the costs of statewide
 training programs, should be paid out of a dedicated, nonlapsing revenue
 source independent of the state's general fund and protected within the state
 constitution, such as a penalty assessment fund or other funding source.
                                   Commentary
 A penalty assessment fund, based on a percentage of court fines, has proven
 to be a worthwhile and constitutionally permissible mechanism for the funding
 of criminal justice training programs because it involves no tax monies, and
 because those who contribute to it have a vested interest in being dealt with by
 competent professionals with high ethical standards and community relations
 skills.
 Where such a fund exists or is enacted, it is important for it to be established
 as a trust fund within the state constitution, to prevent it from being diverted to
 other purposes whenever the state experiences a general fund revenue
 shortfall. It is also important to resist having a variety of other programs funded
 out of this dedicated revenue source, as the end result is usually that court

                                        C-6
 fines reach the point of diminishing returns, and police and corrections training
 programs are either inadequately funded or require additional general fund
 support.
1.1.5 Meetings
 State statutes should require the commission to meet at least quarterly, and it
 should be provided with an adequate budget to employ sufficient full-time staff
 to carry out its mandated duties, with sufficient equipment, travel, and staff
 development funds to enable its staff to keep abreast of progressive training
 methods, maintain appropriate professional certifications, belong to
 professional organizations and monitor the compliance of criminal justice
 agencies with its standards.
1.1.6 Subsidies
 The state should provide the commission with sufficient funds to enable it to
 reimburse or subsidize every law enforcement and corrections agency 100
 percent of the salary, or underwrite the cost of training programs to be
 completed by the employees of state, county and local law enforcement and
 corrections agencies.
1.1.7 Reciprocity
 Through reciprocity, the commission should recognize the licensing or
 certification standards of other states which maintain and enforce equivalent
 standards, to encourage lateral entry by officers from another state without
 having to undergo redundant training, either at the academy level or in various
 specialties.
                                  Commentary
 Such reciprocity can be provided through standardized licensing and
 certification examination programs, supplemented by attendance at programs
 designed to acquaint officers who move in from another state or whose license
 or certification has lapsed during a break in service, with updated state laws,
 tactics and procedures.
1.1.8 Accreditation
 The commission should recognize the value of a law enforcement
 accreditation process in upgrading the police profession, and provide technical
 assistance and support to departments seeking accreditation.
                                  Commentary
 Such support can be provided through commission involvement with state or
 area-wide PAC's (accreditation coalitions) which provide voluntary assistance
 to one another in their efforts to achieve national accreditation, or through the


                                       C-7
 establishment of a statewide accreditation program through the commission or
 another appropriate entity, tailored to the needs of the individual state.


         Model Minimum State Standards Peace Officer Selection
2.0 Selection
 Each state commission should prescribe minimum statewide standards that
 must be complied with by hiring authorities who employ law enforcement and
 corrections officers and other related public officers. These standards should
 comply with any applicable federal and state equal employment guidelines and
 relate to the skills and attributes necessary to perform the essential functions
 of a police or corrections officer.
2.0.1 Drug Screening
 State law or regulation should require each candidate for an entry level or
 lateral entry sworn position, to submit to testing to determine if he or she is
 currently using an illegal controlled dangerous substance.
                                  Commentary
 Peace officers are expected to enforce the law related to the use of controlled
 dangerous substances, and to prevent prisoners from acquiring such
 substances. The effectiveness of these officers would be compromised if they
 were also illegally using these drugs. Therefore, they should receive a valid
 test to screen for the illegal use of controlled dangerous substances consistent
 with federal and state laws. The type of test to be utilized would be selected by
 the agency consistent with their needs and costs, and consistent with
 minimum requirements set by the commission.
2.0.2 Background Investigation
 State law or commission regulation should require each candidate for an entry-
 level or lateral entry law enforcement or corrections officer position or other
 related public office, to submit to a thorough background investigation
 according to protocols developed by the commission, to determine that they
 have exhibited mature judgment and are of good moral character and
 reputation.
                                  Commentary
 Those called to serve in the criminal justice system are faced with many
 difficult occupational situations. A documented background investigation is
 necessary to ensure that all candidates possess the necessary attributes to
 perform their duties. It is also necessary to screen out undesirable personal
 characteristics that may adversely affect their performance as officers. This
 background investigation should include at a minimum~ interview with

                                       C-8
 previous employers and coworkers, neighbors, past and present family
 members, character references, school authorities, academic and military
 records, and a credit record check. Polygraph examinations can be an
 effective tool to help validate written and oral information, and to detect
 possible deception by a candidate. They should be used to support, but not as
 the sole indicator for, employment status decisions.
2.0.3 Fingerprint Check
 State law or commission regulation should require the hiring authority to
 conduct a state and national criminal history check, including fingerprinting,
 and should prohibit the hiring of any person as a sworn police or corrections
 officer who has been convicted of a felony, or any other crime or series of
 crimes which would indicate to a reasonable person that the applicant was
 potentially dangerous, violent, or had a propensity to break the law.
                                    Commentary
 All persons who are expected to enforce the law should be free of a criminal
 background which would compromise their effectiveness. A criminal history
 check should be made through the National Crime Information Center and the
 appropriate local and state criminal history repositories in all communities
 where the applicant has lived or worked, confirmed by an applicant fingerprint
 card.
2.0.4 Age Requirements
 Each state should set a minimum age requirement for employment as a police
 or corrections officer, or other related public office, verified by a birth certificate
 or other appropriate documentation.
                                    Commentary
 The minimum age requirement should be established to ensure that
 candidates will be legally able to perform their duties. This age requirement
 should be consistent with all federal and state laws, ordinances and
 regulations related to law enforcement activities, the possession of various
 types of evidence, and the use of firearms.
2.0.5 Oral Interviews
 State law or commission regulation should require all candidates for police and
 corrections officer positions and other related public offices to be given a
 personal interview by representatives of the hiring authority to evaluate job-
 related behaviors, whether by an interview panel or another appropriate
 assessment process, and should provide guidance to the hiring authority as to
 any questions which should not be asked during such a process.
                                    Commentary


                                         C-9
 Personal interviews are a valuable tool to verify and further expand on
 information provided by a candidate, in order to determine his or her fitness for
 the job, and to evaluate whether they possess adequate verbal and
 communications skills for the job.
2.0.6 Citizenship
 State law or commission regulation should require all sworn police and
 corrections officers to be U.S. citizens. In order to encourage the cultural
 diversity which has enriched our nation over the years, foreign nationals who
 are becoming citizens should be encouraged to consider law enforcement
 careers if they can be employed by criminal justice agencies without exercising
 arrest powers until obtaining full citizenship.
                                   Commentary
 Police officers are expected to enforce the laws and constitution of the United
 States, and are among the few persons who can deprive a U.S. citizen of their
 freedom. This power should be vested in officers that are loyal citizens,
 committed to support the laws of the United States and of the state and locality
 of their employment. In addition, by being a citizen, an officer will be more
 familiar with the rights afforded to all citizens.
2.0.7 Driver's License
 State law or commission regulation for police officers should require a driver
 history record that indicates that a candidate is a safe driver who has adequate
 respect for the traffic laws that they will be enforcing, and has a valid motor
 vehicle driver's license. A driver's license may not always be a requirement for
 correctional officers.
                                   Commentary
 All police officers will utilize motor vehicles in the performance of their duties at
 one time or another, and many will drive under emergency conditions. Their
 driving records should be screened prior to hiring, to determine that they are
 not poor or unsafe drivers.
2.0.8 Medical Qualifications
 Once a conditional offer of employment has been issued, state law or
 commission regulation should require the hiring agency to provide a job-
 related pass/fail medical examination to each applicant for a sworn police or
 corrections officer position and mandate that they are medically fit to complete
 any necessary training and perform the duties of a police or corrections officer.
 The commission should provide for a medical review board to consider the
 cases of any applicant with a disability who feels that it will not prevent them
 from completing the training or performing the essential functions of the job
 without endangering others.


                                        C-10
                                  Commentary
 Such an examination evaluates the candidate's physiological readiness to
 learn and determines the relative risk that their health will compromise their
 ability to perform the frequent and critical tasks assigned to them.
2.0.9 Education
 State law or commission regulation should require immediately that all persons
 hired as police or corrections officers possess at a minimum a high school
 diploma, and should ultimately seek to phase in an entry-level requirement of a
 baccalaureate degree from a college or university accredited by a regional
 postsecondary accrediting body. Such college education should include a
 substantial core of courses in the humanities.
                                  Commentary
 Completion of high school insures that candidates will have obtained at least
 minimal skills in writing, comprehension and analysis required of an officer
 who must possess superior written and oral communications skills and an
 ability to read and interpret complex statutes, court decisions, and operational
 procedures. It will also be an indicator that the candidate can successfully
 complete a police or corrections academy or entrance-level training program.
 Although some states allow a G.E.D. in place of a high-school diploma, we are
 unaware of any other profession that permits entry at the G.E.D. level. As
 communities move toward community policing, a college education becomes
 increasingly desirable as an entrance standard.
2.0.10 Physical Fitness Assessment
 A valid, job-related physical fitness or agility test based on data obtained from
 a written job description validated by a job task analysis, should be required on
 a pass/fail basis for each police and corrections officer candidate, by state law
 or commission regulation.
                                  Commentary
 Each candidate should be tested for physical conditioning, fitness and agility.
 The results of these tests should be evaluated against established, validated
 criteria, to determine their ability to complete any necessary training and
 perform the essential job functions, and reduce the danger to coworkers.
 Physical fitness or agility standards (muscular strength, muscular endurance,
 cardiovascular endurance, coordination, flexibility, strength, etc.) must also be
 validated as job-related to the occupational needs of police and corrections
 officers. Without validation, such standards may not survive legal challenge,
 especially if they deny employment to a protected class of people. A decision
 must be made as to whether candidates must meet certain standards before
 they can enter an academy, or whether they must achieve certain standards



                                      C-11
 as a requirement for successful completion of the academy. Agility testing, if
 employed, must be done across the board for all candidates.
2.0.11 Psychological Screening
 State law or commission regulation should require hiring authorities to
 administer a psychological screening to all applicants for sworn police or
 corrections officer positions, and not to hire applicants who suffer from a
 current mental illness that would affect their ability to function safely and
 effectively in the job, or display characteristics such as a tendency toward
 unnecessary violence or poor impulse control.
                                  Commentary
 A psychological assessment is necessary to screen out candidates who may
 not be able to carry out their responsibilities or endure the uniquely stressful
 working conditions, or who are not emotionally stable. Only qualified, licensed
 professionals should interpret these tests, using norm-referenced testing
 instruments to determine emotional and mental stability, recognizing that an
 appeal process or second opinion should be afforded to ensure fairness if a
 candidate is eliminated by this process.
2.1.0 Interstate Training Reciprocity
2.1.1 Reciprocity
 Commissions should publish their requirements for reciprocity. They should be
 designed to notify other commissions as to reciprocity requirements for holding
 appointment as a police or corrections officer, and the training required or
 equivalency test needed for lateral entry. The published requirements should
 specifically address the areas enumerated below.
2.1.2 Prerequisites
 Rules should state the prerequisites for holding the position requested by an
 applicant seeking employment in the state's criminal justice system,
 prerequisites for attending basic law enforcement training, and a description of
 the required minimum police or corrections recruit course, including hours of
 attendance.
2.1.3 Procedures
 Rules should describe the procedure to obtain a waiver of basic training
 requirements, or state that a waiver is not allowed.
2.1.4 Matrix
 The commission should develop a matrix to allow the staff to give a
 preliminary, non-binding opinion regarding the equivalency of training.



                                       C-12
2.1.5 Documentation
 Rules should prescribe the documentation and the certification of such
 documents from other educational institutions or training academies that are
 allowed as proof of completion of courses.
2.1.6 Decertification
 Rules should prescribe the charging, hearings, and appeal process for
 decertification of an officer for infractions of laws, rules, or regulations, and the
 effect to be given to an out-of-state decertification action or conviction.
2.1.7 Licensing
 The commission should publish a listing of any criminal justice position
 requiring a license or special license, a description of the licensing
 examination, and the name, address, telephone and FAX numbers of the
 licensing board or agency.


           Model Minimum State Standards Recruit Basic Training
3.0.0 Basic Training
 Commission regulations authorized by state law should establish minimum
 standards for the accreditation, administration, and delivery of basic training
 programs required for professional certification or licensing of entry-level police
 and corrections officers, regardless of whether such programs are delivered by
 state-run academies, individual law enforcement agencies, institutions of
 higher learning, or a combination thereof.
NOTE: Due to the difference in national and international police and corrections officer
standards and training programs, the following standards may not be totally applicable to
some training or educational plans. It is recognized that each commission must abide by its
own state, provincial or national standards and regulations.

3.0.1 Purpose
 The purpose of basic training should be to provide a supportive and nurturing
 environment that will encourage officers to be humanistic, compassionate,
 empathetic, culturally aware and career-oriented, skilled in the use of
 discretion, able to identify and solve problems in traditional and non-traditional
 but acceptable ways, and proficient in the use of weapons, the ethical and
 effective use of both deadly and non- deadly force, and respectful of
 constitutional limitations on their authority.
3.0.2 Core Competencies
 Minimum curriculum requirements for basic training programs should identify a
 set of core competencies required for satisfactory performance of entry-level

                                          C-13
 tasks. These competencies should include both knowledge and skills identified
 through job task analysis, and additional abilities in areas such as professional
 orientation, human relations and the ethical use of discretion that the
 commission deems consistent with the role of police and corrections officers in
 a free society.
3.0.3 Matriculation Requirements
 Institutions, academies and agencies offering basic training courses should be
 encouraged to adopt entry standards for their programs that are designed to
 assure that graduates will meet as closely as possible the minimum
 professional standards adopted by the commission for occupational
 certification or licensing as a police or corrections officer.
3.0.4 Medical Examination
 Students, as a condition of admission to basic programs, should be required to
 submit to a medical examination by a licensed physician familiar with the
 aspects of the curriculum that require physical strength, agility, flexibility and
 aerobic capacity and who, on a pass/fail basis, certifies that the prospective
 student can, in the physician's opinion, safely perform the course work
 required.
3.0.5 Transcripts
 Students should be required to present transcripts of all prior education and
 training as a precondition of admission into a basic police or corrections
 training program.
3.0.6 Student Records
 The items contained in standards 3.0.2 through 3.0.5 above should become a
 permanent part of the candidate's training records. This record should be
 available to the commission and on a need-to-know basis to the staff and
 management of the basic course provider. Medical records should be kept in
 separate files, or with restricted access. A student's files should be released
 only to the student's employing or sponsoring law enforcement or corrections
 agency, if any, or to commission officials, unless the student has given written
 permission for others to access them, or a valid court order exists. Student
 records are protected under federal law by the Buckley Amendment. Records
 should be retained for at least the record retention period required by state
 law, either in the form of hard copy, computer files, or other court-acceptable
 media.
3.0.7 Training Course Records
 The commission should promulgate standards for the documentation of
 curriculum and the keeping of historical records for a period of at least twenty
 years for each basic training class, to include lesson plans, copies of


                                      C-14
 audiovisual aids, tests and examinations, attendance records, student and
 instructor evaluations, course schedules, and instructor resumes.
3.0.8 Forms and Procedures
 Commission administrative regulations should require that each institution
 have a policy that prescribes the forms and procedures for documenting the
 candidate's pre-employment or pre-basic requirements. Forms for each
 requirement should be developed and made available to agencies that will use
 the services of the training institution. When the candidate arrives for training
 at the institution, his or her training records should be inclusive and in a
 manageable format.
3.0.9 Basic Course Administration
 Institutions and agencies providing basic training should be required by
 commission regulation to have a policy manual or course management guide
 which outlines the procedures to be followed in conducting the basic course.
 The policies should be directed toward the behavior of employees and staff as
 well as the students.
3.1.0 Scope
 Written policies should describe the rules of the institution as they apply to the
 students, and each student upon entry should be issued a copy of the rules
 and acknowledge receipt of them in writing.
3.1.1 Orientation
 The commission should require that each agency, institution or academy
 offering a basic course set aside a block of time at the beginning of the course
 for verbal orientation of the students and an explanation of the relevant
 institution rules and the matriculation requirements.
3.1.2 Rules
 Written policies should describe the rules of the institution as they apply to the
 students, and each student upon entry should be issued a copy of the rules
 and acknowledge receipt of them in writing.
3.1.3 Discipline
 The rules should describe the process for charging a student for a rules
 violation, the penalty for such a violation, and the appeal process.
3.1.4 Records
 The rules should describe the records to be maintained for every student who
 receives any training and the method used to provide a validated transcript of



                                       C-15
 such training. Records maintenance rules should be compatible with state and
 federal laws concerning student records.
3.1.5 Facility
 The rules should prescribe facility requirements commensurate to the curricula
 to be taught by the institution. Curricula activities such as driver training,
 firearms training, practical exercises and any other training program mandating
 special needs should have access to adequate facilities. The facilities should
 be designed to provide the specific training needed to meet the course
 objectives.
3.1.6 Grading
 Student grading policies should be established in terms of pass/fail, re-testing
 in regards to a failure (if permitted), appeal of test results, and necessary
 repeating of a subject area if a failure is substantiated or in case of excessive
 absence from class. Remedial or re-training should be applied in an equitable
 manner.
3.1.7 Attendance
 Attendance at courses should be mandated. If a percentage of time is allowed
 for excused absences (for any reason), the percentage of time a student is
 allowed to be absent and still pass the course should be set by the
 commission.
3.1.8 Tests
 Methods of developing test questions conforming to the performance
 objectives stated in the course should be explained to each student. The test
 development process should be stated in procedural format, outlining exactly
 how the testing program is administered.
3.1.9 Counseling
 Training staff advisors and/or counselors should be available to discuss
 personal or training matters with the students. Remedial study habits should
 be suggested, along with advice to provide the student with every opportunity
 to do well in the courses.
3.2.0 Failure
 Students failing a training course should be evaluated in terms of attitude,
 adaptability and retention. Should it be determined that the student can be
 successfully trained, remedial training should be provided under the guidelines
 established by the grading policy in 3.1.6 above.
3.2.1 Library



                                      C-16
 A satisfactory learning resource center should be provided if the student is
 assigned studies outside of the training handouts or classroom notebook. A
 library indexed by an acceptable decimal system should be available. The use
 of interactive video or computer programs is advisable.
3.2.2 Curriculum
 The commission should establish minimum curriculum requirements for the
 basic course, and all institutions and agencies delivering approved basic
 training should be required to comply with these requirements. Curricula
 should be based on a valid and reliable job task analysis which is updated at
 least every five years. Training techniques should be generally accepted as
 correct and legal. Curricula should be submitted on a standardized form
 detailing the performance objectives for the course and the training
 methodology. The curricula should be certified by the commission's executive
 director upon recommendation of a curricula committee, including legal
 experts, whose members have examined the content and training
 methodology for the purpose of validating it. Instructors involved in the delivery
 of basic training should be credentialed as instructors by the commission.
3.2.3 Safety
 Safety rules should be given to all trainees who enter the training facility. The
 rules, along with rules of conduct, should be discussed during orientation. A
 form attesting that the rules have been distributed and are understood should
 be signed by each student, collected by the instructor and filed. High-risk and
 high- liability curriculum areas should have safety rules posted in a
 conspicuous manner to remind the students of potential risks. Instructors
 should be periodically refreshed on the contents of these rules.
3.2.4 Graduation
 Diplomas or notices of successful completion of basic courses should be
 awarded, and should identify the awarding institution, the name of the
 recipient, statutory mandate for the course (if any), precise name of the
 course, dates of attendance and graduation, and signature of the agency or
 institution head.
3.2.5 Insurance
 Liability and comprehensive insurance should be provided in accordance with
 city, county or state laws or regulations. The chief legal counsel for the training
 agency should be consulted about indemnification.
3.2.6 Hiring
 Employment of staff should be done through an established hiring process
 designed to insure that they possess adequate education, experience, ethical
 standards and medical condition for the position. The use of guest lecturers


                                       C-17
 should be controlled in a manner that assures their integrity and qualifications
 to teach.
3.2.7 First Aid
 First aid and medical emergency plans should be included in instructor and
 student orientation materials. If courses include high-risk activities, emergency
 medical plans should be discussed with students. Every instructor who
 teaches firearms, driving or other high-risk subjects should be currently
 certified in first-aid and CPR. First-aid kits and a means of summoning
 emergency medical assistance should be available at all training sites.
3.2.8 Equipment
 Equipment requirements and standards should be established and provided to
 all agencies or persons participating in the training courses. Standards for
 weapons and ammunition used on the firing range should be established, as
 well as vehicles used on the driving range. Other equipment such as uniforms,
 leather gear, footwear, radar sets, batons, cameras or any other equipment
 used in training courses should conform to acceptable standards. The
 standards should be set by the commission or a group of persons having the
 ability to set such standards in a reliable and expert manner.


            Model Minimum State Standards In-Service Training
4.0 In-Service Training
 IADLEST endorses the concept of additional, commission mandated annual
 in-service law enforcement training for sworn or commissioned law
 enforcement officers following basic certification or licensure. We would
 recommend leaving the number of training hours and the selection and/or
 approval of subjects to the discretion of local law enforcement administrators,
 subject to the guidance and minimums set by the commission.
                                  Commentary
 As with many professions, and more so than most, law enforcement is an
 ever-changing occupation. Laws, court decisions, techniques, technology, and
 indeed the society that we regulate and serve, is in a constant state of flux. For
 this reason, it is necessary that police and corrections officers keep abreast of
 their field, so that they can more effectively serve the citizens, help the
 agencies that employ them avoid civil liability, and develop necessary
 supervisory and management skills. Unfortunately, in some jurisdictions the
 continuing education requirement for law enforcement is either non-existent or
 less than that of some less complex occupations such as barbers or real
 estate salespersons. This situation must be rectified in order for the criminal
 justice system to achieve optimal quality and excellence in service.


                                      C-18
4.1.1 Statutory Authority; Purpose
 Each state legislature should provide its commission with the statutory
 authority to mandate continuing education requirements for police and
 corrections officers as a condition of certification or licensure. The purpose of
 such training should be to ensure continued proficiency in necessary skills,
 become familiar with new developments and techniques, and achieve a
 revitalized sense of compassion, professionalism and career interest.
4.1.2 Resources
 Each state legislature should provide adequate funding to its commission to
 assist in the development, presentation and monitoring of in-service training
 requirements.
4.1.3 Criteria
 The criteria for needs assessment, curriculum development, instructor
 qualifications, research, testing, and student safety should be no less stringent
 than that which is prescribed for recruit training programs.


    Model Minimum State Standards Training and Instructor Standards
5.0 Task Analysis
 Each state commission should conduct a task analysis of the entry level law
 enforcement position at least once every five years.
                                  Commentary
 A task analysis should be conducted statewide to determine the essential
 functions of the entry level position and the relevant tasks and task steps.
5.0.1 Task Analysis Committee
 Each state commission should utilize a committee to assist with the job task
 analysis (JTA).
                                  Commentary
 The committee should be made up of personnel in the criminal justice
 profession, and assist with the development of the curriculum using results of
 the JTA. This will assure that the curriculum reflects the actual needs of the
 basic police officer. The Advisory committee can also be a useful resource to
 add/modify curriculum during years that the JTA is being upgraded or revised.
5.0.2 Core Curriculum




                                       C-19
 Each state should develop a minimum standard basic police and corrections
 training curriculum based upon the results of the job task analysis, plus
 additional areas such as professional orientation, human relations, and the
 ethical use of discretion, that the commission deems consistent with the role of
 police and corrections officers in a free society.
                                 Commentary
 Curriculum should be based upon a job task analysis, to assure that the goals
 and objectives of the course are based upon the current requirements of the
 position. The job task analysis will identify the most important, most difficult
 and most frequent tasks required by the essential functions, and further
 identify those tasks that should be learned at the academy, as opposed to at
 some other time and place.
5.0.3 Unit Goals
 The state standard basic training "core curriculum" should contain a unit goal
 for each unit of instruction, and performance objectives that are measured by
 demonstrated performance (written or practical) examinations.
5.0.4 Performance Objective
 The curriculum should assign each performance objective a unique
 alphanumeric identifier.
                                 Commentary
 The use of numbered goals and objectives for each unit of instruction assures
 that the course offers the same curriculum every time it is taught. The
 alphanumeric identifiers allow the easy tracking and reporting of objectives.
 This is essential for reports to student or administrators upon completion of a
 course.
5.0.5 Field Training
 Each state commission should establish a field training officers' program of on-
 the-job training that is also based upon a job task analysis.
                                 Commentary
 The basic curriculum and the field training program must both be based upon
 a task analysis, and complement one another. The field training program
 should cover the following areas: (1) Knowledge and skills that are unique to
 the employing agency, but not relevant to the state as a whole. (2) Knowledge
 and skills that have been determined through a task analysis to be essential to
 the job, but the local employing agency is better suited as the primary trainer.
 (3) Demonstrating proficiency in performance objectives that were not met
 during the academy training process. The final report to the employing
 administrator should contain the performance objectives that the officer did not

                                      C-20
 achieve while in training at the academy. This report should become a part of
 the field training program as a remedial loop. The performance objectives
 should be demonstrated satisfactorily during the field training experience
 before the officer can be certified. Field training should be an integral part of
 the "core curriculum" and quantified as to time to be credited.
5.0.6 Written Tests
 Each state commission should develop a bank of questions that measure the
 knowledge required by performance objectives evaluated by written
 examination.
5.0.7 Performance Demonstration
 Each commission should develop a "demonstrated performance" check-off
 matrix for each performance objective evaluated by demonstrated
 performance.
                                  Commentary
 It is essential that the examination process measure knowledge and skills
 identified through job task analysis. To do this, questions and demonstrated
 scenarios should be developed to measure knowledge and skills relative to the
 course performance objectives. The questions missed or skills not
 demonstrated are reported to the student so that he or she not only knows the
 questions they missed, but also the performance objectives not achieved.
5.0.8 Final Examination
 Each commission should develop a comprehensive final examination to
 determine how much knowledge was gained during the basic course, or a
 basic certification examination to determine that the student has the requisite
 knowledge to perform the essential job tasks at the entry level.
                                  Commentary
 Post-test measurement need not be conducted if careful examination of
 performance objectives was conducted during the course.
5.0.9 Follow-Up
 Each commission should establish a comprehensive post- graduation follow-
 up survey.
                                  Commentary
 The post-graduation follow-up is essential, and ensures that the course and
 course content remain relevant. The survey should be designed to determine
 the retention of basic knowledge and skills. Adjustments should be make to



                                       C-21
 course and delivery systems to increase retention and relevancy of the
 curriculum.
5.0.10 Instructor Training
 Each commission should establish an instructor training program for
 instructors involved in the "basic core" curriculum.
                                 Commentary
 A comprehensive instructor training course is essential to a standardized
 "basic core" curriculum. Unless the instructional staff knows the purpose of
 performance objectives, how they are measured, and how to write proper test
 questions and demonstration scenarios, the influence of the goals and
 objectives on learning and retention will be diminished. Additionally, the
 instructor should be required to demonstrate the instructional processes he or
 she will use, before actual use in a teaching role. This requirement may be
 waived in the case of instructors whose prior education or experience is
 deemed to be the equivalent of such a course, such as professors or
 instructors at accredited postsecondary institutions.
5.0.11 Instructor Evaluation
 Each state commission should develop an instructor evaluation process. It is
 important to the instructor to receive feedback on how well he or she does in
 the classroom. A comprehensive program will not only use the students to
 evaluate the instructor, but will also utilize feedback from managers,
 commissioned members, and other designated personnel.
5.0.12 Standardized Lesson Plan Format
 Each state commission should develop a standardized format for lesson plans.
                                 Commentary
 The lesson plan should meet the standard and contain reference(s) to each
 performance objective covered during the unit of instruction. The lesson plan
 should be approved by the course coordinator before the instructor teaches.
 The lesson plan should be a permanent part of the course record. All
 multimedia and handouts used during the presentation should be identified on
 the lesson plan.
5.0.13 Instructor Certification Levels
 Each state commission should establish certification levels for persons wishing
 to be instructors.
                                 Commentary




                                     C-22
 Different levels of certification should be established for instructors, valid for a
 set period of time, after which renewal can be requested. A basic level
 instructor should be required to demonstrate the knowledge and ability to
 conduct instruction from prepared material. More advanced instructors should
 also be required to demonstrate the knowledge and ability to determine course
 objectives, develop lesson plans, coordinate other instructors and utilize
 results of task analyses. Top-level instructors should be required to
 demonstrate the ability to develop tests, supervise instructors and support
 staff, organize goal-setting, assist in developing a budget for training programs
 and maintain positive public relations. Appropriate instructor designations
 should recognize certain high-liability areas, such as firearms, defensive
 tactics, physical fitness, and emergency driving.
5.0.14 Revocation of Certification
 Each state commission should have the authority to revoke the certification of
 instructors.
                                   Commentary
 To assure the quality of instruction, the state commission should be authorized
 to revoke instructor certification of those persons failing to follow commission
 guidelines or performance objectives.
5.0.15 Annual Instructor Evaluation
 Each state commission should conduct evaluations of instructors on a routine
 basis, at least annually.
Commentary
 Commission staff should annually evaluate each instructor conducting
 mandated training programs. The evaluation will be a useful tool to the
 instructor and the commission, and ensures that all performance objectives
 are presented by the instructor, and that high-quality teaching is provided to
 students.
5.0.16 Instruction and Curriculum Management
 Curricula should be carefully documented, validated and updated, as follows:
5.0.17 Documentation
 Curricula should have dates of original writing and dates at which time it was
 updated or revised. A tickler file should trigger automatic review and update
 consideration. A competent curriculum committee with the appropriate
 education and background should review and recommend all curriculum.
 Whenever the commission director is the sole curriculum approving authority,
 he or she should have the background, education and credentials necessary


                                       C-23
 to make such judgments. The committee or commission director should have
 statutory authority to approve or deny curricula.
5.0.18 Validation
 Validation procedures for curricula should be job task- related, contain
 performance objectives based upon identified training needs, and test
 construction should be valid and reliable in testing the performance objectives.
5.0.19 Design
 Curriculum design should include full research of the topic(s) or curriculum,
 source documents written from research, lesson plan(s) developed from the
 source document, and the source documents and lesson plan should be kept
 on file for reference.
5.0.20 Handouts
 Handout materials or any reference materials should be serialized, and
 corresponding numbers placed on lesson plans and curricula to which the
 handout is related.
5.0.21 Staff Instructors
 Staff instructors should be graduates of a recognized college or university with
 a degree in the appropriate field, or have at least a high school education with
 a documented background and experience to equate in ratio to years of
 college or university study.
5.0.22 Background
 Instructors should successfully pass a background investigation documenting
 good moral character and integrity.
5.0.23 Physical Fitness
 Instructors should be physically fit and in acceptable health to perform the
 essential functions of their jobs.
5.0.24 Communications
 Instructors should have the ability to communicate with students in a
 supportive manner and yet be able to render objective judgments in reference
 to student efforts.
5.0.25 Motivation
 Instructors should be able to instruct in a manner that motivates students to
 learn.
5.0.26 Research Skills


                                      C-24
 Instructors should be able to research and write training materials such as
 source documents, lesson plans, and tests.
5.0.27 Testing
 Testing, whether pre-test or post-test, should be valid and reliable. If pre-
 testing is used, it should be done with a specific purpose in mind and result in
 the ability to measure the instructional results accurately. Otherwise, it will not
 provide a useable result, but will instead mislead and cause confusion.
5.0.28 Technology
 Contemporary information with regard to the use and development of
 instructional technology should be researched in order to maximize training
 techniques. The goal should be to correctly apply training technology to
 enhance the ability of students to learn, and not solely to expedite the training
 process.
5.0.29 Skills Training
 Critical skills areas (vehicle stops, use of deadly force, evidence collection and
 preservation, etc.) should be tested through the use of graded practical
 exercises. An acceptable pass/fail criteria should be established for each skills
 test.
5.0.30 Strategies
 Instructional strategies should be utilized when it is determined that a
 particular strategy is the best technique that could be used to teach a
 particular attitude, knowledge, or skill.


          Model Minimum State Standards Professional Conduct
6.0 Standards of Professional Conduct
 Each state should provide its commission with the authority to issue standards
 for professional conduct of law enforcement and corrections officers which
 specify occupational professionalism by which the certification or license may
 be retained by persons holding it, and should be empowered to enforce
 minimum professional standards through the administrative denial of
 certification to unqualified applicants, and administrative sanction of officers
 violating professional standards.
                                   Commentary
 Each state has been empowered through its constitution or by legislative
 authority, to regulate occupations and professions in the public interest,
 thereby protecting the public health, safety and welfare in the performance of


                                       C-25
 such occupations and professions. A state generally administers this authority
 through the certification or licensing of persons who have met specific
 minimum standards. The authority of a state to grant certification or licensure
 to persons performing an occupation or profession, also implies that the state
 may refuse to license, or revoke state certification or licensure. In the case of
 law enforcement and corrections, these duties should be delegated by the
 legislature to the appropriate commission or commissions.
6.0.1 Content
 Standards of professional conduct should address the commission's authority
 to provide licensing or certification retention standards, and authority to revoke
 or decertify law enforcement and corrections officers. This authority and
 responsibility should parallel minimum standards of certification and training,
 and include cause for administrative sanction, due process notice, hearing and
 appeal requirements, and provisions for releasing information to a national
 data bank of decertified officers, as well as a recertification process.
6.0.2 Certification
 Each commission should establish procedures and regulate, monitor and
 certify that persons employed as law enforcement and corrections officers
 have met the minimum standards for employment, training, and retention.
                                  Commentary
 These standards should offer public notice regarding the high ethical,
 character, training and competency standards required by the state for the
 employment of law enforcement and corrections officers.
6.0.3 Uniformity
 A set of uniform certification or licensing standards should apply to all officer
 applicants in the state.
6.0.4 Compliance
 Prior to issuance of certification or licensure, the commission should verify the
 compliance of the applicant with minimum standards, by collecting, verifying
 and maintaining all documentation establishing compliance, and assuring that
 a proper background investigation and criminal history check have been
 completed, and requiring the training institution or hiring authority to provide
 assurance of completion of all pre-hiring requirements, subject to verification
 by commission audit.
6.0.5 Ongoing Compliance
 The commission should be authorized to monitor and enforce ongoing
 compliance with criteria for the retention of certified or licensed law
 enforcement or corrections officers.

                                       C-26
                                 Commentary
 In order to provide a means to identify officers in possession of commission
 certificates or licenses who involve themselves in unethical or unlawful
 conduct which would be considered outrageous, contemptible, inhumane,
 cruel, immoral, indecent, improper, flagrant, excessive, notorious, wanton,
 intolerable or shocking to the conscience, each state should maintain a
 professional certification or licensing compliance system. The creation of such
 a system will assist in preserving minimum standards of conduct and public
 trust in persons holding commission certification or licensure. It will also
 provide means for notice to future law enforcement or corrections employers of
 those applicants who have violated professional standards and have been
 sanctioned by the commission.
6.0.6 Application, Certification and Denial
 Each commission should require a formal application for certification, with
 specified criteria. If minimum standards are met, the applicant should be
 certified. If the applicant does not appear to meet minimum standards, the
 commission should formally notify the applicant of its intention to reject the
 application and allow a hearing, pursuant to the state administrative procedure
 act or other applicable law, if the applicant files a timely request for such a
 hearing.
6.0.7 Reporting Misconduct
 Commission regulations should mandate that employing agencies notify the
 commission when an officer leaves employment, whether terminated, laid off,
 resigned, or retired. The facts and circumstances leading to the separation
 should be required to be disclosed where officer misconduct would give rise to
 possible sanction by the commission. Instances of such misconduct
 substantiated by an officer's employing agency should also be disclosed to the
 commission. All law enforcement agencies in the state should be required to
 report to the commission, the arrest of any person known or identified to them
 as a police or corrections officer.
                                 Commentary
 Public respect for the law is linked to public respect for those who enforce it.
 When the public becomes aware of unethical, illegal or unconstitutional
 conduct, on- or off-duty, by those who are sworn to uphold the law and
 preserve the peace, public confidence is shaken and all criminal justice
 professionals and agencies suffer diminished effectiveness through diminished
 public respect, cooperation, and confidence.
6.0.8 Investigation of Misconduct
 The commission should evaluate, and may inquire into, all allegations reported
 to them of officers violating commission standards. The commission should

                                     C-27
 cooperate with employing agencies in this regard. If the information obtained
 by inquiry indicates that an officer is in violation of commission standards
 which could result in the imposition of sanctions, the matter should be
 presented to the commission or executive director for determination. If the
 investigation results in a conclusion that no cause for action exists, the
 employing agency and officer should be so notified. If cause is found, the
 commission should issue a formal administrative complaint, specifying the
 charges upon which the sanctions may be imposed.
6.0.9 Grounds for Action
 A set of uniform professional standards applicable to all officers certified or
 licensed by the commission should be established and published. The
 commission should have the authority to sanction misconduct including any
 act or conduct which raises substantial doubts about the officer's honesty,
 fairness, or respect for the rights of others, regardless of whether the
 misconduct constitutes or is prosecuted as a crime, including but not limited to
 a plea of guilty, nolo contendere or a finding of guilt as to one or more of a
 specified series of misdemeanor charges, regardless of withheld adjudication
 or suspended sentence; a plea of guilty, nolo contendere or a finding of guilt
 as to a felony or similar offense, regardless of withheld adjudication or
 suspended sentence; unlawful sale, possession or use of a controlled
 dangerous substance, or failure to meet mandatory commission standards.
 State law should permit the commission to consider the existence of an
 annulled record in making certification and decertification decisions.
6.1.0 Possible Sanctions
 Depending on the type of violation, the facts and circumstances of the case,
 and the prior record of the officer, the commission should impose the most
 appropriate administrative sanction, to include suspension or revocation of the
 license or certificate, probation, which may include remedial retraining, or
 formal reprimand or censure.
6.1.1 Sanction Procedure
 In accordance with the state administrative procedure act or other applicable
 law, the officer should be given notice of the proposed administrative sanction
 and be provided an opportunity to be heard in the administrative hearing upon
 request, and to be represented by counsel at his or her own expense. If the
 hearing results in a finding that the standard of professional conduct was not
 violated or a conclusion that the conduct in question does not warrant
 administrative sanction, the case should be dismissed. In the event a violation
 of professional standards is found, the commission should impose sanctions
 as appropriate.
6.1.2 National Repository



                                      C-28
 It is recommended that, upon the establishment of a national repository of
 information regarding decertified officers, each state commission contribute
 toward this repository.
                                  Commentary
 Each state's society is highly mobile. The number of law enforcement and
 corrections officers certified or licensed who have been sanctioned by state
 commissions, continues to expand. There are many accounts of officers with
 histories of violating professional standards attempting to or becoming
 employed in the criminal justice professions in states outside the jurisdictions
 where the violations occurred. To protect criminal justice agencies from
 employing a person who has been decertified in another state, each state
 should have the authority to release information on decertified officers upon an
 official request, and within authorized release guidelines.
6.1.3 Dissemination
 Each state should have an authorized state agency that can establish policy
 and procedures for the dissemination of information to a national repository
 regarding officers whose commission certificate or license has been
 suspended, revoked or decertified for punitive reasons. Information to be
 released should include the name, date of birth and social security number of
 the officer, the name and address of the commission, and the name and
 telephone number of a contact person at the state commission who can
 answer inquiries into the nature of the sustained grounds for decertification.
6.1.4 Recertification
 Each commission should adopt a process whereby law enforcement and
 corrections officers whose commission certificates or licenses have lapsed or
 been suspended, revoked or decertified, may apply to have them restored,
 reinstated or re-issued. Officers should first be required to demonstrate
 compliance with minimum state certification or licensing standards before
 recertification will be considered. Application to the commission as provided in
 the initial certification or licensing process should be made. Any denial of
 certification should be in writing, listing the reasons therefor, and describing
 any appeals process.

Send comments and corrections to Ray Franklin, POST-Net Operations Manager,
rfranklin@iadlest.org.




                                       C-29
Appendix D. Random Sample
                                                   Total Assigned*       Random Sample
                             Installation          Police    Security    Police  Security
                                                  Officers    Guards    Officers Guards
Eglin Air Force Base, FL                             39         0        15         0
Minneapolis/St Paul IAP Air Reserve Station, MN      18         3         7         3
Nellis Air Force Base, NV                            2          2         2         2
Anniston Army Depot, AL                              0          86        0         20
Tripler Army Medical Center, HI                      12         1        10         0
Army Research Laboratory, MD                         4          12        3         7
Detroit Arsenal, MI                                  13         10        6         4
Lima Army Tank Plant, OH                             3          0         3         0
Fort Leonard Wood, MO                                4          0         4         0
Watervliet Arsenal, NY                               0          17        0         10
Sunny Point Military Ocean Terminal, NC              0          33        0         15
Dugway Proving Ground, UT                            12         58        2         18
Fort A.P. Hill, VA                                   23         0        10         0
Red River Army Depot, TX                             0          47        0         15
Fort McCoy, WI                                       31         0        15         0
Defense Distribution Center – San Joaquin, CA        41         0        15         0
National Imagery & Mapping Agency, MD                0          28        0         10
Headquarters, Defense Logistics Agency, VA           17         17        8         7
Naval District of Washington, DC                    116         5        24         1
Naval Air Station Whiting Field, FL                  25         0        10         0
Naval Air Warfare Center TSD Orlando, FL             13         0        10         0
Naval Security Group Activity Winter Harbor, ME      0          10        0         10
Naval Station Newport, RI                            24         0        10         0
Naval Weapons Station Charleston, SC                 56         0        20         0
Naval Air Station Corpus Christi, TX                 7          0         7         0
Little Creek Naval Amphibious Base, VA               48         0        15         0
        Total                                       508        329       196       122
*   As of October 31, 2001




                                            D-1
Appendix E. Employee Survey Questionnaire




                     E-1
E-2
E-3
E-4
E-5
Appendix F. Command and Staff Questionnaire




                     F-1
F-2
F-3
F-4
F-5
F-6
F-7
F-8
Appendix G. Employee Survey Results

                                                 Employee Survey—Summary Results
              Total               Armed                  Yrs.                   Police Academy                          PT Required                Training Hrs.
            Personnel                                 Experience
                             Duty       Off Duty      Job Prior Tot Graduated          Yrs. Verified for     Yes                Ann Oth Tot    CY 2001    CY 2002**
                                                                                       Pre      Job
            No.*    %      No.   %     No.     %                        No.     %      Job No.      %    No.    %                             Bas Oth Tot Bas Oth Tot
                                                                              Police Officer
Army         53    28.5%   51 96.2%        2   3.8%      8     6 14      31   58.5%       9 20         64.5%       15   28.3%    13   2 15 26 51 77         0 8 8
Navy         87    46.8%   86 98.9%        7   8.0%      7     7 14      36   41.4%       9 16         44.4%        3    3.4%     0   3  3 36 26 62         2 13 15
Air Force    24    12.9%   24 100.0%       0   0.0%      7     5 12       6   25.0%       9  1         16.7%        0    0.0%     0   0  0 24 18 42         8 15 23
DoD          22    11.8%   22 100.0%       0   0.0%      7     2 9        6   27.3%      12  3         50.0%        0    0.0%     0   0  0 17 7 24          4 5 9
  Total     186 100.0% 183 98.4%           9 4.8%        7     6 13      79    42.5%        9   40     50.6%       18   9.7%     13   5 18 29 30 59         2 11 13
                                                                              Security Guard
Army         88 73.3% 88 100.0%            1   1.1%     12     5 17      16    18.2%     15       3 18.8%          25   28.4%    18   7 25 18 37 55         9 14 23
Navy         11 9.2% 11 100.0%             0   0.0%      8     0 8        4    36.4%      5       3 75.0%           0    0.0%     0   0  0 12 11 23         1 3 4
Air Force     5 4.2% 5 100.0%              0   0.0%     14     0 14       1    20.0%      8       1 100.0%          0    0.0%     0   0  0 0 39 39          0 8 8
DoD          16 13.3% 16 100.0%            0   0.0%      8     5 13       2    12.5%      7       0   0.0%          0    0.0%     0   0  0 5 3 8            1 2 3
  Total     120 100.0% 120 100.0%          1 0.8%       11     4 16      23    19.2%       13     7    30.4%       25   20.8%    18   7 25 15 30 45         7 11 18
                                                                                   Total
Army     141 46.1% 139 98.6%               3   2.1%     10     6   16    47    33.3%     11     23     48.9%       40   28.4%    31   9 40 21 42 63         6 12 18
Navy      98 32.0% 97 99.0%                7   7.1%      7     7   14    40    40.8%      9     19     47.5%        3    3.1%     0   3  3 33 24 57         2 12 14
Air Force 29 9.5% 29 100.0%                0   0.0%      8     4   12     7    24.1%      9      2     28.6%        0    0.0%     0   0  0 20 22 42         7 14 21
DoD       38 12.4% 38 100.0%               0   0.0%      7     3   10     8    21.1%     11      3     37.5%        0    0.0%     0   0  0 12 5 17          3 4 7
  Total     306 100.0% 303 99.0%         10 3.3%         9     6 15 102        33.3%       10   47     46.1%       43   14.1%    31   12 43 24 30 54        4 11 15
** Through the date on which employees completed the survey, which varied from February 14 through mid-May 2002.




                                                                                     G-1
                                        Employee Survey—Summary Results
               Total      Do NOT Have Training Program                    NOT Trained After Hire/Before Start            Aware of   Doesn't
             Personnel        Basic      Career       Recurring     Weapon        Use of        Limits    Liability       Others    Believe
                                                                     Qual.        Force        on J&A                   Who Work Adequately
                                                                                                                          After     Trained
            No.    %     No      %      No    %       No   %       No     %      No   %       No   %     No     %          Not     To Do Job
                                                                                                                        Completing
                                                                                                                         Training
                                                               Police Officer
Army         53    28.5% 14     26.4%    34   64.2% 12     22.6% 5       9.4%     9   17.0%    7   13.2% 11     20.8% 16     30.2%   29   54.7%
Navy         87    46.8% 3       3.4%    59   67.8% 14     16.1% 3       3.4%     6    6.9%    6    6.9% 10     11.5% 16     18.4%   42   48.3%
Air Force    24    12.9% 9      37.5%    22   91.7% 14     58.3% 1       4.2%     5   20.8%    6   25.0%  7     29.2% 9      37.5%   19   79.2%
DoD          22    11.8% 8      36.4%    15   68.2%  8     36.4% 3 13.6%          7   31.8%    4   18.2%  8     36.4% 6      27.3%   14   63.6%
 Total      186   100.0% 34     18.3% 130     69.9% 48     25.8% 12       6.5% 27     14.5% 23     12.4% 36     19.4% 47     25.3% 104    55.9%
                                                              Security Guard
Army         88    73.3% 12     13.6%    50   56.8% 11     12.5% 5      5.7%      1    1.1%    2    2.3% 10     11.4%    9   10.2%   24   27.3%
Navy         11     9.2% 0       0.0%    10   90.9%  1      9.1% 0      0.0%      0    0.0%    0    0.0%  2     18.2%    1    9.1%    2   18.2%
Air Force     5     4.2% 0       0.0%     4   80.0%  0      0.0% 0      0.0%      0    0.0%    0    0.0%  0      0.0%    0    0.0%    2   40.0%
DoD          16    13.3% 3      18.8%     6   37.5%  3     18.8% 2 12.5%          7   43.8%    7   43.8%  6     37.5%    0    0.0%    6   37.5%
 Total      120   100.0% 15     12.5%    70   58.3% 15     40.3%    7     5.8%    8   6.7%     9   7.5% 18      15.0% 10     8.3%    34   28.3%
                                                                   Total
Army        141    46.1% 26     18.4%    84   59.6%   23   16.3%   10    7.1% 10       7.1% 9       6.4% 21     14.9% 25     17.7%   53   37.6%
Navy         98    32.0% 3       3.1%    69   70.4%   15   15.3%    3    3.1%  6       6.1% 6       6.1% 12     12.2% 17     17.3%   44   44.9%
Air Force    29     9.5% 9      31.0%    26   89.7%   14   48.3%    1    3.4%  5      17.2% 6      20.7%  7     24.1% 9      31.0%   21   72.4%
DoD          38    12.4% 11     28.9%    21   55.3%   11   28.9%    5 13.2% 14        36.8% 11     28.9% 14     36.8% 6      15.8%   20   52.6%
 Total      306   100.0% 49     16.0% 200     65.4% 63     20.6% 19       6.2% 35     11.4% 32     10.5% 54     17.6% 57     30.6% 138    45.1%




                                                                    G-2
                                              Employee Survey—Summary Results
               Total
             Personnel                            Have NOT Received Training In These Areas In The Current Job
                            Ethics           Weapon          Use of Force        Role In      Self     Driving                        Controlling    Making
                                                                                 Emerg. Protection Emerg.                              Traffic       Traffic
                                        Auth. To  Safety Authority    Demos                            Vehicle                                        Stops
                                        Carry/Use                        For
            No.   %       No.    %      No.    %      No.   %      No.     %      No.   %     No.   %     No.    %      No.    %      No.    %      No.    %
                                                                          Police Officer
Army         53   28.5%    10   18.9%     6 11.3%       3   5.7%     3     5.7%     9 17.0%    14 26.4%     9 17.0%      17   32.1%    17   17.0%    11   20.8%
Navy         87   46.8%    10   11.5%     1 1.1%        0   0.0%     0     0.0%     1 1.1%      7 8.0%      8 9.2%        9   10.3%    18   20.7%    11   12.6%
Air Force    24   12.9%    10   41.7%     3 12.5%       2   8.3%     4    16.7% 11 45.8%       13 54.2%     9 37.5%      16   66.7%    16   16.0%    15   62.5%
DoD          22   11.8%     7   31.8%     2 9.1%        1   4.5%     3    13.6% 12 54.5%        8 36.4%     7 31.8%      11   50.0%    11   50.0%    13   59.1%
 Total      186 100.0%     37 19.9%      12    6.5%     6 3.2%      10     5.4%    33 17.7%    42 22.6%    33 17.7%      53 28.5%      62 33.3%      50 26.9%
                                                                      Security Guard
Army         88   73.3%     5 5.7%        3 3.4%        2   2.3%     1 1.1%     7 8.0%          9 10.2%    12 13.6%      20 22.7%      17 19.3%      18 20.5%
Navy         11    9.2%     1 9.1%        2 18.2%       0   0.0%     1 9.1%     1 9.1%          2 18.2%     2 18.2%       1 9.1%        3 27.3%       1 9.1%
Air Force     5    4.2%     0 0.0%        0 0.0%        0   0.0%     0 0.0%     0 0.0%          0 0.0%      0 0.0%        2 40.0%       0 0.0%        0 0.0%
DoD          16   13.3%     6 37.5%       4 25.0%       1   6.3%     4 25.0%    8 50.0%         4 25.0%     3 18.8%      11 68.8%       9 56.3%      10 62.5%
 Total      120 100.0%     12 10.0%       9    7.5%     3 2.5%       6     5.0%    16 13.3%    15 12.5%    17 14.2%      34 28.3%      29 24.2%      29 24.2%
                                                                              Total
Army        141   46.1%    15   10.6%     9 6.4%        5   3.5%     4     2.8% 16 11.3%       23 16.3%    21   14.9%    37   26.2%    34   24.1%    29   20.6%
Navy         98   32.0%    11   11.2%     3 3.1%        0   0.0%     1     1.0%     2 2.0%      9 9.2%     10   10.2%    10   10.2%    21   21.4%    12   12.2%
Air Force    29    9.5%    10   34.5%     3 10.3%       2   6.9%     4    13.8% 11 37.9%       13 44.8%     9   31.0%    18   62.1%    16   55.2%    15   51.7%
DoD          38   12.4%    13   34.2%     6 15.8%       2   5.3%     7    18.4% 20 52.6%       12 31.6%    10   26.3%    22   57.9%    20   52.6%    23   60.5%
 Total      306 100.0%     49 16.0%      21    6.9%     9 2.9%      16     5.2%    49 16.0%    57 18.6%    50 16.3%      87 28.4%      91 29.7%      79 25.8%




                                                                                  G-3
Appendix H. Command and Staff Survey

                                          Summary Results
1      Policy
1.a    Do you have a policy directing a Yes:         21   84.00% No:        4    16.00%
       minimum standard of training for
       the civilian police officers and/or
       security guards employed here?
1.b    If not, what standard do you       Agency:    2    50.00% None:      2    50.00%
       use?
1.c    What is the basis for using the    Agency:    22   95.65% OPM Std:   1     4.35%
       standard in either 1.a. or 1.b.?
2      Response to Major Threats and Emergencies Operations
2.a    Do you have a formulated           Yes:       25 100.00% No:         0     0.00%
       installation plan to respond to
       major threats and emergency
       situations?
2.b    Does your plan adhere to a         Yes:       22   88.00% No:        3    12.00%
       standard, such as DoDI
       2000.16?
2.b1   If yes, what is the standard?      Fed:       1      4.55% Agency:   16   72.73% Base:    5 22.73%
2.c    Do you have a working group        Yes:       22   88.00% No:        3    12.00%
       for this purpose?
2.d    Does your working group
       encompass these entities?
2.d1   Command Representative             Yes:       22 100.00% No:         0     0.00%
2.d2   Engineers/Public Works             Yes:       21   95.45% No:        1     4.55%
2.d3   Environmental Protection           Yes:       22 100.00% No:         0     0.00%
2.d4   Public Affairs                     Yes:       20   90.91% No:        2     9.09%
2.d5   Communication                      Yes:       21   95.45% No:        1     4.55%
2.d6   Legal                              Yes:       21   95.45% No:        1     4.55%
2.d7   Security and/or Police             Yes:       22 100.00% No:         0     0.00%
2.d8   Medical                            Yes:       20   90.91% No:        2     9.09%
2.d9   Fire Protection                    Yes:       21   95.45% No:        1     4.55%
2.e    Frequency the plan is exercised? Ann:         17   77.27% Semi:      2     9.09% Oth:     3 13.64%
2.f    Are after-action reports           Yes:       19   86.36% No:        3    13.64%
       prepared?
2.g    Has the plan been implemented      Yes:       20   80.00% No:        5    20.00%
       over the past three years?
2.g1   On which occasion(s)?              Pre '00:   1      5.26% 2000:     2    10.53% 2001:   16 84.21%
2.h    Does the plan include specific     Yes:       18   72.00% No:        7    28.00%
       roles and responsibilities for
       civilian police officers and/or
       security guards?



                                                      H-1
2.i'   Do civilian police officers or       Yes:    20    80.00% No:     5    20.00%
       security guards participate in
       installation preparedness
       exercises?
2.i1   When was the last exercise           2000:    2    10.00% 2001:   12   60.00% 2002:   6 30.00%
       conducted?
3      Legal Issues
3.a    Are the physical boundaries of Yes:          25 100.00% No:       0     0.00%
       the installation clearly defined
       for police and security guard
       forces?
3.b    Is/are the type(s) of jurisdiction Yes:      24    96.00% No:     1     4.00%
       on your installation(s) clearly
       understood?
3.b1   Check the types found:               Exc:    18    72.00% Conc:   19   76.00% Prop:   9 36.00%
3.c    Does your office provide             Yes:    16    64.00% No:     9    36.00%
       recurring legal training to the
       police and/or security forces at
       your installation?
3.c1   Frequency                            Ann:    13    81.25% Semi:   1     6.25% Oth:    2 12.50%
3.c2   Last date training was provided? Pre '01:     1    12.50% 2001:   1    12.50% 2002:   6 75.00%
4      Human Resource Issues
4.a    To your knowledge, have your
       police officers or security guards
       filed legal actions, union
       grievances, or OPM appeals on
       any of these topics in the past
       three years?
4.a1   Disparity in pay between series      Yes:     1      5.00% No:    24   16.44%
       GS-0083 and GS-0085
4.a2   Physical fitness as a job element Yes:        0      0.00% No:    25   17.12%
4.a3   LEO coverage for “early”             Yes:     1      5.00% No:    24   16.44%
       retirement
4.a4   Opportunities for training           Yes:     2    10.00% No:     23   15.75%
4.a5   Position classifications             Yes:     4    20.00% No:     21   14.38%
4.a6   Other                                Yes:     2    10.00% No:     23   15.75%
4.b    If so, have they been resolved?      Yes:     6    60.00% No:     4    40.00%
4.c    If so, did the resolution(s) result Yes:      4    66.67% No:     2    33.33%
       in changes in policy, procedure,
       or standards?
5      Police Operations
5.1    Personnel Assigned
5.1a   GS-0083                              Tot:    470   18.40% Avg:    19
5.1b   GS-0085                              Tot:    371   14.52% Avg:    15
5.1c   Military LE/Security                 Tot:    651   25.48% Avg:    26



                                                      H-2
5.1d   Auxiliaries                       Tot:       546   21.37% Avg:        22
5.1e   Reserves/IMA                      Tot:       517   20.23% Avg:        21
5.2    Complaints
5.2a  Have internal or external        Yes:          5    20.00% No:         20   80.00%
      complaints of improper conduct
      by your military law enforcement
      or security personnel been
      received over the past three
      years?
5.2a1 Were any attributed to a lack of Yes:          0      0.00% No:        5 100.00%
      training?
5.2a2 Were any attributed to             Yes:        1    20.00% No:         4    80.00%
      inadequate training?
5.2b   Have internal or external      Yes:           5    20.00% No:         20   80.00%
       complaints of improper conduct
       by civilian police or security
       guards been received over the
       past three years?
5.2b1 Were any attributed to a lack of Yes:          0      0.00% No:        5 100.00%
      training?
5.2b2 Were any attributed to             Yes:        2    40.00% No:         3    60.00%
      inadequate training?
5.3    Liability and Actions
5.3a   Have civilian police officers or Yes:         1      4.00% No:        24   96.00%
       security guards discharged their
       firearms in response to an
       incident in the past three years?
5.4    Operations & Resources
5.4a   If you have security guards only, Mission:    5    83.33% Mis/Econ:   1    16.67%
       why do you have them vice
       police officers?
5.4b   If you have police officers only, Mission:    8    66.67% Mis/Econ:   4    33.33%
       why do you have them vice
       security guards?
5.4c   If you have both police officers Mission:     5    71.43% Mis/Econ:   1    14.29% Policy:   1 14.29%
       and security guards, why?
5.4d   Did military members perform      Yes:       11    44.00% No:         14   56.00%
       the duties previously?
5.4d1 When did the change occur?         Pre '90:    3    27.27% 1990s:      7    63.64% 2000s:    1 9.09%
5.4d2 Why did the change occur?          Draw-       3    27.27% Mission:    7    63.64% Sec.      1 9.09%
                                         down                                            Incid:
5.4e   Do police officers and security   Yes:        5    71.43% No:         2    28.57%
       guards have like missions?




                                                      H-3
5.4f   Are your civilian police          Yes:        9    36.00% No:         16   64.00%
       officers/security guards trained
       to perform essential law
       enforcement and security
       functions if military members are
       deployed?
5.4g   Is the amount of training        Yes:         5    35.71% No:         3    21.43% No        5 35.71%
       proportional between civilian                                                     Ans:
       police officers/security guards
       and the military law enforcement
       personnel?
5.4g1 If no, why not?                     Funding:   1      7.14% No Ans:    13   92.86%
5.4h   Is the amount of training you       Yes:      3    12.00% No:         1     4.00% No        4
       provide for initial, refresher, and                                               Ans:
       career progression proportional
       between your civilian police
       officers and security guards?
5.4h1 If no, why not?                     Job Req:   2    25.00% No Ans:     6    75.00%
5.5    Training Oversight
5.5a   Do you have a written policy       Yes:       21   84.00% No:         4    16.00%
       directing training for civilian
       police officers and/or security
       guards at your installation?
5.5b   Have you adopted a standard        Yes:       21   84.00% No:         4    16.00%
       training program for civilian
       police officers and security
       guards?
5.5b1 What is the training program?       Agency:    14   66.67% In-House:   7    33.33%
5.5b2 What is the basis for the training Agency      20   95.24% No Ans:     1     4.76%
      standard?                          Reg:
5.5c   Are internal safeguards and       Yes:        20   80.00% No:         5    20.00%
       management controls in place to
       ensure all components of training
       are provided to your police
       officers and security guards?
5.5c1 If yes, what are they?              HQ Rev:    4    20.00% Loc Rev:    7    35.00% Montor 9 45.00%
5.5d   Is your training validated from    Yes:       14   56.00% No:         11   44.00%
       outside your organization?
5.5d1 If yes, by whom? (i.e. legal        HQ Trn:    4    20.00% Ins. Team: 7     35.00% Office:   9 45.00%
      office, installation training
      office, a higher headquarters)




                                                      H-4
6      Credential Validation
6.a    When hiring police officers or Yes:           23   92.00% No:      2     8.00%
       security guards, do you require
       them to take entry-level training
       made available by you regardless
       of previous training (i.e. Army
       MP, Air Force SP, Navy MA,
       or civilian police)?
6.a1   If not, is their previous training Yes:       1    50.00% No:      1    50.00%
       evaluated to ensure it is
       commensurate with the duties
       they will perform?
6.b    When presented with a certificate Yes:        12   48.00% No:      13   52.00%
       of training from a previous
       training academy, does your staff
       validate it?
6.c    Have you found any prospective Yes:           1      4.00% No:     24   96.00%
       employee possessing fraudulent
       training certificates or other
       professional credentials?
6.d    Have you ever released a new     Yes:         2      8.00% No:     23   92.00%
       employee or declined to select a
       prospective employee based on
       fraudulent credentials?

7      TRAINING OFFICER
7.1    Training continuum
7.1a   Do you have in-house trainers?       Yes:     24   96.00% No:      1     4.00%
7.1b   Are your trainers certified?         Yes:     23   95.83% No:      1     4.17%
7.1b1 By whom?                              ASLET:   4    17.39% State:   10   43.48% Oth:     8 34.78%
7.1c   What publications or references Mil:          21   87.50% Fed:     15   62.50% St./Loc 12 52.17%
       do you use in preparing your                                                   AdHoc 5 21.74%
       training?                                                                         (1)


7.1d   Do you send you civilian police Yes:          12   48.00% No:      13   52.00%
       officers and/or security guards to
       the military law enforcement
       training schools?
7.1e   What recurring training is
       provided for civilian police
       officers or security guards and at
       what frequency?
7.1e1 Weapons proficiency?                  Yes:     24   96.00% No:      1     4.00%
7.1e1a Frequency                            Ann:     18   75.00% Semi:    5    20.83% Oth:     1 4.17%
7.1e2 Physical fitness proficiency?         Yes:     8    32.00% No:      17   68.00%
7.1e2a Frequency                            Ann:     8 100.00% Semi:      0     0.00%
7.1e3 Theory of Use of Force?               Yes:     22   88.00% No:      3    12.00%


                                                      H-5
7.1e3a Performance of less than deadly Yes:          18   72.00% No:         7    28.00%
       force techniques?
7.1e3b Frequency                           Ann:      9    50.00% Semi:       2    11.11% Oth:    7 38.89%
7.1e4 Law and legal issues?                Yes:      18   72.00% No:         7    28.00%
7.1e4a Frequency                           Ann:      14   77.78% Semi:       1     5.56% Oth:    2 11.11%
7.1e5 Defensive tactics?                   Yes:      15   60.00% No:         10   40.00%
7.1e5a Frequency                           Ann:      12   80.00% Semi:       0     0.00% Qtr:    1 6.67%
7.1f    Who provides the majority of the
        training at these levels?
7.1f1   Basic entry-level?                 Academy   3    13.04% In House: 20     86.96%
7.1f2   Career development?                Academy   6    40.00% In House:   9    60.00%
7.1f3   Recurring training?                Academy   5    22.73% In House: 17     77.27%
7.1g    Do you provide organization-       Yes:      16   64.00% No:         9    36.00%
        specific training for civilian
        police officers or security guards
        trained outside your
        organization?
7.1h    Do you have a list of tasks that Yes:        22   88.00% No:         3    12.00%
        your police officers and security
        guards are supposed to be trained
        on?
7.1h1 Is there a corresponding standard Yes:         15   68.18% No:         7    31.82%
      that describes what level the task
      is to be trained to?
7.1h2 Do you differentiate between         Yes:      16   72.73% No:         6    27.27%
      knowledge based and
      performance based standards?
7.1h3 When evaluating proficiency, do Yes:           11   50.00% No:         11   50.00%
      you use established checklists for
      the performance items?
7.1h4 When evaluating proficiency, do Yes:           15   68.18% No:         7    31.82% NA:
      you use established tests for
      knowledge-based items?
7.1h5 If yes, who establishes the          Agency:   4    26.67% Instal:     10   66.67% Out-    1 6.67%
      standard (i.e. training officer,                                                   Side:
      chief of police/commander,
      headquarters, Outside source)?
7.1h6 Is there an established training Yes:          16   64.00% No:         9    36.00%
      plan in your organization that
      shows what tasks each police
      officer or security guard will be
      trained on over a year period?
7.1i  Have you tracked the training     Yes:         19   76.00% No:         6    24.00%
      provided to police officers and
      /or security guards during the
      last three calendar years?
7.1i1   Is it in an automated format?      Yes:      6    24.00% No:         19   76.00%



                                                      H-6
7.1i1a If no, is it kept in a personal     Yes:           15   78.95% No:         4    21.05%
       training folder?
7.2       Train for Threats and Emergency Operations

7.2a      Are civilian police officers and Yes:           20   80.00% No:         5    20.00%
          security guards trained as first
          responders for major threat and
          emergency situations for your
          installation?
7.2a1 What publications or references Agency              14   77.78% Local       2    11.11% St./Loc 2 11.11%
      do you follow?                  Policy:                         Policy:                 Policy:
7.2b      Do you train to respond to a     Threat         3    12.00% Gen.        3    12.00% Both:   16 64.00%
          threat scenario, general         Scenario:                  Response:
          response, or both?
7.2c      Do you conduct specialized or Yes:              13   65.00% No:         7    35.00%
          additional training for your
          police officers and/or security
          guards in advance of exercises?
7.2d      Do you train jointly with others? Yes:          18   72.00% No:         7    28.00%
7.2d1 Fire Dept; Medical; Ord. Disp; Fire                 17   68.00% Med:        12   48.00% OrdDis 11 44.00%
      Other                          Dept:                                                    Oth    2 8.00%
7.2d2 Federal LE; State LE; Local LE; Fed LE:             10   40.00% St. LE      11   44.00% Loc:    11 44.00%
      Other                                                                                   Oth     3 12.00%
7.2e      Is the training for emergency    Yes:           14   56.00% No:         11   44.00%
          response documented?
7.2f      Have these exercises identified Yes:            14   70.00% No:         6    30.00%
          skill shortfalls for civilian police
          officers or security guards?
7.2f1     Is specific training given to    Yes:           11   78.57% No:         3    21.43%
          resolve identified shortfalls?

       (1) One installation reported using Ad Hoc only.




                                                           H-7
Appendix I. DoD Profile

        The survey results reflect the following overall profile for DoD civilian police
officers and security guards.

Command and Staff Survey
           • The average installation employed 23 civilian police officers and
15 security guards (38 total) at the time they completed our survey questionnaire
(February through March 2002), representing a 192 percent increase since October 1,
2001, the date used for our sample.

           •   The police officer/security guard composition reported was:
               •   11 installations (44 percent) employed police officers only;
               •   6 installations (24 percent) employed security guards only;
               • 8 installations (32 percent) employed both police officers and security
guards--5 of the installations (62.5 percent) reported having like mission for police
officers and security guards.

           • All the installations reported using civilian police officers and security
guards (whether police officers only, security guards only, or both) for either mission
reasons or combined mission and economic reasons.

            • 11 installations (44 percent) reported that military personnel previously
performed the duties that civilian police officers and security guards now perform, with
the changeovers occurring before 1990 (27.27 percent), during the 1990s (63.64 percent),
or during the 2000s (9.09 percent). The changeovers occurred primarily from military
downsizing (27.27 percent), or mission changes (63.64 percent) (which appear related to
military downsizing).

            • 21 installations (84 percent) had local policy establishing minimum
training for civilian police officers and security guards.

            • 16 installations (64 percent) had recurring legal training for civilian police
officers and security guards, either annually (81.25 percent), semi-annually
(6.25 percent), or based on an identified need (12.5 percent).

            • Police officers and security guards at the installations filed 10 grievances
(legal action, union grievance, or OPM appeal) in the last 3 years, including 2 grievances
involving training issues. Six grievances (60 percent) had been resolved. Four
resolutions (66.67 percent) resulted in revised policy, procedure, or standard.




                                             I-1
           • 5 installations (20 percent) had received internal or external complaints
against military law enforcement or security personnel during the last 3 years. One
complaint (20 percent) was attributed to inadequate training.

            • 5 installations (20 percent) received internal or external complaints against
civilian police officers or security guards during the last 3 years. Two complaints
(40 percent) were attributed to inadequate training.

            • Only one police officer at one installation (4 percent) discharged a firearm
during the last 3 years. The discharge was ruled to have been “appropriate.”

           • 9 installations (36 percent) reported that they train civilian police officers
and security guards to perform essential law enforcement functions during a military
deployment.

           • 5 installations (35.71 percent) reported proportionate training between
civilian and military law enforcement personnel.

           • 3 of 8 installations (37.5 percent) with both police officers and security
guards reported proportionate training between the two.

            • 21 installations (84 percent) reported having policy directing training for
civilian police officers and/or security guards.

            • 21 installations (84 percent) reported having standard training programs
for civilian police officers and security guards.
            • 20 installations (80 percent) reported having internal safeguards and
management controls to ensure the training.
              • 14 installations (56 percent) reported having “outside” training
program validation.

            • 23 installations (92 percent) reported requiring their own entry-level
training for civilian police officers and security guards, regardless of previous training.

            • 1 installation (50 percent) not requiring the installation’s entry-level
training reported validating previous training.

           • 3 installations (12 percent) reported finding prospective employees with
fraudulent credentials, or declining to hire or releasing a new employee based on
fraudulent credentials.

           •   24 installations (96 percent) reported having in-house trainers.
               •   23 installations (95.83 percent) reported having “certified” trainers.

           • 12 installations (48 percent) reported sending civilian police officers
and/or security guards to military law enforcement training schools.

                                             I-2
                • 1 installation (an Air Force Reserve Command station) uses the Air
Force training requirements for military personnel (with some modification), requiring
the civilian police officers and security guards to attend Air Force Security Forces
training at Lackland Air Force Base, Texas.

           •   Installations reported recurring training in the following areas:
               •   Weapons Proficiency—24 installations (96 percent)
               •   Physical Fitness Proficiency—8 installations (32 percent)
               •   Use of Force Theory—22 installations (88 percent)
               •   Less than Deadly Force Techniques—18 installations (72 percent)
               •   Law and Legal Issues—18 installations (72 percent)
               •   Defensive Tactics—15 installations (60 percent)

           •   Installations reported in-house training as follows:
               •   Basic training--20 installations (80 percent).
               •   Career Development training—9 installations (60 percent)
               •   Recurring training—17 installations (77.27 percent)

            • 22 installations (88 percent) reported having a “list of tasks” on which
police officers and security guards are supposed to be trained.
              • 15 installations (68.18 percent) reported having a corresponding
performance standard for the training.
             • 16 installations (72.73 percent) reporting distinguishing between
knowledge-based and performance-based training standards.
                • 11 installations (50 percent) reported using “checklists” in measuring
proficiency in task performance.
             • 15 installations (68.18 percent) reported using “established tests” in
measuring knowledge-based proficiency.

          • 16 installations (64 percent reported having established training plans
showing the tasks on which police officers and/or security guards will be trained during
the year.

            • 19 installations (76 percent) reported tracking their training for civilian
police officers and/or security guards over the last 3 calendar years.
               •   6 installations (24 percent) reported having automated systems.
                • 15 installations (78.95 percent) reported keeping information in
personal training folders



                                             I-3
           • 20 installations (80 percent) reporting training police officers and/or
security guards as first responders in major threats and emergencies.
                • 13 installations (65 percent) reported conducting specialized or
additional training for police officers and/or security guards before training exercises.
                • 14 installations (70 percent) reported identifying skill shortfalls for
civilian police officers or security guards during training exercises, with 11 installations
(78.57 percent) reporting specific training to resolve the skill shortfalls identified.

Employee Survey
                      •       33.3 percent (42.4 percent of police officers and 19.7 percent of
                              security guards) graduated from a police academy prior to their
                              current jobs;

                          •     18.0 percent from a civilian police academy;1
                          •    3.9 percent from a Federal training program (either FLETC or the
                               Veterans Administration training program);

                          •     9.2 percent from a military training school;

                          •     2.0 percent from an educational institution (generally a community
                               college) training program; and

                          •     0.3 percent from other sources, such as a hospital consortium
                               training program;

                      •       on average, police officers and security guards have been in their
                              current positions 9 years and graduations from a police academy
                              were 10 years before the current position (19 years ago total);

                          •     police officers have been in their current positions 7 years with
                               police academy graduations 9 years earlier (16 years ago total);

                          •     security guards have been in their current positions 11 years with
                               police academy graduations 13 years earlier (24 years ago total);

                      •       on average, DoD police officers and security guards have law
                              enforcement experience totaling 15 years (9 years in current positions
                              and 6 years as a police officer or security guard (military and/or
                              civilian) prior to the current positions);

                          •     police officers have 13 years experience (7 current job and
                               6 previous);

                          •     security guards have 16 years experience (11 current job and
                               5 previous);
1
    As noted previously, Federal jurisdiction, authority and other areas involve substantially more complexity than a State or local
    law enforcement officer would encounter. As a result, civilian police academy training might not fully prepare a Federal police
    officer or security guard for Federal law enforcement duties. However, it is clearly preferable to have police officers and security
    guards with civilian police academy training that to rely on OJT, supplemented with formal training only as time and funds allow.



                                                                  I-4
                      •       in calendar year 2001, the average police officer and security guard
                              had training totaling 54 hours, including basic training, firearms
                              qualification time, and “guardmount” training;2

                          •     59 hours for police officers; and

                          •     45 hours for security guards;

                          •     excluding basic training time, which generally would apply only to
                               new hires (except for firearms qualification time), the average
                               training time for both recurring refresher training and career
                               development training was 30 hours (the same for both police
                               officers and security guards.)

                      •       14.1 percent (9.7 percent of police officers and 20.8 percent of
                              security guards) are subject to continuing physical fitness (PT)
                              testing;

                          •     most (72.1 percent) are tested annually;

                          •     the remainder are tested semiannually;

                          •     the Army is the only DoD component with a recurring medical
                               screening and physical agility testing requirement—under labor
                               union agreement, the requirement does not generally apply to
                               officers hired prior to 1987;

                      •       85.9 percent (92.8 percent of police officers and 78.7 percent of
                              security guards) are not subject to recurring PT tests, either medical
                              screening or physical agility testing;

                      •       although all installations reported having training programs--

                          •     16 percent of the employees (18.3 percent of police officers and
                               12.5 percent of security guards) reported that their installations did
                               not have basic training programs;

                          •     20.6 percent of the employees (25.8 of police officers and
                               40.3 percent of security guards) reported that their installations did
                               not have recurring refresher training programs;

                          •     65.4 percent of the employees (69.9 percent of police officers and
                               58.3 percent of security guards) reported that their installations did
                               not have career development training programs;

                      •       employees reported that after they were hired, they were assigned to
                              law enforcement duties without training on--

                          •     weapons (weapons qualification)—6.2 percent (6.5 percent of
                               police officers and 5.8 percent of security guards);
2
    “Guardmount training” is a military term generally used to denote time that supervisors use in instructing subordinates,
    individually or as a group, after they report for work and before they begin duty assignments. The instruction may be oral or
    material handouts for subsequent reading.



                                                                 I-5
    •     use of force—11.4 percent (14.5 percent of police officers and
         6.7 percent of security guards)

    •     limits on jurisdiction and authority—10.5 percent (12.4 percent of
         police officers and 7.5 percent of security guards);

    •     potential liabilities—17.6 percent (19.4 percent of police officers
         and 15.0 percent of security guards);

•       since assuming their current positions, employees reported they have
        not been trained on—

    •     their authority to carry and use a weapon—6.9 percent (6.5 percent
         of police officers and 7.5 percent of security guards);

    •     weapon safety—2.9 percent (3.2 percent of police officers and
         2.5 percent of security guards);

    •     their authority to use force—5.2 percent (5.4 percent of police
         officers and 5.0 percent of security guards);

    •     use of force (that used demonstrations)—16.0 percent (17.7 percent
         of police officers and 13.3 percent of security guards);

    •     their roles during an emergency—18.6 percent (22.6 percent of
         police officers and 12.5 percent of security guards);

    •     self protection methods and techniques—16.3 percent (17.7 percent
         of police officers and 14.2 percent of security guards);

    •     driving emergency vehicles—28.4 percent (28.5 percent of police
         officers and 28.3 percent of security guards);

    •     controlling traffic—29.7 percent (33.3 percent of police officers
         and 24.2 percent of security guards);

    •     making traffic stops—25.8 percent (26.9 percent of police officers
         and 24.2 percent of security guards);

•       45.1 percent of the employees (55.9 percent of police officers and
        28.3 percent of security guards) reported they did not believe they
        had been adequately trained to do their jobs;

•       30.6 percent of the employees (25.3 percent of police officers and
        8.3 percent of security guards) reported they were aware of another
        employee who had been permitted to continue duties after not
        satisfactorily completing training; and

•       3.3 percent (4.8 percent of police officers and 0.8 percent of security
        guards) believed their positions gave them authority to carry a
        weapon when not on duty.




                                 I-6
Appendix J. Actual Police Training
            Results of Categorization Efforts

I.     Understanding Jurisdiction, Authority and Potential Liability
       A.     Jurisdiction
              1.     Exclusive Federal Jurisdiction
              2.     Concurrent Federal and State Jurisdiction
              3.     Partial Federal Jurisdiction
              4.     Proprietary Federal Jurisdiction
       B.     Authority
              1.    To Protect Personnel, Property and Equipment
              2.    To Maintain Law and Order
              3.    To Protect Officials and Representatives
              4.    Authority Under the Assimilative Crimes Act
              5.    Limitations Under Posse Commitatus
       C.     Liability
              1.     Operating Under the Color of Law
              2.     Incurring Government and/or Personal Liability
       D.     Sharing Responsibility with Other Law Enforcement Organizations
              1.    Recognizing Other Jurisdiction and Authority
              2.    Conducting joint operations
                    a.     Agency with primary jurisdiction
              3.    Referring Cases to Other Law Enforcement Organizations

II.    Understanding Individual Rights and Recognizing Criminal Conduct
       A.     Constitutional Rights and Privileges/Civil Rights
       B.     Criminal Law—UCMJ and U.S. Code
              1.    The Federal court system
              2.    The Uniform Code of Military Justice System
       C.     Civil Law
       D.     Vehicle and Traffic Law/Property Rules
       E.     Exclusions
              1.     Diplomatic Immunity
              2.     Juvenile Rights and Privileges

III.   Maintaining Skill, Integrity, Professionalism and Safety
       A.     Ethics and Standards of Conduct
       B.     Integrity and Professionalism/Interpersonal Communications
              1.     Recognizing cultural diversity and perspective


                                         J-1
            2.     Managing and resolving conflict
            3.     Managing aggressive behavior/anger
            4.     Dealing with sexual harassment
            5.     Obstacles to effective communication - Americans With
                   Disabilities Act
                   a.     Dealing with people with Alzheimer's Disease
                   b.     Dealing with hearing impaired people
                   c.     Dealing with people with mental illnesses
                   d.     Dealing with other impaired people
      C.    Qualifying With Weapons
            1.     Handguns
            2.     Shotguns
            3.     Other weapons
      D.    Operating Motor Vehicles
            1.    Routine driving
            2.    Pursuit driving
            3.    Defensive driving
      E.    Maintaining Health and Fitness
            1.    Physical Fitness
            2.    Stress Management
            3.    Dealing with Infectious Diseases
            4.    Dealing with Hazardous Materials
            5.    Dealing with HIV and AIDS
      F.    Handling Medical Emergencies / Administering First Aid
      G.    Using Computers and Other Equipment

IV.   Conducting Law Enforcement Operations
      A.    Maintaining Effective Station Operations and Community Relations
      B.    Safeguarding Physical Security
            1.    Controlling Entry/Exit
            2.    Responding to alarms and threats
      C.    Conducting Patrols/Enforcing Traffic Laws and Property Rules
            1.   Directing and controlling traffic
            2.   Investigating vehicle accidents
            3.   Performing Vehicle Stops
                 a. Approaching stopped vehicles
                 b. Conducting vehicle searches
                 c. Conducting field sobriety tests
            4.   Radio Communications
      D.    Responding to Incidents
            1.    Entering and Searching Buildings/Facilities
            2.    Dealing with Murder/Assault Incidents


                                       J-2
     3.     Dealing with Sex Offense Incidents
     4.     Dealing with Domestic/Family Violence Incidents
     5.     Dealing with Child Neglect/Abuse Incidents
     6.     Dealing with Bomb/Explosion Incidents
     7.     Dealing with Hostage Incidents
     8.     Dealing with Sniper Incidents
     9.     Dealing with Weapons of Mass Destruction Incidents
     10.    Dealing with Terrorist Incidents
     11.    Dealing with Contemporary Violence Group Incidents
     12.    Dealing with Narcotics Incidents
     13.    Dealing with Downed/Disabled Officer Incidents
     14.    Dealing with Crowd Control Needs/Incidents
     15.    Dealing with Robbery/Theft Incidents
     16.    Dealing with Abnormal Behavior
     17.    Dealing with Other Incidents
E.   Escorting and Protecting Officials
F.   Assisting Victims and Witnesses
     1.     Rights notification
G.   Conducting Investigations/Collecting and Preserving Evidence
     1.   Rules of evidence
     2.   Protecting and processing crime scenes
     3.   Conducting interviews/interrogations
     4.   Checking criminal histories
     5.   Obtaining and Executing Warrants/Search and Seizure
     6.   Using Informants/Sources
     7.   Taking and Retaining Investigative/Law Enforcement Notes
     8.   Gathering and Using Criminal Information/Intelligence
H.   Apprehending and Arresting/Detaining Suspects/Offenders
     1.    Self Defense/Protection/Survival Techniques
     2.    Use of force/Force continuum
           a. Non-lethal Responses
           b. Lethal Responses
     3.    Rights Notifications
     4.    Suicide and Death Notification
I.   Transporting and Processing Suspects/Offenders
     1.    Transporting suspects/offenders
     2.    Fingerprinting offenders
     3.    Preparing forms and reports
J.   Handling Juveniles
     1.    As Witnesses
     2.    As Suspects/Offenders
K.   Prosecuting Offenders
     1.    Dealing with Prosecutors

                               J-3
           2.    Dealing with Grand Juries
           3.    Dealing with Defense Attorneys
           4.    Testifying in Court
     L.    Preventing Crime (Programs and Activities)

V.   Protecting Law Enforcement Information
     A.    Security Classification and Handling Procedures
     B.    Safeguarding Police Sensitive Information




                                     J-4
Appendix K. Army Lesson Plan That Resulted
            From 1996 Job Task Analysis

        The United States Army Military Police School (USAMPS) surveyed Army civilian
police officers and security guards using 227 tasks presented as "closed-ended questions" in
questionnaire format, and then analyzed the results for those tasks where 30 percent or more
of the survey participants responded. Of the 227 tasks, 98 emerged as common to all Army
Major Commands. USAMPS concluded that these 98 tasks were the minimum tasks
required to perform civilian police officer and security guard duties in the Army. USAMPS
then developed training lesson plans based on the task analysis. These data are summarized
below.


                              Category                     Total Common Tasks
                                                           Tasks
                                                                  No.      %
            Law Enforcement Tasks                              63     61 96.83%
            MP Station Operation Tasks                         24       10 41.67%
            Physical Security Tasks                            50       17 34.00%
            MP Investigation Tasks                             35         3 8.57%
            Traffic Accident Investigation Tasks               16         7 43.75%
            Law Enforcement Administration Tasks               35         0 0.00%
            First Aid/Safety Tasks                              4         0 0.00%
                    Total                                     227       98 43.17%




Lesson Plans

       Lesson plans for basic, law enforcement/security, and supervisory skills (Tables B-1
through B-3) listed by [Plan of Instruction] POI file number.

                                    Table B-1. Basic Skills
                            Lesson/Task Number                   Lesson/Task Title
                                  FA 105       Perform First Aid to Prevent or Control Shock
        Chapter 1                 FA 107       Perform First Aid for Burns
        First Aid                 FA 108       Perform First Aid for Heat Injuries
                                  FA 125       Perform First Aid for an Open Abdominal Wound
                                  FA 126       Perform First Aid for an Open Chest Wound
                                  FA 133       Perform First Aid for an Open Head Wound
                                  FA 134       Perform First Aid for a Suspected Fracture
                                  FA 145       Perform First Aid for Cold Injuries
                                  FA 311       Control Bleeding



                                              K-1
                                                         M9 Pistol
     Chapter 2                 WH 430         Perform Operator Maintenance on an M9 Pistol
     Weapons
                               WH 432         Conduct Loading, Unloading, and Malfunction
                                              Procedures on an M9 Pistol
                               WH 450         Engage Targets with an M9 Pistol
                                                    M249 Machine Gun
                               WH 446         Perform Operator Maintenance on an M249 Machine
                                              Gun (SAW)
                               WH 456         Engage Targets with an M249 Machine Gun
                                                    M60 Machine Gun
                               WB 210         M60 Machine Gun
                                                      M16A1/A2 Rifle
                              WB 208A         M16 Zeroing/Group Exercise
                                                     12-Gage Shotgun
                              WHH 200         Fire the 12-Gage Shotgun
                               NB 100         Nuclear, Biological, and Chemical (NBC) Defense
     Chapter 3                 NB 101         Protect Yourself from NBC Injury/Contamination with
       NBC                                    the Appropriate Mission-Oriented Protective Posture
                                              (MOPP)
                               NB 102         React to a Chemical or Biological Hazard or Attack



                       Table B-2. Law Enforcement/Security Skills
                         Lesson/Task Number                    Lesson/Task Title

     Chapter 1                 LH 632         Use Unarmed Self-Defense Techniques
Unarmed Self-Defense           LH 634         Use the MP Club to Subdue a Suspect
                               LH 646         Determine if a Search and Seizure is Authorized
     Chapter 2
     Searches                  LH 648         Select Type of Body Search to Perform
                               LH 650         Perform a Stand-Up Search or a Frisk (Pat Down)
                               LH 652         Perform a Prone Search
                               LH 654         Perform a Wall Search
                               LH 656         Search a Building
                               LH 658         Search a Vehicle
                                                  Reports and Forms
     Chapter 3
  Law Enforcement              LH 620         Prepare DD Form 1920 (Alcoholic Influence Report)
    Operations                 LH 622         Prepare DA Form 3975 (Military Police Report)
                               LH 624         Prepare DA Form 2823 (Sworn Statement)
                               LH 686         Prepare DA Form 4137 (Evidence/Property Custody
                                              Document)
                                                    Patrol Activities
                               LH 206         Apprehension and Search
                               LH 210         Military Police Information and Interviews
                               LH 630         Record Police Information
                               LH 636         Secure an Offender with Hand Irons
                               LH 638         Determine the Level of Force Required
                               LH 644         Apprehend a Subject



                                          K-2
                        LH 660     Transport Offenders
                        LH 662     Identify Evidence/Contraband
                        LH 664     Collect Evidence
                        LH 666     Conduct Interviews
                        LH 668     Advise Suspect of Article 31—Miranda Rights
                        LH 670     Protect a Crime Scene
                        LH 696     Interpersonal Communication Skills
                        VH 450     Perform Preventive Maintenance Checks and
                                   Services (PMCS)
                                         Patrol Incidents
                        LH 400     Patrol Incidents
                        LH 674     Process a Drunk Driver
                        LH 676     Respond to a Bomb Threat
                        LH 678     Respond to a Domestic Disturbance
                        LH 680     Respond to an Alarm
                        LH 682     Respond to a Hostage Situation
                        LH 688     Respond to a Suspected Rape Report
                                        Traffic Operations
                        LH 640     Use Hand and Arm Signals to Direct Traffic
                        LH 642     Enforce Traffic Regulations
                        LH 672     Secure the Scene of a Traffic Accident
                        PS 102     Employ Physical Security Measures
     Chapter 4
                        PS 105     Implement Basic Measures to Reduce Your
  Physical Security
                                   Vulnerabilities to Terrorist Acts/Attacks
                        PS 106     Implement Measures to Reduce Your Unit’s
                                   Personnel and Equipment Vulnerabilities to Terrorist
                                   Acts/Attacks
                        SH 202     Physical Security
                        ST 1225    Employ Intrusion Detection System (IDS)
                        ST 1230    Personnel Identification and Control Procedures
                        ST 1240    Evaluate Package, Material, and Vehicle Control
                                   Procedures
                        LB 208     Civil Disturbance
      Chapter 5
                        LH 626     Use a Riot Baton
  Civil Disturbance
                        LH 628     Position Yourself in Riot Control Formations
                        LB 214     Process Offenders
      Chapter 6
                        LB 216     Military Police Records and Forms
MP Station Operations
                        LH 234     Juveniles
                        LW 206     Patrol Planning
                        LW 212     Duties of Military Police Operations Sergeant
                        TD 969     Police Intelligence Operations (PIO)




                                  K-3
                                   IA 115         Evidence Procedures
        Chapter 7
                                   IK 202         Investigative Photography
      Investigations
                                   IK 212         Larceny, Burglary, and Housebreaking
                                   IK 218         Process Fingerprint Evidence
                                   IK 220         Techniques of Crime Scene Processing
                                   LB 212         Interviews and Interrogations
                                   ZA 105         Authority and Jurisdiction
                                   ZA 109         Confessions and Admissions
                                   ZK 206         Crimes



                                 Table B-3. Supervisory Skills
                             Lesson/Task Number                       Lesson/Task Title
                                  GW 288          Duty Roster
      Chapter 1
                                   IA 103         Military Police Investigations
 MP-Station Operations
                                   IA 121         Interviews and Interrogations
                                   LA 105         Provost Marshal Administration and Automation
                                   LA 113         Desk Operations
                                   LA 703         Introduction to Provost Marshal Operations
                                   ZA 107         Search and Seizure
                                   ZA 111         Crimes
         Chapter 2                 LA 123         Traffic Management
Traffic-Section Operations
                                  GC 1250         Plan for a Bomb Incident
       Chapter 3
                                  GK 208          Introduction to Terrorism
    Physical-Security
      Operations                   PS 103         Develop Unit Physical Security Plan
                                   SA 101         Terrorist Operations
                                   SA 129         Physical Security
                                  SC 1205         Physical Security
                                  ST 1205         Identify Physical Security Threats
                                  ST 1220         Employ Perimeter Barriers and Protective Lighting
                                  ST 1235         Establish Lock and Key Control Procedures
                                  ST 1245         Supervise Physical Security-Force Operations
                                  ST 1255         Write/Review Physical Security Plans
                                  ST 1270         Bomb-Threat Contingency Planning
                                  ST 1275         Evaluate Physical Security Requirements for Facility
                                                  Inspection/Risk Analysis
                                  ST 1285         Conduct Physical Security Inspections/Surveys
                                  ST 1300         Review Security Management System
        Chapter 4                 LW 400          Conduct Platoon Riot-Control Formations
    Civil-Disturbance
                                   SA 115         Civil-Disturbance Operations
       Operations




                                             K-4
Tasks
       Tasks for basic, law enforcement/security, and supervisory skills (Tables C-1
through C-3) lesson plans, listed by task number.

                                       Table C-1. Basic Skills
                          Lesson/Task Number                 Lesson/Task Title
                             081-831-1000    Evaluate a Casualty
        Chapter 1            081-831-1005     Prevent Shock
        First Aid
                             081-831-1007     Give First Aid for Burns
                             081-831-1008     Give First Aid for Heat Injuries
                             081-831-1009     Give First Aid for Frostbite
                             081-831-1016     Put on a Pressure Dressing
                             081-831-1017     Put on a Tourniquet
                             081-831-1025     Apply a Dressing to an Open Abdominal Wound
                             081-831-1026     Apply a Dressing to an Open Chest Wound
                             081-831-1033     Apply a Dressing to an Open Head Wound
                             081-831-1034     Splint a Suspected Fracture
                             081-831-1045     Perform First Aid for Cold Injuries
                                                        M9 Pistol
        Chapter 2            071-004-0001     Perform Operator’s Maintenance on an M9 Pistol
        Weapons
                             071-004-0003     Operate an M9 Pistol
                             071-004-0006     Engage Targets with an M9 Pistol
                                                   M249 Machine Gun
                             071-010-0006     Engage Targets with an M249 Machine Gun
                             071-312-4025     Maintain an M249 Machine Gun
                             071-312-4027     Load an M249 Machine Gun
                             071-312-4030     Zero an M249 Machine Gun
                                                   M60 Machine Gun
                             071-312-3025     Maintain an M60 Machine Gun
                             071-312-3026     Perform a Functions Check on an M60 Machine Gun
                             071-312-3027     Load an M60 Machine Gun
                             071-312-3028     Unload an M60 Machine Gun
                             071-312-3029     Correct Malfunctions on an M60 Machine Gun
                             071-312-3031     Engage Targets with an M60 Machine Gun
                                                     M16A1/A2 Rifle
                             071-311-2004     Zero an M16A1 Rifle
                             071-311-2007     Engage Targets with an M16A1/A2 Rifle
                             071-311-2025     Maintain an M16A1/A2 Rifle
                             071-311-2026     Perform a Functions Check on an M16A1/A2 Rifle
                             071-311-2027     Load an M16A1/A2 Rifle
                             071-311-2028     Unload an M16A1/A2 Rifle
                             071-311-2029     Correct Malfunctions on an M16A1 or M16A2 Rifle




                                            K-5
                            071-311-2030    Zero an M16A2 Rifle
                                                 12-Gage Shotgun
                            191-381-1252    Perform Operator’s Maintenance on a 12-Gage
                                            Shotgun
                            191-381-1253    Load, Reduce Stoppage, and Clear a 12-Gage
                                            Shotgun
                            191-381-1254    Fire a 12-Gage Shotgun for Qualification
                            031-503-1015    Protect Yourself from NBC Injury/Contamination with
     Chapter 3                              Mission-Oriented Protective Posture (MOPP) Gear
       NBC
                            031-503-1019    React to Chemical or Biological Hazard/Attack
                            031-503-1024    Replace Canister on Your M40 Protective Mask
                            031-503-1025    Protect Yourself from Chemical and Biological
                                            Injury/Contamination Using Your M40-Series
                                            Protective Mask with Hood
                            031-503-1026    Maintain Your M40-Series Protective Mask with Hood



                       Table C-2. Law Enforcement/Security Skills
                         Lesson/Task Number               Lesson/Task Title
     Chapter 1              191-376-5103    Use Unarmed Self-Defense Techniques
Unarmed Self-Defense        191-376-5104    Use an MP Club to Subdue a Suspect
                            191-376-5114    Determine if a Search and Seizure is Authorized
     Chapter 2              191-376-5115    Select Type of Body Search to Perform
     Searches
                            191-376-5116    Perform a Stand-Up Search or a Frisk (Pat Down)
                            191-376-5117    Perform a Prone Search
                            191-376-5119    Perform a Wall Search
                            191-376-5121    Perform a Building Search
                            191-376-5122    Perform a Vehicle Search
                                                 Reports and Forms
     Chapter 3              191-310-0001    Prepare DD Forms 1920 (Alcoholic Influence Report)
  Law Enforcement
    Operations              191-376-0001    Prepare DA Forms 3975 (Military Police Report)
                            191-376-0002    Prepare DA Forms 2823 (Sworn Statement)
                            191-376-5138    Prepare DA Form 4137 (Evidence/Property Custody
                                            Document)
                                                  Patrol Activities
                            091-109-0005    Prepare Equipment Inspection and Maintenance
                                            Worksheet (DA Form 2404)
                            191-376-5100    Use Interpersonal Relations Skills
                            191-376-5101    Record Police Information
                            191-376-5105    Secure Offender with Hand Irons
                            191-376-5106    Determine the Level of Force Required
                            191-376-5112    Apprehend a Subject
                            191-376-5114    Determine if a Search or Seizure is Authorized
                            191-376-5123    Transport Offenders
                            191-376-5124    Identify Evidence/Contraband
                            191-376-5125    Collect Evidence
                            191-376-5126    Conduct Interviews



                                           K-6
                        191-376-5127    Advise Suspect of Article 31—Miranda Rights
                        191-376-5128    Protect a Crime Scene
                        551-721-1352    Perform Vehicle Preventive Maintenance Checks and
                                        Services (PMCS)
                                              Patrol Incidents
                        191-376-5113    Use MP Vehicle Emergency Equipment
                        191-376-5130    Process a Drunk Driver
                        191-376-5132    Respond to a Bomb Threat
                        191-376-5134    Respond to a Domestic Disturbance
                        191-376-5135    Respond to an Alarm
                        191-376-5136    Respond to a Hostage Situation
                        191-376-6090    Respond to a Suspected Rape Report
                                             Traffic Operations
                        191-376-5107    Use Hand and Army Signals to Direct Traffic
                        191-376-5110    Enforce Traffic Regulations
                        191-376-5129    Secure the Scene of a Traffic Accident
                        191-376-5131    Give Implied Consent Warning
                        191-376-6072    Prepare DA Form 3946 (Military Police Traffic
                                        Accident Report)
                        191-000-0002    Employ Physical Security Measures
     Chapter 4          191-000-0005    Implement Basic Measures to Reduce Your
  Physical Security                     Vulnerabilities to Terrorist Acts/Attacks
                        191-000-0006    Implement Measures to Reduce your Unit’s
                                        Personnel and Equipment Vulnerabilities to Terrorist
                                        Acts/Attacks
                        191-376-4112    Patrol a Restricted Area
                        191-376-4114    Control Entry to and Exit from a Restricted Area
                        191-376-4115    Enforce the Two-Person Rule
                        191-376-4117    Use the Duress-Code System
                        191-376-4118    Operate a J-SIIDS/I-SIIDS Monitor Unit
                        191-376-4119    Operate Riot Control Agent Dispensers (M33A1/M36)
      Chapter 5         191-376-4121    Use a Riot Baton
  Civil Disturbance
                        191-376-4122    Position Yourself in Riot Control Formations
                        191-378-4302    Conduct Squad-Sized Riot Control Formations
                        191-377-5204    Identify Errors on Military Police Reports and Forms
      Chapter 6         191-377-5205    Prepare a Military Police Desk Blotter (DA Form
MP Station Operations                   3997)
                        191-377-5206    Prepare and Maintain Desk Reference Cards (DA
                                        Form 3998)
                        191-377-5207    Process Offenders
                        191-377-5213    Process Juvenile Offenders
                        191-377-5214    Determine Elements of a Crime
                        191-378-5303    Collect, Compile, and Process Police Information
                        191-381-1303    Verify Accuracy of DD Form 367 (Prisoners Release
                                        Order) and DD Form 629 (Receipt for Prisoner or
                                        Detained Person)




                                       K-7
                                 191-390-0106     Develop and Lift Latent Impressions
        Chapter 7
                                 191-390-0100     Identify an Offense of Burglary
      Investigations
                                 191-390-0101     Identify an Offense of Housebreaking
                                 191-390-0112     Identify the Offense of Larceny or Wrongful
                                                  Appropriation of Property
                                 191-390-0114     Identify an Offense Involving Controlled Substances
                                 191-390-0120     Photograph a Crime Scene
                                 191-390-0121     Sketch a Crime Scene
                                 191-390-0122     Collect Physical Evidence at a Crime Scene
                                 191-390-0132     Interrogate Suspects(s) and Subject(s)
                                 191-390-0139     Take Record Fingerprint Impressions
                                 191-390-0158     Maintain Accountability of Evidence in an Evidence
                                                  Room
                                 191-390-0164     Apprehend an Offender
                                 191-390-0165     Conduct a Lawful Search and Seizure
                                 191-390-0168     Take Major Case Prints




                                  Table C-3. Supervisory Skills
                             Lesson/Task Number                   Lesson/Task Title
                                121-030-3502    Select a Detail Using a Duty Roster (DA Form 6)
       Chapter 1
                                 191-379-5402     Prepare a Patrol Distribution Plan
 MP Station Operations
                                 191-380-0109     Plan Patrol Activities
                                 191-400-0034     Direct the Conduct of a Police Administration Section
                                 191-400-0036     Direct the Conduct of Investigations
                                 191-400-0041     Establish Liaisons with Other Military/Civilian Law
                                                  Enforcement Agencies
                                 191-400-0044     Supervise Accountability of Evidence in the Evidence
                                                  Room
                                 191-400-0045     Direct Patrol Activities
                                 191-400-0046     Analyze Crime Statistics to Determine Law
                                                  Enforcement Problem Areas and Crime Trends
                                 191-400-0011     Supervise the Preparation of a Traffic Control Plan
         Chapter 2
                                 191-400-0037     Supervise the Development of Traffic Control
Traffic Section Operations
                                                  Procedures Based on Statistics
                                 191-400-0038     Direct the Development of a Traffic Control Study
                                                  Plan
                                 191-000-0003     Develop Unit Physical Security Plan
       Chapter 3
                                 191-377-4214     Supervise Emergency Entrance and Exit Procedures
    Physical Security
      Operations                 191-400-0006     Plan Terrorism Counteraction Activities
                                 191-400-0039     Determine Threat Potential for Physical Security
                                 191-400-0040     Supervise the Preparation of a Physical Security Plan
        Chapter 4                191-379-5400     Conduct Platoon Riot Control Formations
    Civil Disturbance
                                 191-400-0030     Plan Operations to Counter or Control Civil
       Operations




                                                K-8
Appendix L. Air Force Training for Military
            Law Enforcement Personnel

       The Air Force is committed to developing, funding, implementing and ensuring
thorough training. Air Force Policy Directive (AFPD) 36-22, “Military Training,”
September 17, 1993, requires:
               • training programs that satisfy mission-generated training
                   requirements and use the most efficient method possible;

               •   the resources necessary to conduct required training programs;

               •   training programs that use the Instructional System Development
                   (ISD) process; and

               •   developing, funding, acquiring, and maintaining training programs
                   based on requirements analysis, and documented in a system training
                   plan.


        The ISD process, a systems approach to education and training, is to increase
educational effectiveness and cost-efficiency through developing training instruction
based on job performance needs, eliminating irrelevant skills and knowledge
requirements, and ensuring graduates who have acquired the skills, knowledge and
attitudes necessary to perform their jobs. According to Air Force Manual (AFMAN) 36-
2234, “Instructional System Development,” November 1, 1993, the ISD process has four
phases:

        1. Analyze and determine instruction needs. The analysis uses Occupational
Survey Reports (OSR), technical orders and directives, Major Command (MAJCOM)
inputs (including Mission Task Analysis Reports), contractor/outside source data (e.g.,
the RAND study on Air Base attacks), and subject matter literature. The Utilization and
Training Workshop (U&TW), which is the Air Force process for identifying individual
job specialty training requirements, has an important role in this analysis.

        2. Design instruction to meet the need. The design includes selecting the
instructional method and media, determining the instructional strategies, and designing
objectives and tests. Each objective has three parts: learned behavior (task); condition;
and standard.

        3. Develop instructional material to support systems requirements. The
development includes designing and testing student and instructor lesson plans and study
guides.

        4. Implement the instructional system. The implementation includes validating
the instructional system.



                                            L-1
        An evaluation process accompanies the IDS process to test the instructional
systems and ensure that the training requirements for individual career fields are met.
This process is always ongoing, with continuing feedback from students, supervisors, and
unit leaders. (Needed to maintain Community College of the Air Force accreditation).

       Through these processes, the Air Force strives to staff positions with only
"Qualified Individuals" who have been certified in all tasks required in their assigned
duty positions, as defined in the Career Field Education and Training Plan (CFETP) and
supplemented as appropriate.

        Education and Training Objectives. Air Force training distinguishes between
education and training. According to Air Force Instruction (AFI) 36-2201, “Developing,
Managing and Conducting Training,” April 26, 2000, “training” teaches specific skills to
be performed under defined conditions, while “education” teaches a body of knowledge
to prepare students to deal with situations and solve problems not yet defined. This
Instruction also itemizes education and training program objectives, which are to:

          1. provide the best trained individuals, units, and forces possible;

          2. increase readiness and military effectiveness through quality programs;

       3. provide job-oriented, realistic training in the skills and knowledge required to
perform effectively in Air Force specialties;

          4. balance training capability and cost;

       5. have life-cycle education and training programs that use the continuous
learning concept;

          6. continuously develop and apply advanced education and training technology;
and

       7. use rigorous evaluation, feedback and improvements to ensure training and
education programs that prepare the forces to meet future challenges.

        Life-cycle Education and Training Program. This program, which uses CFETP as
the primary tool, applies to the “total force,” uses a continuous learning concept, is the
basis for identifying education and training requirements for every Air Force career field,
and serves as a road-map for career progression. Enlisted personnel must meet all
requirements outlined for their specialty in AFMAN 36-2108, “Airmen Classification,”
April 30, 2001, as well as all CFETP training required to progress through different “skill
levels” for the career field.1 The enlisted skill levels are:

            1. Apprentice (3-Skill level): an airman who has completed a resident initial
skills course.

1
    The process includes specific requirements for “cross-trainees” and some commissioned officer specialties. These specific
    requirements are not addressed here.



                                                               L-2
           2. Journeyman (5-skill level): an airman who has completed a 3 months
apprenticeship; mandatory Career Development Courses, if available; an additional
12 months in upgrade training (UGT); and acquired Senior Airman rank (E-4). The Air
Force Security Forces has a distant learning package for Career Development Course
training.

            3. Craftsmen (7-skill level): A Senior Sergeant (E-5) who has completed
mandatory Career Development Courses; been “certified” on all CFETP-identified core
tasks and supervisor-identified duty position tasks; attended the 7-skill level Craftsmen
Course, if available; and completed at least 12 months in UGT.

           4. Superintendent (9-skill level). Be a Senior Master Sergeant (E-8).

        For each skill level, the CFETP itemizes the specialty qualification requirements
under the following sections: knowledge; education; training courses (Formal/Distant
Learning); experience; other directed specific training requirements; and how/when to
implement a particular skill level. The CFETP also contains: Specialty Training
Standards (STS); course objectives list/training standards that supervisors use to
determine if an airmen has satisfied training requirements; training references; training
core indexes with both mandatory and optional courses; and MAJCOM-unique training
requirements. The STS lists each training requirement, along with the applicable training
standard(s) and training references, which help define and clarify the standard.
Specifically, the STS:

            1. Lists and details all training requirements to ensure standardization across
the Air Force. The Proficiency Code Key (PCK) categorizes training requirements as
either knowledge, performance, or task knowledge (information needed to perform a
task), and identifies the proficiency level an individual must attain to complete the
training. The PCK and training references are to ensure standardization in determining
"qualified individuals."

            2. Identifies core tasks and wartime tasks. Wartime task identification
enables quick response during a contingency or war when demands on technical schools
surge to qualify airmen in their career fields. During these times, wartime task are
trained and other task training is delayed or excluded. However, all Security Force
members must be trained on core tasks to receive a skill level. Without a 3-skill level
assignment, an airman cannot be assigned to full duty. (The Specialty Knowledge Tests
used in subsequent promotion tests are also based, in part, on this core task training.)
Additionally, a trainer cannot “close out” core items. After the trainer signs the record
showing an individual has been trained, a certifier (whom the commander has designated
in writing) uses an established checklist to evaluate whether the individual can perform
the task. The certifier must be at least an E-5, certified on the task personally, and have
completed the Air Force certifier training course. This double-checking mechanism
ensures that members can perform each task in their duty assignment. (This procedure
also applies to critical skills for which proficiency must be attained to accomplish
important mission facets. An example would be those tasks that a nuclear convoy
commander must perform.)


                                            L-3
           3. The STS and PCK are crucial in developing resident and distant learning
training courses, but the job qualification standard (JQS) for on-the-job training that is
included in Air Force Form 623, “On-The-Job Training Record,” is equally crucial in
ensuring skill level attainment.

        CFETP Development. Developing the CFETP, a crucial document in Air Force
training, is accomplished in the Utilization and Training Workshop (U&TW). The career
field manager, which the Deputy Chief of Staff/Assistant Chief of Staff designates, is
responsible for developing, implementing and maintaining the CFETP. AFMAN 36-
2245 prescribes the process and sets forth the guidance. The maintenance phase requires
the career field manager to review the CFETP with MAJCOM career field managers
annually, using feedback from the career field. If a major change is recommended, such
as when career fields merge or a career field takes on new duties and responsibilities,
another U&TW is required. The U&TW, among other uses, is the forum for: career field
leaders to establish the most effective and efficient training mix (formal and on-the-job
training) for each skill level; prepare training standards; and set training responsibilities.
The U&TW procedures are prescribed and must be followed. The requirements include:

             1. Identify job descriptions. Specialty Descriptions are reviewed to determine
if a classification should be changed. These descriptions, addressed in AFMAN 36-2105
and 36-2108, are the basis for establishing the requirements an individual must meet to
gain entry into the career field. If not properly established, they may preclude good
personnel from the career field. They may also allow ill-suited personnel unable to
complete required training or perform critical tasks to enter the career field initially. (In
either case, the impacts are adverse on the career field and available resources.)

            2. Identify job performance standards. The CFETP and data from the
Occupational Survey Report (job task analysis, usually completed every 5 years) are used
to establish a new task list for the career field. Training references are also determined.

          3. Identify skill level training requirements. A PCK is assigned to the job
performance standard.

            4. Identify CDC requirements. Review tasks/knowledge covered in each
distant learning package and determine adequacy. Feedback from the CDC and from
Specialty Knowledge Test writers is used to complete this function.

          5. Identify wartime training requirements. Identify skills that must be taught
when courses are accelerated for wartime.

             6. Identify core tasks. Identify the minimum tasks that each individual must
attain for the specialty and the skill level required for proficiency.

           7. Identify MAJCOM unique requirements. Incorporate into CFETP any
unique task and associated training standard on which an airmen must attain proficiency
to work in the MAJCOM.

           8. Identify Supporting Resources. Outline all manpower, equipment and

                                             L-4
supporting resources required to meet education and training objectives. (An increase in
requirements or standards can result in needs for more instructors, more training days,
and more equipment. Also, the “supply tail” for new requirements can affect the base.
For example, if more training days are added, more students are resident at the training
facility, increasing billeting needs, food service needs, and overall facility workload.)

           9. AFSC Conversion requirements. If career fields are merging, issues
involving areas such as promotion testing, skill level acquisition, and interim course
development must be identified and resolved.

          10. Interservice Training Review Organization (ITRO). If other Military
Department or Government Agency training is used, any change must be addressed in
accordance with procedures in AFI 36-2230(I), “Interservice Training,
September 28,1998.

       Training Categories. The CFETP (CFETP/Abbreviations/terms explained)
categories Air Force training as follows:2

          1. Initial Skills Training. A formal school course that leads to, or results in,
awarding the 3-skill level (based on the STS included in the CFETP).

            2. Qualification Training (Job Qualification Training). Actual hands on
performance-based training (two phases) designed to qualify airmen in a specific duty
position, based on skills from the STS and others needed to complete a specific job.

             3. On-the-job-training. Training used in certifying personnel in both upgrade
(skill level award) and job qualification training.

           4. Sustainment/recurring training. Training to sustain skills or knowledge
previously acquired. The CFETP lists the core skills and AFI 36-2225 lists the skills
requiring annual training.

            5. Advanced Training. Formal courses (outlined in the CFETP) that provide
additional skills to enhance expertise in the career field.

          6. Upgrade Training. Mandatory training (outlined in the CFETP) that leads
to awarding a higher skill level.

           7. Ancillary Training. Training that contributes to mission accomplishment,
but not required in the primary AFSC. Examples include Nuclear, Biological and
Chemical Training, and Sexual Harassment Training (skills not included in CFETP, but
included in AFCAT 36-2223).


2
    This training could all be categorized as:
    a. Skill level training: Based solely on CFETP. Includes initial skills training, sustainment training, upgrade training, and
    advanced training. Upgrade training includes the OJT that leads to skills certification.
    b. Job Qualification training: Includes qualification training, task-specific OJT, and continuation training.
    c. Ancillary Training.



                                                                 L-5
          8. Continuation training. Additional training beyond requirements that
emphasize present or future duty assignments.

        Unit Training. AFI 36-2225 set forth the guidance. The Air Force ensures
formal school training throughout a member's career to keep the member abreast of ever-
changing roles and responsibilities. However, most training is conducted at the unit
level. (For Air Force Security Forces personnel, ground combat skills training is
conducted at the unit level, the MAJCOM level, and at higher levels.) The primary
concern is preparing the individual for those tasks required to perform the job.

             Phase I. Phase I training (1-2 weeks) begins when a new member arrives at
the installation. This training prepares the individual to deal with installation-unique
issues and reiterates previous skills training. (The member might also receive ancillary
training at this time because it is much easier to schedule training before the member is
assigned to flight and begins a “shift” work schedule).

        The unit training section, which a Non-Commissioned Officer In Charge
(NCOIC) heads, is required to conduct Phase I training. The NCOIC must have attended
(or be scheduled to attend) the "Principles of Instruction Course," or the "Basic Instructor
Course," and is responsible for:

            1. Preparing a local master JQS (master task listing) from the CFETP that
specifies all tasks for positions in the unit.

          2. Preparing a separate JQS for each duty position. AFF 797 is used to
identify MAJCOM or local tasks not included in the CFETP.

          3. Working with the Standards and Evaluation section to create task
performance checklists that specify step-by-step procedures for duty-position tasks.

            4. Developing and using local Training, Training Exercise, and Evaluation
Outlines (TEEOs) to train and evaluate collective skills training. (Air Force also
identifies skills that teams need to perform, and team members must be certified on each
skill before they can participate with the team. Examples would be deployment teams
and Emergency Services Teams.)

            5. Monitoring distant learning and upgrade training. Usually, within the
training section, there is an enlisted training manager (separate Air Force Specialty Code)
who reports directly to the unit commander.

           6. Monitor, provide and track sustainment and ancillary training.

           7. Verify complete qualification training for duty positions.

            8. Maintain a test bank for Air Force, MAJCOM and local questions, and
establish test control procedures.

           9. Prepare the unit’s annual master training plan.


                                            L-6
            10. Inform the Standards and Evaluation section when a member completes
job qualification training.

           11. Monitor training records. (The supervisor keeps UGT records.)

             Phase II. The individual’s supervisor has the most important role in Phase II
training. The member is assigned to a supervisor and entered into Phase II training when
the member is assigned to a flight (duty status). The supervisor is responsible for
ensuring that the member learns and accomplishes each JQS task/knowledge item
required for the position. The member has 60 duty days to accomplish the skills. The
unit commander is responsible for designating posts where the member (not yet qualified
on a job position) can work. Flight leadership attempts to pair the member and
supervisor so training can be accomplished and certified, but mission needs sometimes
dictate and other flight members (not the supervisor) train the new member. If the trainer
is a designated trainer with authority to sign off/certify on the particular skill, the trainer
can sign the member's training records. If not, follow up training and certification are
required. (This usually happens only when a Senior Airman has been certified on the
skill, but has not taken the Train the Trainer Program and, therefore, is not authorized to
certify a new member’s training records.)

         After the new member has qualified on all tasks for the job, a standardization
evaluation (written, verbal, and practical exercises) is conducted within 30 duty days.
The member is “qualified” after passing this examination, but is subject to subsequent no-
notice evaluations. At minimum, the member must re-test/re-qualify annually. The
annual re-qualification includes a use-of-force test and a separate knowledge-based test
on the M-16 rifle. (These tests are not usually included in the initial qualification because
the initial qualification examinations occurred during Phase I training, before the new
member was assignment to flight (duty status).)




                                              L-7
Appendix M. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)
General Counsel, Department of Defense
Deputy Comptroller (Program Budget)
Deputy Chief Financial Officer, Accounting Policy Directorate, Under Secretary of
  Defense (Comptroller)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)*
Assistant Secretary of the Army (Manpower and Reserve Affairs)
General Counsel, Department of the Army
Inspector General, Department of the Army*
Deputy Chief of Staff for Operations and Plans*
Commander, U.S. Army Criminal Investigation Command

Department of the Navy
Assistant Secretary of the Navy (Manpower & Reserve Affairs)*
General Counsel, Department of the Navy
Naval Audit Service
Naval Inspector General*
Director, Naval Criminal Investigative Service*
Deputy Commandant, Plans, Policies and Operations, Headquarters, U.S. Marine Corps
Inspector General, U.S. Marine Corps*
Superintendent, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management & Comptroller)*
General Counsel, Department of the Air Force
Inspector General, Department of the Air Force
Commander, Air Force Office of Special Investigations*
Director of Security Forces*

Other Defense Organizations
Director, Defense Contract Audit Agency
General Counsel, Defense Logistics Agency
Inspector General, National Security Agency


                                         M-1
Inspector General, Defense Intelligence Agency
Defense Systems Management College

Non-Defense Federal Organizations
None

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy

* Recipient of Draft Report




                                         M-2
                         Appendix N. Management Comments
                                     Department of the Navy

Appendix N. Management Comments




                   N-1
Appendix N. Management Comments
            Department of the Air Force




                                          N-2
      Appendix N. Management Comments
                  Defense Logistics Agency




N-3
Appendix N. Management Comments
            Defense Logistics Agency




                                       N-4
Appendix N. Management Comments
            National Imagery and Mapping Agency




  N-5
Appendix N. Management Comments
            National Imagery and Mapping Agency




                                          N-6
Appendix N. Management Comments
            National Imagery and Mapping Agency




  N-7
Appendix N. Management Comments
            National Imagery and Mapping Agency




                                          N-8
                           Appendix N. Management Comments
                                       National Security Agency




NSA comments were “For Official Use Only”




                   N-9
Appendix N. Management Comments
            Army Reserve




                                  N-10
       Appendix N. Management Comments
                   Army Reserve




N-11
                       Evaluation Team Members
Deputy Assistant Inspector General for Investigative Policy and Oversight, Office of the
Assistant Inspector General for Inspections and Policy, Office of the Inspector General,
Department of Defense.


Jack L. Montgomery, Project Manager

John J. Perryman, Criminal Investigator

Craig W. Rupert, Criminal Investigator

Scott D. Russell, Criminal Investigator

Randy Knight, Criminal Investigator

Captain Michael R. Florio, Evaluator

Robert W. Busby, Investigative Review Specialist

Nakita R. Pounds, Investigative Review Specialist

Love A. Silverthorn, Investigative Review Specialist
